<html>
<title> - EMERGENCY MGMT 2.0: HOW #SOCIALMEDIA & NEW TECH ARE TRANSFORMING PREPAREDNESS, RESPONSE, & RECOVERY #DISASTERS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   EMERGENCY MGMT 2.0: HOW #SOCIALMEDIA & 
                    NEW TECH ARE TRANSFORMING PREPAREDNESS, 
                    RESPONSE, & RECOVERY #DISASTERS
=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY

                        PREPAREDNESS, RESPONSE,

                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                     JUNE 4, 2013 and JULY 9, 2013

                               __________

                           Serial No. 113-20

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
85-685                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina

                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
  
  
Mr. Mark Sanford of South Carolina was elected to the committee 
    on June 12, 2013.
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Susan W. Brooks, Indiana, Chairwoman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Tom Marino, Pennsylvania             Yvette D. Clarke, New York
Steven M. Palazzo, Mississippi       Brian Higgins, New York
Scott Perry, Pennsylvania            Bennie G. Thompson, Mississippi 
Mark Sanford, South Carolina             (ex officio)
Michael T. McCaul, Texas (ex 
    officio)
            Eric B. Heighberger, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
  
  
On June 12, 2013, Mr. Tom Marino of Pennsylvania resigned as a 
    Member of the subcommittee and Mr. Mark Sanford of South 
    Carolina was appointed to the vacancy.


                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 4, 2013

                               Statements

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Matthew Stepka, Vice President, Technology for Social Impact, 
  Google.org:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Jason Matthew Payne, Philanthropy Lead, Palantir 
  Technologies:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Michael Beckerman, President and CEO, The Internet 
  Association:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Jorge L. Cardenas, Vice President, Asset Management and 
  Centralized Services, Public Service Electric and Gas Company:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29

                             For the Record

The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Prepared Statement of Christine Thompson, President and Co-
    Founder of Humanity Road.....................................    47
  Prepared Statement of BEOC Alliance............................    49

                              JULY 9, 2013
                               Statements

The Honorable Susan W. Brooks, a Representative in Congress From 
  the State of Indiana, and Chairwoman, Subcommittee on Emergency 
  Preparedness, Response, and Communications:
  Oral Statement.................................................    52
  Prepared Statement.............................................    54
The Honorable Eric Swalwell, a Representative in Congress From 
  the State of California:
  Oral Statement.................................................    59
  Prepared Statement.............................................    61
The Honorable Bennie G. Thompson a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................    63

                               Witnesses

Mr. Shayne Adamski, Senior Manager of Digital Engagement, Federal 
  Emergency Management Agency, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    64
  Prepared Statement.............................................    66
Ms. Suzanne C. DeFrancis, Chief Public Affairs Officer, American 
  Red Cross:
  Oral Statement.................................................    74
  Prepared Statement.............................................    76
Mr. Albert Ashwood, Director, Oklahoma Department of Emergency 
  Management:
  Oral Statement.................................................    83
  Prepared Statement.............................................    84
Mr. W. Greg Kierce, Director, Jersey City Office of Emergency 
  Management and Homeland Security:
  Oral Statement.................................................    88
  Prepared Statement.............................................    92

                                Appendix

Question From Chairwoman Susan W. Brooks for Shayne Adamski......   113
Question From Chairwoman Susan W. Brooks for Albert Ashwood......   113


   EMERGENCY MGMT 2.0: HOW #SOCIALMEDIA & NEW TECH ARE TRANSFORMING 
  PREPAREDNESS, RESPONSE, & RECOVERY #DISASTERS #PART1 #PRIVATESECTOR

                              ----------                              


                         Tuesday, June 4, 2013

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 311, Cannon House Office Building, Hon. Susan W. Brooks 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Brooks, King, Palazzo, Perry, 
Payne, and Clarke.
    Mrs. Brooks. The Committee on Homeland Security's 
Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order.
    The subcommittee is meeting today to examine the impact 
social media and new technology is having on disaster 
preparedness, response, and recovery.
    I now recognize myself for an opening statement.
    In today's technology-driven world, social media and other 
types of new technology are becoming one of the primary ways we 
receive, process, and relay information.
    Studies have shown that more than 60% of the people in the 
United States have at least one social media account, with many 
having multiple accounts to include Facebook pages, Twitter 
profiles, and Pinterest boards.
    While social media originally started out as a way to share 
information among family and friends, it is evident that it has 
evolved to serve other functions, such as prevalent sources for 
news, advertising, and entertainment.
    But another evolving and very important role, and the 
subject of this hearing, is its use in preparing for, 
responding to, and recovering from disasters.
    We have heard numerous stories from Hurricane Sandy and the 
Boston bombings of how citizens used Facebook, Twitter, and 
Instagram to relay information to first responders, communicate 
with loved ones, and request assistance when cell phone service 
was unavailable.
    According to the 2013 National Preparedness Report, which 
was released by FEMA last week, during Hurricane Sandy, ``Users 
sent more than 20 million Sandy-related Twitter posts, or 
`tweets,' despite the loss of cell phone service during the 
peak of the storm.''
    We have also seen how response organizations are using 
social media to quickly share public safety information and 
maintain direct communication with disaster survivors during 
and after an incident.
    The Center for Naval Analysis conducted a survey of the use 
of social media by emergency management agencies and found that 
77 percent of survey respondents use social media, with 55 
percent setting the goal of monitoring social media during an 
event.
    Even just last month during the devastating tornado in 
Oklahoma, the cities of Moore and Oklahoma City used their 
Twitter accounts, their cities' Twitter accounts, to relay 
real-time updates on open shelters, road closures, lost-and-
found pets, and personal items. They also actively monitored 
their Twitter accounts and responded to requests for assistance 
posted by disaster survivors.
    I personally found that during the severe flooding that 
occurred in my district in Indiana in April, the Indiana 
Department of Homeland Security also used Facebook and Twitter 
to relay information to my constituents, such as how to report 
damage, where to get assistance, which was very effective and 
proved to be more efficient than using traditional media 
avenues, like television and radio. I also personally posted on 
my Facebook page to inform constituents about the flooding and 
the Federal assistance that was available.
    Social media is not the only thing that is transforming how 
we prepare for, respond to, and recover from disasters. In 
January of this year, I had the opportunity to travel to 
Silicon Valley with some of my colleagues, and on that trip, we 
met with companies that were on the leading edge of new 
technology that are also contributing to the preparation for, 
response to, and recovery from disasters.
    Two of these amazing companies are here today, Google and 
Palantir, and it was amazing to see the innovation and the 
ingenuity being used by the private sector.
    It gave me hope, filled me with excitement to sit with 
representatives from these companies, learn about not only what 
they are doing, but what they are planning and what they are 
thinking about for the future.
    The management of ``big data'' and the use of social media 
provide enormous opportunities for efficiency in emergency 
management, and I believe that these companies and 
organizations before us can make a difference in how this 
country is able to prepare for and respond to disasters.
    While there are numerous examples of how social media and 
new technology have enhanced emergency management activities, I 
would be remiss to not also point out that there can be some 
pitfalls of which we need to be wary.
    For example, recent events have shown us how misleading, 
faulty, or even malicious information can escalate quickly on 
social media sites and negatively affect response efforts.
    We have also seen that social media can be used to spread 
messages of hate. Immediately after the recent terror attack 
for instance in London, the attackers actually engaged those 
who had cameras knowing that their message would make its way 
to YouTube and be broadcast around the world.
    We also must be cognizant on the limitations of technology, 
such as its reliance on power sources and internet connections.
    But I am very pleased today to be welcoming our 
distinguished panel of witnesses and we look forward to hearing 
your perspectives again, on particularly the private sector's 
involvement with Government in preparation, response to, and 
recovery in disasters.
    [The statement of Chairwoman Brooks follows:]
                Statement of Chairwoman Susan W. Brooks
    In today's technology-driven world, social media, and other types 
of new technology are becoming one of the primary ways we receive, 
process, and relay information. Studies have shown that more than 60% 
of the people in the United States have at least one social media 
account, with many having multiple accounts to include Facebook pages, 
Twitter profiles, and Pinterest boards. While social media originally 
started out as a way to share information among friends, it is evident 
that it has evolved to serve other functions, such as a prevalent 
source for news, advertising, and entertainment.
    Another evolving role, and the subject of this hearing, is its use 
in preparing for, responding to, and recovering from disasters. We have 
heard numerous stories from Hurricane Sandy and the Boston bombings of 
how citizens used Facebook, Twitter, and Instagram to relay information 
to first responders, communicate with love ones, and request assistance 
when cell phone service was unavailable. According to the 2013 National 
Preparedness Report, which was released by FEMA last week, during 
Hurricane Sandy, ``users sent more than 20 million Sandy-related 
Twitter posts, or `tweets,' despite the loss of cell phone service 
during the peak of the storm.''
    We have also seen how response organizations are using social media 
to quickly share public safety information and maintain direct 
communication with disaster survivors during and after an incident. The 
Center for Naval Analyses conducted a survey of the use of social media 
by emergency management agencies and found that 77 percent of survey 
respondents use social media, with 55 percent setting the goal of 
monitoring social media during an event.
    For example, during the devastating tornado in Oklahoma last month, 
the cities of Moore and Oklahoma City used their Twitter accounts to 
relay real-time updates on open shelters, road closures, lost-and-found 
pets, and personal items. They also actively monitored their Twitter 
accounts and responded to requests for assistance posted by disaster 
survivors.
    I personally found that during the severe flooding that occurred in 
my district in April, the Indiana Department of Homeland Security used 
Facebook and Twitter to relay information to my constituents, such as 
how to report damage and where to get assistance, which was very 
effective and proved to be more efficient than using traditional media 
avenues, like television and radio. I personally posted information on 
my Facebook page to inform constituents about the flooding and Federal 
assistance available.
    Social media is not the only thing that is transforming how we 
prepare for, respond to, and recover from disasters. In January of this 
year, I had the opportunity to travel to Silicon Valley with some of my 
colleagues. On that trip, we met with companies on the leading edge of 
new technology that are also contributing to the preparation, response, 
and recovery from disasters--two are represented here today, Google and 
Palantir. It was amazing to see the innovation and ingenuity being used 
by the private sector. It gave me hope and filled me with excitement to 
sit with representatives from these companies and talk not only about 
what they are doing, but what they are planning and thinking about for 
the future. The management of ``big data'' and the use of social media 
provide enormous opportunities for efficiencies in emergency management 
and I believe that these companies and organizations before us can make 
a difference in how this country is able to prepare for and respond to 
disasters.
    While there are numerous examples of how social media and new 
technology have enhanced emergency management activities, I would be 
remiss to not point out that there are pitfalls of which we need to be 
wary. For example, recent events have shown us how misleading, faulty, 
or malicious information can escalate quickly on social media sites and 
negatively affect response efforts. We have also seen that social media 
can be used to spread messages of hate. Immediately after the recent 
terror attack in London the attackers actually engaged those with 
cameras knowing that their message would make its way to YouTube and 
broadcast around the world. We must also be cognizant on the 
limitations of technology, such as its reliance on power sources and 
internet connections.
    I am pleased to welcome our distinguished panel of witnesses and 
look forward to hearing your perspectives on this topic.

    Mrs. Brooks. I now will recognize the gentleman from New 
Jersey, Mr. Payne for any opening statement you might have.
    Mr. Payne of New Jersey. Good morning.
    I would like to thank the witnesses for being here today 
and Chairwoman Brooks for holding these series of hearings.
    The internet has changed the world. It has changed how a 
Government serves its citizens and how businesses serve its 
customers and how the public engages in the political and 
social action.
    During recent disasters from Hurricane Sandy to Boston 
Marathon bombings, the internet was used to galvanize ordinary 
citizens. After the Boston Marathon bombings, Boston residents 
used Google Docs to let marathoners know that their homes were 
open to those who were unable to get back to their hotels.
    After Hurricane Sandy, survivors used Twitter and Facebook 
to post images of the devastation caused by the storm. 
Survivors also used social media to reconnect with love ones 
and share information about gas stations, grocery stores, and 
pharmacies that were available.
    Others used social media to coordinate volunteer response 
and aid efforts. Clearly, social media and ``big data'' have 
revolutionized disaster preparedness and response activities.
    The FEMA's 2013 National Preparedness Report, which was 
released last week, found that emergency management agencies 
are increasingly using social media to disseminate information 
and are exploring additional applications of social media.
    The same report also found progress in the use of 
information management systems and on-going data integration 
efforts to improve information sharing and situation awareness.
    As Members of the Committee on Homeland Security and the 
Subcommittee on Emergency Preparedness Response Communications, 
we sit in a unique position as internet technology evolves and 
the world continues to change around us.
    Our role requires us to help the Federal Government, State, 
and local first responders and the private sector harness the 
potential that the internet technology can bring to bear in 
disaster preparedness and response activities while working to 
mitigate the inherent limitations of the technology.
    Despite the benefits social media can yield, we know that 
technology can be used to spread misinformation. We know social 
media and web data are vulnerable to hacking and misuse.
    We know that unless data is integrated and organized 
properly and shared with the right people, it is useless, and 
we know that unless someone has the internet, none of this 
information is going to reach them. During disasters it is 
critical the information be accurate, secure, and accessible.
    I look forward to exploring these issues with our private-
sector witnesses today. By launching rumor control, a website 
devoted to correcting misinformation circulated by social media 
sites, FEMA has begun to tackle some of these issues, but I 
think the witnesses here today have valuable insight to offer.
    I know the PSE&G was recently recognized for innovative use 
of social media during Hurricane Sandy. I know that PSE&G 
participates in the Business Emergency Operation Center 
Alliance in New Jersey which facilitates public and private 
information sharing during disasters. Their good work should 
provide valuable information on best practices to improve the 
use of social media during major disasters.
    I look forward to the testimony of all of our witnesses 
here today, and I yield back the balance of my time.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                              June 4, 2013
    The internet has changed the world--it has changed how the 
Government serves its citizens, how businesses serve its customers, and 
how the public engages in political and social action.
    During recent disasters--from Hurricane Sandy to the Boston 
Marathon bombings--the internet was used to galvanize ordinary 
citizens. After the Boston Marathon bombings, Boston-residents used 
Google Docs to let marathoners know that their homes were open to those 
unable to return to their hotels.
    After Hurricane Sandy, survivors used Twitter and Facebook to post 
images of the devastation caused by the storm.
    Survivors also used social media to reconnect with loved ones and 
share information about open gas stations, grocery stores, and 
pharmacies. Others used social media to coordinate volunteer response 
and aid efforts.
    Clearly, social media and big data have revolutionized disaster 
preparedness and response activities.
    The FEMA's 2013 National Preparedness Report, which was released 
last week, found that emergency management agencies are increasingly 
using social media to disseminate information and are exploring 
additional applications of social media. The same report also found 
progress in the use of information management systems and on-going data 
integration efforts to improve information sharing and situational 
awareness.
    As Members of the Committee on Homeland Security and the 
Subcommittee on Emergency Preparedness, Response, and Communications, 
we sit in a unique position as internet technology evolves and the 
world continues to change around us.
    Our role requires us to help the Federal Government, State and 
local first responders, and the private sector harness the potential 
that internet technology can bring to bear in disaster preparedness and 
response activities, while working to mitigate the inherent limitations 
of the technology.
    Despite the benefits social media can yield, we know that the 
technology can be used to spread misinformation. We know that social 
media and web data are vulnerable to hacking and misuse.
    We know that unless data is integrated and organized properly and 
shared with the right people, it is useless. And we know that unless 
someone has internet access, none of this information is going to reach 
them.
    During disasters, it is critical the information be accurate, 
secure, and accessible.
    I look forward to exploring these issues with our private-sector 
witnesses today. By launching Rumor Control, a website devoted to 
correcting misinformation circulated by social media sites, FEMA has 
begun to tackle some of these issues.
    But I think that the witnesses here today have valuable insight to 
offer. I know the PSE&G was recently recognized for its innovative use 
of social media during Hurricane Sandy. And I know that PSE&G 
participates in the Business Emergency Operations Center Alliance in 
New Jersey, which facilitates public-private information sharing during 
disasters. Their good work should provide valuable information on best 
practices to improve the use of social media and big data during 
disasters.

    Mrs. Brooks. Other Members of the committee are reminded 
that opening statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
    I have served on this committee for over a decade. During that 
time, I have witnessed natural disasters and terrorist attacks. And I 
have seen the use of social media evolve as a tool in our efforts to 
keep this Nation safe.
    When you compare the response following Hurricane Katrina with the 
response following Hurricane Sandy, it is clear that both the 
Government and the public have grown increasingly adept at integrating 
social media into emergency response activities.
    The advent of social media has provided the general public with new 
avenues for sharing information and organizing private response 
activities.
    And social media allows the Government and private sector to 
disseminate useful information to hundreds of thousands of people. We 
cannot underestimate the value of useful, accurate information before, 
during, and after a disaster. It can save lives.
    So while I support the innovative use of social media and big data 
in disaster preparedness and response, we must be certain that this 
technology is not only used appropriately and effectively, but also 
that the information distributed is reliable.
    I was particularly troubled by misinformation that circulated after 
the Boston Marathon bombings, which incorrectly identified a missing 
man as a possible suspect.
    And while I am not advocating censorship, I am concerned that 
social media may not have the appropriate policies in place to ensure 
either that disaster-related information is accurate, or that 
inaccurate information is quickly removed.
    Additionally, I have concerns about how law enforcement uses social 
media in executing investigations. We must take some reasonable steps 
to assure that the users of social media have a clear understanding of 
privacy rights and protections.
    Although an expectation of privacy in personal information placed 
on social media networks may not be reasonable, there is a reasonable 
expectation that the information will not be used to engage in data 
mining or otherwise target individuals who are exercising 
Constitutionally-protected rights.

    Mrs. Brooks. We are very pleased to have a very 
distinguished panel before us today for this important topic.
    First on the panel is Mr. Matthew Stepka, the vice 
president of Google.org. In this role, Mr. Stepka leads social 
impact efforts at Google including Google.org, Google Giving, 
Google Ideas, Google Green, Elections & Politics, Google for 
Non-Profits, and Crisis Response.
    Since joining Google in 2007, Mr. Stepka has led efforts in 
areas ranging from expanding internet access, developing clean 
energy, and extending Google's footprint in emerging markets.
    Next on the panel is Mr. Jason Payne who serves as the head 
of the philanthropy engineering team at Palantir technologies. 
Mr. Payne manages the implementation of Palantir's 
philanthropic endeavors and has extensive experience with 
counterterrorism and counter insurgency missions as well as of 
the rule of law and counter corruption efforts.
    Mr. Michael Beckerman is the president and CEO of the 
Internet Association, a Washington, DC trade association 
representing some of the most well-known global internet 
brands. Prior to his appointment as CEO, Mr. Beckerman served 
as 12 years as a Congressional staff member serving on the 
House Committee on Energy and Commerce.
    I would ask Ranking Member Payne to please introduce our 
next panelist.
    Mr. Payne of New Jersey. Thank you, Madam Chairwoman, and 
just for full disclosure to the committee, Mr. Payne and I are 
not related.
    Mr. Payne. Thank you.
    Mr. Payne of New Jersey. Thank you.
    Our final witness is George Cardenas, vice president of 
asset management and central services at PSE&G.
    In this role, he is responsible for electric and gas asset 
strategy and reliability, electric delivery planning, unit 
business performance and improvement, and utility operation 
services among other things.
    Prior to this position, Mr. Cardenas was the vice president 
for gas delivery with responsibility for providing gas delivery 
and appliance repair services to 1.8 million public service 
electric and gas customers.
    He is recognized as a champion for health and safety in the 
workplace. He sits on the leadership council of the American 
Gas Association and serves on the Board of Directors of the 
Northeast Gas Association and has honored with the New Jersey 
Minority Achievers award in 2004.
    Mr. Cardenas received his bachelor's degree in engineering 
from the Stevens Institute of Technology and completed the Penn 
State Executive Development program.
    He received his masters of business administration degree 
from Rutgers University Executive MBA program, and given his 
impressive background, there is no surprise that he is part of 
the leadership innovating to provide the best customer 
communications during disaster.
    Public Service Electric and Gas was recently recognized by 
CS Week and JD Power Associates for its innovative use of 
social media during Hurricane Sandy and is a member of the BEOC 
Alliance, which facilitates communications among the private 
sector during disasters.
    I am grateful for Public Service Electric and Gas' efforts, 
and I am happy to have Mr. Cardenas here to talk about Public 
Service Electric and Gas and about my home State of New 
Jersey--are on the cutting edge of using the new technology 
during disasters, which we are very proud of.
    Thank you.
    Mrs. Brooks. Thank you.
    The witness' full written statements will appear in the 
record.
    The Chairwoman now recognizes and Mr. Stepka for 5 minutes 
for your opening statement.

  STATEMENT OF MATTHEW STEPKA, VICE PRESIDENT, TECHNOLOGY FOR 
                   SOCIAL IMPACT, GOOGLE.ORG

    Mr. Stepka. Chairwoman Brooks, Ranking Member Payne, and 
Members of the subcommittee, thank you for the opportunity to 
appear before you today and for your interest in the importance 
of internet-based technology and disaster preparedness, 
response, and recovery.
    My name is Matthew Stepka. I am vice president of 
technology for social impact, a part of Google where we use 
trends and information and technology to address global 
challenges and make a lasting impact.
    We have learned that people turn to the internet when there 
is an emergency. We want to help ensure that the right 
information is there when people need it.
    In the first half of this year alone, millions of people 
around the world have been affected by natural disasters. Just 
2 weeks ago, we witnessed the devastating the power of 
tornadoes raging across Oklahoma. Our hearts go out to all of 
the individuals affected by these disasters.
    Our goal is to make it easier to get people the actionable 
emergency information they need when they need it most. We do 
this by organizing emergency alerts, news updates, and missing 
persons information, building tools that enable better 
communication and collaboration among responders and those 
affected by crisis, providing updated satellite imagery and 
maps of affected areas, and donating to charitable 
organizations that are on the ground helping to provide direct 
relief.
    As a result of our work, we have learned a number of 
lessons about the space. The first is that people want to find 
critical information through a familiar technology. So we 
collect and curate relevant information and make it available 
on Google tools where it is most effective.
    We add essential phone numbers, add links to the top of our 
search results, we place links on our home page, we create maps 
that show information from authorities and communities, and 
provide tools to help people connect with loved ones in the 
aftermath of disasters.
    We are able to do this thanks to the innovative technology 
all around us, and more and more things through the ubiquity of 
mobile devices. Via smartphones, we are able to send our users 
critical notifications that are relevant to them in near-real 
time based on the location and the conditions around them.
    One of our services, public alerts, compiles and displays 
authoritative emergency information across Google properties 
based on user's locations or search query.
    Four days before the Sandy storm hit the East Coast, users 
who typed in terms like Sandy, hurricane, high wind into Google 
search started seeing an official National Weather Service 
warning containing a link to more information including maps, 
news, and how to stay safe.
    Recently through a partnership with the National Center for 
Missing and Exploited Children, we started publishing Amber 
Alerts using the same public alerts platform.
    When you receive a message on your phone about a child who 
just went missing in your neighborhood or a tornado that is 
forming nearby, the first thing you will do is search for more 
information, which we can help you find.
    We also pulled crisis maps which compile authoritative 
emergency information from multiple sources into one single map 
so people no longer have to search across many websites.
    Following the Oklahoma tornadoes, for example, our team 
launched a crisis map that included Red Cross shelters, traffic 
alerts, storm reports, post-disaster imagery, and other 
information.
    A second lesson is that crowdsourcing can enhance both 
quality and timeliness of critical information. Anyone can use 
Google mapping services to create their own maps and even host 
their content and data in a scalable way. Because they are 
open-source, anyone can employ, update, and improve our tools.
    We have learned during some disasters, authoritative 
sources may not have as expansive information as individuals on 
the ground do. For example, do filling stations have gasoline? 
To answer that question during Sandy, a group of student 
volunteers called stations in New Jersey to check whether they 
were open and had gas available.
    Within a few days they had data for more than 1,000 
different stations, which was fed into our Sandy crisis map 
automatically. The Department of Energy's call center ended up 
referencing this information.
    A third lesson is that we learned, critical for emergency 
information to be available, it should be open and on-line 
formats.
    So open and secure formats which have open licenses before 
a disaster. This is critical. In the past, Google has had to 
gather emergency information from websites in non-structured 
and difficult to automate formats such as texts and PDFs and 
translate them into open standards.
    When data is not in open formats, many steps are required 
to share it and each extra step can keep critical information 
from getting to people in a timely manner.
    This is why we advocate using an open, secure, and common 
standard so that everyone has a consistent way to receive and 
share alerting information and to create useful visualization 
of the content.
    Data providers that follow these practices could update 
their information automatically making it available on-line 
securely within seconds.
    The Government can help by ensuring that important 
emergency information is available in open, interoperable 
formats. We commend the White House for the recent Executive 
Order requiring the Federal Government data to be made 
available in open machine readable formats by default. We also 
welcome steps Congress has taken to increase access to 
Government data.
    We hope that agencies with emergency information in 
particular begin adopting these standards and licensing terms 
as soon as possible.
    It is through open data that we are able to develop 
innovative alerts and other new products. With more open and 
secure data we can display more consistent and more actionable 
alerts covering things like power outages and road closures 
where there are floods. We can also send specific evacuation 
instructions to different people based on their location.
    We still have a long way to go, but we look forward to 
working alongside emergency relief organizations and 
governments to help people find the information they are 
looking for during disasters.
    Thank you very much for your time. I am happy to answer any 
questions you may have.
    [The prepared statement of Mr. Stepka follows:]
                  Prepared Statement of Matthew Stepka
                              June 4, 2013
    Chairman Brooks, Ranking Member Payne, and Members of the 
subcommittee: Thank you for your interest in the importance of 
internet-based technology in disaster preparedness, response, and 
recovery. My name is Matthew Stepka, and I am honored to appear before 
you on behalf of Google. As vice president of technology for social 
impact, I lead our efforts to develop technologies to help address 
global challenges, including our Crisis Response initiatives.
    In the first half of this year alone, millions of people around the 
world have been affected by natural disasters in places like Iran, 
China, Australia, Japan, Indonesia, and Myanmar. Here at home, just 2 
weeks ago, we witnessed the devastating power of tornadoes raging 
across Oklahoma. Our hearts go out to all of the individuals affected 
by these disasters.
    When emergencies like these arise, people turn to the internet for 
information. Google wants to help ensure that the right information is 
there in their time of need. So we build tools to collect and share 
emergency information, and we support first responders in using 
technology to help improve and save lives.
    Google Crisis Response has been responding to natural disasters 
since Hurricane Katrina in 2005, making information such as storm 
paths, shelter locations, evacuation orders or zones, and donation 
opportunities easily accessible. More recently, Hurricane Sandy 
catalyzed a broader awareness of how the internet can play a critical 
role in crisis response. As that storm approached and then struck the 
East Coast last fall, our team at Google put everyday tools like Google 
Search and Google Maps to use, sharing emergency weather updates, maps 
of the storm path, shelters, and evacuation zones, and many other kinds 
of information across our services. For those of us with loved ones 
affected by the storm, being able to follow updates of that crisis on-
line in near-real time was invaluable.
    During a disaster, our Crisis Response team follows the lead of 
emergency relief organizations, Government agencies, and first 
responders with the goal of supporting them with services that make it 
easier to get people the actionable emergency information they need 
when they need it most. The types of activities we might initiate 
include:
  <bullet> organizing emergency alerts, news updates, and missing 
        person information, and making this information visible through 
        our web properties;
  <bullet> building tools that enable better communication and 
        collaboration among crisis responders and those affected by the 
        crisis;
  <bullet> providing updated satellite imagery and maps of affected 
        areas to illustrate infrastructure damage and help relief 
        organizations navigate disaster zones;
  <bullet> donating to charitable organizations that are providing 
        direct relief on the ground.
    Each time, we learn more about how governments, organizations, and 
companies can maximize the potential of the internet to assist in 
disaster preparedness and relief by providing access to actionable 
information. We believe that applying the lessons of our continual 
learning in this area can improve the use of technology in crisis 
response.
                    observations and best practices
1. People want to find critical information through familiar 
        technology.
    We know that during disasters, people look on-line to learn how to 
stay safe and we want to ensure that the right information is there in 
their time of need. In the wake of the earthquake in Sendai, Japan, 2 
years ago, we saw a massive spike in search queries coming from Hawaii 
for information about a tsunami. Unfortunately, the immediate results 
were not providing all the information those users needed because 
authoritative sources did not share that information in easily 
discoverable ways. So last year we launched a product called Public 
Alerts to make authoritative emergency information easier for our users 
to find. Through partnerships with Government agencies and other 
authoritative information providers, we are able to collate critical 
alerting information and provide instructions for how to prepare for 
severe weather conditions and other events such as wildfires and 
earthquakes.
    In incorporating public alert data from authoritative, trusted 
sources into Google Search, Google Maps, and other Google properties, 
we hope to simplify the process of finding critical emergency 
information. In order to provide the most relevant alerts to our users, 
the alert you see (if any) may depend on what alerts are active at a 
given location, their severity, your search query, your default 
location settings, or your device location.
    Four days before Hurricane Sandy hit the East Coast, we began 
providing an alert for users who typed terms like ``Sandy,'' 
``hurricane,'' or ``high wind'' into our search box. An official 
National Weather Service warning appeared with a link to more 
information, including maps, news, contextual information, and steps 
people could take to keep themselves safe. To scale this initiative, we 
are currently working with official U.S. agencies, such as the National 
Weather Service and the Geological Survey, to show relevant alerts to 
Google users, and we welcome partnerships with other agencies--domestic 
and international--who publish authoritative alerts.
    We also developed an application called Crisis Map that uses our 
Maps technology to help people find information before, during, and 
after major emergency events. We use Crisis Map to provide 
authoritative information such as evacuation routes, hurricane tracks, 
disaster-related satellite imagery, and emergency alerts, by compiling 
it from multiple data sources. People no longer have to search across 
many websites for different pieces of relevant information because 
Crisis Map makes all of the data available in one central place and 
allows both agencies and individuals to create their own rich mash-ups 
of crisis data.
    As Hurricane Sandy approached landfall, we launched a general 
Crisis Map with several Sandy-related layers, including current and 
forecasted storm locations and information about cloud and wind 
conditions courtesy of NOAA's National Hurricane Center, and Public 
Alerts featuring emergency information like evacuation routes. We also 
launched a Crisis Map specific to New York City, featuring evacuation 
zone data from the NYC Datamine, information about open shelters, and 
footage from live webcams. Throughout the recovery period, our Crisis 
Maps had 15 million unique visits, with 10-20% of the visits coming 
through mobile phones and 80% of the traffic being referred through 
third parties--meaning that the maps were either shared by users or 
embedded in other sites.
2. Crowdsourcing can enhance both quality and timeliness of critical 
        information.
    Do local filling stations have gasoline? On this kind of question, 
authoritative sources often may not have as extensive intelligence on 
the ground as individuals do. Anyone can use Google's mapping tools--on 
our servers, or their own--to create their own maps and even host their 
content and data in a scalable way. In addition, by enabling user-
generated content in Crisis Maps during Hurricane Sandy, we were able 
to share better updates than those we got from only official sources.
    While some organizations contacted us with their data for our 
Hurricane Sandy Crisis Map, other map curators and data providers 
created their own crowd-sourced maps to address challenges they 
identified locally. For example, Dr. Wansoo Im mobilized a group of 
student volunteers to call local gas stations in New Jersey to see 
whether or not they were open and check if gas was available. Within a 
few days, they had data from more than 1,000 different stations. After 
doing some additional research on-line, they put the information into a 
KML layer (a machine readable and crawlable format used to describe 
geographic information) and continued to update it through mobile 
devices and edits on desktop. The KML layer was fed into Crisis Map 
automatically and through user commenting, people were able to correct 
and update the gas layers when they became out-of-date. The Department 
of Energy ended up referencing information from this map for people who 
dialed their call centers.
    We also designed our Person Finder tool to empower individuals in 
the wake of emergencies. Person Finder is a web application that allows 
people to post and search for the status of relatives or friends 
affected by a disaster. By using an open data standard, the tool lets 
press agencies, non-governmental agencies, and others contribute to the 
database and receive updates. Websites can choose to embed Person 
Finder as a gadget on their own pages. Because it is open-source 
software, any developer can create her own instance of Person Finder 
after a disaster and help us improve the product.
    Before, those seeking missing loved ones had to sift through 
multiple websites, posting the same inquiries over and over, hoping 
that the person in question happened to register with one of these 
websites. After the earthquake in Haiti, for example, we noticed there 
were 14 separate missing persons databases spontaneously set up by 
different groups, including non-governmental organizations, newspapers, 
and volunteers. They were all running on different infrastructure, were 
not integrated, and all had different amounts of data that, if 
coordinated, could have comprised all missing persons records.
    To make this process more effective and efficient, while continuing 
to leverage the power of crowd-sourced information, our team built 
Person Finder to act as a central database, pulling the feeds from all 
14 databases and allowing users to search across all their records. 
Person Finder accepts information in a common machine-readable format 
called PFIF (People Finder Interchange Format), which was created by 
Hurricane Katrina volunteers in 2005 and allows press agencies, NGOs, 
and others to sync their own data sources to Person Finder.
    Our team worked around the clock to build and launch Person Finder 
in less than 72 hours during the early days of the crisis in Haiti. We 
have now made this resource available in more than 40 languages. The 
product is purposefully simple, fast, and easy to use. More 
importantly, it is backed by an open programmatic interface, or API. 
This means that different sites can update missing persons lists 
automatically using the common format. Because of this, The New York 
Times, CNN, NPR, and a number of other websites quickly integrated 
Person Finder, increasing its reach and resulting in a more complete 
list of missing persons.
    We have since launched Person Finder for a number of emergencies, 
both natural and man-made. For example, within an hour after bombs went 
off in Boston 2 months ago, we initiated an instance of Person Finder 
to help people locate loved ones or let family and friends know they 
were alright. In total, we hosted thousands of records after the 
tragedy. In all these emergencies, we have found that crowdsourced 
information has been crucial to provide individuals updates about their 
loved ones.
3. Emergency information should be available on-line in open formats 
        and with open licenses before a disaster.
    To be easily integrated and disseminated in the event of a crisis, 
emergency information must be readily available--in open formats, open 
licensing structures, and already on-line--in advance of a disaster. 
Otherwise there can be delays in getting information out. Each extra 
step--uploading, emailing, downloading, publishing, or putting on a 
site--can keep critical information from getting to people in a timely 
manner.
    To respond to some recent crises, Google had to gather emergency 
information from Government websites in non-structured and difficult-
to-automate formats--such as text and PDF--and then translate them into 
open standards. When we set up our Hurricane Sandy Crisis Map, we had 
to spend time copying and pasting information about public hazards from 
a PDF. After we did so, the data quickly became obsolete, and we had to 
ask for an updated version. Generally, email attachments can take a few 
days to process and upload and need to be reloaded and integrated for 
each update, while open data feeds like KML only take minutes to 
integrate and can be updated automatically in near-real time. We are 
also often hindered by unclear licensing of data. While some datasets 
are clearly in the public domain, many essential ones are not clearly 
attributed or licensed, making them difficult to use.
    Data providers that have their information clearly licensed, in 
standard data formats, and that provide live feeds--including the 
Common Alerting Protocol (an international standard for publishing and 
sharing alerts that is used by NOAA, FEMA's iPAWS, and USGS) for Public 
Alerts, or GeoRSS (an open standard for encoding location information) 
and/or KML for Crisis Map--can update their information automatically. 
As a result, open alert data is usually available in Google tools 
within seconds of its being published.
    We advocate using an open and common standard in order for everyone 
to have a consistent way to automatically receive and share alerting 
information, to publish alerts securely using open web formats like 
Atom and RSS (XML-based languages used for web feeds), and to create 
useful visualizations of content.
   how governments can support technology efforts in crisis response
    Information dissemination in an emergency depends on several 
factors: Open and interoperable formats for emergency data, timely 
release of such data, and location awareness. Without these, it is 
extremely difficult to get the right emergency information to the right 
people at the right time.
    The ability of the internet to assist in crises depends on both 
companies' and governments' improving how they share information. Using 
divergent standards slows collaboration and response time, while speedy 
and open access enables users to easily share information and 
accelerates relief efforts.
    To pursue some of the projects we've described, Google had to 
gather emergency information from Government, NGO, and sometimes 
corporate websites in arcane formats or bare HTML and then translate 
them into open standards. Sometimes the information was spread across 
numerous websites; other times, the licensing status of the data was 
not readily apparent. Even today, some important data is not even on-
line at all, but in someone's spreadsheet on a personal computer.
    Government can help by ensuring that important information 
important is available in open, interoperable formats. For that reason, 
we commend the White House for the recent Executive Order requiring 
that data generated by the Federal Government be made available in 
machine-readable formats by default, as well as steps Congress has 
taken to increase access to Government data. State governments also 
play an important role--the Florida Division of Emergency Management, 
for example, has been a leader in publishing preparedness data. We hope 
that agencies with emergency information in particular begin adopting 
these standards as soon as possible, so more people can access that 
information easily and speedily.
    With better open and interoperable alerting systems, private actors 
could interact with Government systems to display alerts or maps 
tailored to geography, vulnerability, and situation. Information 
providers like Google have the ability to contextualize alerts by 
providing related news and other relevant information, as well as 
linking these to sharing platforms and other social experiences that 
are critical for empowering individuals and enabling better decision 
making. They also can do so in an open manner so any other internet 
company or emergency organization can use or build on it. Public 
alerting systems must continue to evolve in ways that leverage the 
capabilities of modern digital networks to distribute vital, machine-
readable information in crisis situations.
    With more open data we could display more consistent and more 
actionable alerts, covering things like power outages and road closures 
when there are floods, for example. In some cases, a mobile alert--
targeted specifically to those who may be directly impacted--may help 
increase their chances of getting to safety. Today, the Commercial 
Mobile Alerting System (CMAS) can push mobile alerts that specifically 
target users who are in the predicted path of a tornado or storm, and 
Google can also provide location-specific information to supplement 
these alerts. In the future, mobile devices may enable additional types 
of alerts, such as ones with location-specific evacuation instructions 
and shelter information. This type of information is particularly 
valuable for densely-populated areas where there may be limited 
resources spread out across the region.
    We are committed to continue working with various stakeholders to 
think of more ways to make the appropriate emergency information 
available when and where people need it, including making emergency 
alerts more useful and accessible to those who may be affected by 
disasters.
                               conclusion
    I would like to conclude by thanking Chairman Brooks, Ranking 
Member Payne, the Members of the House Subcommittee on Emergency 
Preparedness, Response, and Communications, and other Members of 
Congress who have taken an interest in technology and crisis response. 
Affordable, high-speed internet access, open data, and open standards 
are minimum requirements for a Government to be considered ``tech-
ready'' ahead of a disaster. By ensuring that people are able to search 
and find emergency information on-line ahead of time, governments can 
reduce the amount of time it takes communicate with people when they 
need help most.
    We still have a long way to go, but we look forward to working 
alongside emergency relief organizations and governments to help people 
find the information they are looking for and improve the use of 
internet-based technologies in disaster preparedness, relief, and 
recovery.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mrs. Brooks. Thank you, Mr. Stepka.
    The Chairwoman now recognizes Mr. Payne for 5 minutes for 
an opening statement.

 STATEMENT OF JASON MATTHEW PAYNE, PHILANTHROPY LEAD, PALANTIR 
                          TECHNOLOGIES

    Mr. Payne. Chairwoman Brooks, Ranking Member Payne, and 
Members of the subcommittee, thank you for the opportunity to 
speak with you today.
    My name is Jason Payne, and I lead the philanthropy 
engineering team at Palantir technologies.
    Palantir Technologies is a Silicon Valley software company. 
We build data integration and analysis software for the 
Governmental, private, and public sectors.
    In the context of emergency preparedness, response, and 
recovery our technology on laptops and smartphones leverages 
one of the most scarce resources during disasters.
    Information; to help our partners get the right physical 
resources to the right places as soon as possible. Above here 
is a screenshot of our technology displayed on a tent of an 
emergency operation center in Oklahoma City.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Payne. This fusion that you are seeing here of public 
data, of Governmental data, of social data, and mobile data 
allows users to build a common operating picture to improve the 
efficacy of response efforts.
    One of our partners in Oklahoma City, Direct Relief, is a 
nonprofit that donates over $300 million of medicine every 
year. They use Palantir to integrate information from their own 
databases with social data, public data from FEMA, DHS, CDC, 
NOA, and even Google flu trends to conduct meteorological, 
social vulnerability, supply chain, and health risk analyses of 
communities throughout this Nation.
    In the context of extreme weather relief, this knowledge 
enables direct relief to pre-position supplies and medicine at 
Federally-qualified health centers before storms hit, analyze 
real-time weather data during the storm, and donate additional 
medical supplies where they are needed most in wake of the 
storm.
    Another Palantir partner, Team Rubicon, is a group of 
veterans engaged in disaster relief. They use Palantir to 
tactically understand operational environment during disaster 
response. After Hurricane Sandy, Team Rubicon used Palantir 
mobile to survey and clean up over 1,000 structures in the 
Rockaways.
    Fusing surveys collected with Palantir mobile along with 
public 3-1-1 data and even hand-written requests for help 
collected in a church parking lot, several hundred Team Rubicon 
members were able to efficiently harness over 14,000 
spontaneous community volunteers, which is a tremendous 
resource that has often been underutilized in disaster 
scenarios.
    Those volunteers, often joining through social media posts, 
removed sand, saltwater, and sheet rock from homes damaged by 
Sandy before mold set in thus keeping people in their homes. 
That large-scale success was possible because of social media, 
the veteran leadership of Team Rubicon, and acknowledged 
management that Palantir facilitated.
    As a result of our successes during Hurricane Sandy, 
Palantir has made a commitment to action with the Clinton 
Global Initiative to steer our cutting-edge technology 
capabilities to more disaster-focused organizations.
    Part of this commitment is our deployment that you see here 
in Oklahoma City with direct relief in Team Rubicon to help 
people get back on their feet after the devastating tornadoes.
    Most importantly, it is using all of this data to build a 
common operating picture that allows organizations to better 
communicate to more efficiently and more effectively help those 
on the ground that need it most.
    Through trial and error we have learned a few important 
lessons we would like to share with the committee. First, open 
data is more important than formal exchange models.
    In the context of emergent response, we believe that 
holding out for perfect gets in the way of good enough. We 
encourage Governmental organizations to adopt a Silicon Valley 
approach to interoperability to put data out in a publicly 
available, robust, standardized, secure, well-documented 
interface and let other organizations come up with innovative 
ways to leverage that data. We applaud NOAA and the Census 
Bureau among others for taking this approach.
    Second, internet and cloud technologies such as social 
media are useless without power and connectivity. We encourage 
the subcommittee to explore innovative solutions to provide 
deployable 3G and 4G mobile networks as well as mobile device 
charging stations to the public during large-scale emergencies.
    Last, we would like to highlight the need for more robust 
conversation about data access, sharing, and retention to 
ensure that the privacy and civil liberties of those affected 
by emergencies and disasters are respected at all times.
    We believe that sensitive information such as names, dates 
of birth, addresses, phone numbers, and certainly medical 
information should be shared with only those with a need to 
know that information even within an organization.
    When a large-scale emergency strikes without a doubt there 
are thousands and thousands of folks that seek to help those 
most vulnerable. There are also a few bad actors out there that 
seek to profit from those that are vulnerable.
    The technology can make a radical difference to help those 
with good intention, but can also empower those with ill. So we 
highly recommend that we look closely at how data is shared, 
leveraged, and utilized to ensure that it is used for proper 
purposes.
    New technology enables a new era, a whole new era of 
disaster response. We are humbled to be a part of that 
transformation and look forward to more work in the future to 
help those affected by disaster get back on their feet.
    This completes my prepared statement. Thank you again for 
the opportunity to join you here today.
    [The prepared statement of Mr. Payne follows:]
               Prepared Statement of Jason Matthew Payne
                              June 4, 2013
    Good morning. Chairwoman Brooks, Ranking Member Payne, and Members 
of the subcommittee: My name is Jason Payne, and I lead Palantir 
Technologies' Philanthropy Engineering Team. Thank you for the 
opportunity to speak with you today.
    Palantir Technologies is a Silicon Valley software company based in 
Palo Alto, California. We build data integration and analysis software 
for the Governmental, private, and public sectors. A key part of our 
work with NGOs focuses on emergency preparedness, response, and 
recovery. With our partners Team Rubicon and Direct Relief 
International, we recently made a Commitment to Action with the Clinton 
Global Initiative to bring cutting-edge technological capabilities to 
Voluntary Organizations Active in Disaster, or VOADs.
    The fundamental challenge of emergency preparedness, response, and 
recovery is getting the right resources to the right places, as quickly 
as possible. We believe that new technology, such as Palantir, 
significantly improves the ability of organizations to meet that 
challenge.
    Palantir can be rapidly deployed to laptops and smart phones and 
allows dispatchers and analysts working under critical time pressure to 
fuse together and analyze large amounts of data from different sources. 
Originally developed for use by the intelligence and defense community, 
the platform includes robust, built-in measures to allow users 
appropriate access and to share information across organizations while 
protecting privacy and civil liberties.
    For example, Direct Relief, a non-profit that donates over $300 
million of medicine every year, uses Palantir to integrate information 
from their own databases, partnering organizations, and public data 
from FEMA, DHS, CDC, and NOAA to conduct meteorological, social 
vulnerability, supply chain, and health-risk analyses of areas 
vulnerable to large storms.
    This resulting knowledge enables Direct Relief to pre-position 
supplies and medicine at Federally Qualified Health Centers (FQHCs) 
before storms hit, analyze real-time weather data during the storm, and 
provide emergency medical supplies where they are needed most in the 
wake of the storm. After Hurricane Sandy, volunteers and staff on the 
ground used Palantir Mobile to collect and send data to Direct Relief 
headquarters in real time. Palantir was also used to monitor infectious 
disease trends and route donated medical resources to the areas in 
greatest need.
    While Direct Relief uses Palantir to make big-picture strategic 
decisions about resource allocation, Team Rubicon, a group of veterans 
engaged in disaster relief, uses Palantir to tactically understand the 
operational environment during a disaster response. During the response 
to Hurricane Sandy, Team Rubicon used Palantir's mobile phone 
application to quickly survey over 1,500 structures in the Rockaways. 
Fusing those surveys with public 3-1-1 data, and even paper requests 
for help collected in a church parking lot, several hundred Team 
Rubicon members were able to efficiently harness over 14,000 
spontaneous community volunteers--a tremendous resource that has often 
been underutilized in disaster scenarios.
    During the Sandy aftermath, those volunteers removed sand, 
saltwater, and sheetrock from damaged homes before mold set in, keeping 
people in their homes. That success was possible because of social 
media, Team Rubicon's leadership, and the data integration, knowledge 
management, and efficient planning that Palantir facilitated.
    As part of our Clinton Global Initiative commitment, Direct Relief, 
Team Rubicon, and Palantir are collaborating on recovery efforts in 
Oklahoma City after the devastating tornadoes on May 20 and 31. 
Leveraging on-the-ground surveys collected with Palantir Mobile, along 
with Google, NWS, HRSA, and local parcel data, these organizations are 
working together to help with both health and infrastructure response 
and recovery. Most importantly, the common operating picture that they 
are building with Palantir is being shared with other VOAD and 
Governmental organizations active in the area.
    Through trial and error, as well as success and failure, we've 
learned a few important lessons that we would like to share with the 
committee.
    First, open data portals are more important than formal information 
exchange models. In the context of emergency response data sharing, we 
believe that holding out for perfect gets in the way of good enough. We 
encourage Governmental organizations to adopt a Silicon Valley approach 
to data interoperability--put the data out publicly in a robust, 
standardized, well-documented interface and let other organizations 
come up with innovative ways to leverage the data. This is why Palantir 
makes a strong commitment to openness and provides programmatic query 
languages and web services to make all data in Palantir open. We 
applaud NOAA, NWS, and the Census Bureau, among others, for taking this 
approach.
    Second, internet and cloud technology, such as social media, are 
extremely valuable as long as people have power and connectivity. 
Without both, it's useless. We encourage the subcommittee to explore 
innovative solutions to provide deployable 
3/4G mobile networks, as well as mobile device charging stations, to 
the public during large-scale emergencies. We applaud the idea of the 
FirstNet initiative from the Department of Commerce, and suggest that 
the network be opened up to key non-profit organizations as well as 
Governmental agencies.
    Last, we would like to highlight the need for a more robust 
conversation about data access, sharing, and retention to ensure that 
the privacy and civil liberties of those affected by emergencies and 
disasters are respected at all times. When a disaster occurs, thousands 
of volunteers seek to help vulnerable people get back on their feet. 
There are also a few unscrupulous bad actors that seek to exploit and 
profit from those vulnerable people. Data can empower those altruistic 
volunteer efforts, but without correct data access and sharing 
technology, that same data can empower those bad actors.
    We believe that public data such as locations of shelters and 
medical facilities, power status reports, and satellite imagery should 
be available to all organizations and citizens. We also believe that 
sensitive information, such as names, dates of birth, addresses, phone 
numbers, social media posts, financial information, and certainly 
medical information should be shared with only those with need to know 
that information, even within an organization.
    Furthermore, we recommend that sensitive data collected during an 
emergency should be deleted when reasonably possible after emergencies. 
We encourage the development of clear data retention policies for all 
volunteer and Governmental organizations that work in the preparation, 
response, and recovery life cycle. These retention policies should be 
clearly communicated with affected individuals, State and local 
entities, commercial organizations, and VOADs to encourage all parties 
to share pertinent information.
    New technology enables a whole new era of disaster response. We are 
humbled to be a part of that transformation and look forward to more 
work in the future to help those affected by disaster get back on their 
feet.
    This completes my prepared statement. Thank you again for the 
opportunity to join you all here today.

    Mrs. Brooks. Thank you, Mr. Payne.
    The Chairwoman now recognizes Mr. Beckerman for 5 minutes 
for an opening statement.

STATEMENT OF MICHAEL BECKERMAN, PRESIDENT AND CEO, THE INTERNET 
                          ASSOCIATION

    Mr. Beckerman. Thank you.
    Chairwoman Brooks, Ranking Member Payne, and distinguished 
Members of the committee, thank you for calling this timely 
hearing. It is a pleasure to appear before you today to discuss 
how the internet and social media are transforming how 
Americans prepare, respond, and recover when disaster strikes.
    My name is Michael Beckerman. I am president and CEO of the 
Internet Association, a trade organization comprised of the 
world's leading internet companies.
    Our members have been on the forefront of efforts to 
leverage new technology and communications platforms to inform 
the public before, during, and after a disaster.
    Today I will just highlight a few examples from my written 
testimony that I submitted for the record.
    As you can see on the screen, the rise of social media, 
crowdsourcing, and the sharing economy have revolutionized how 
we interact with our friends, family, fellow citizens, and 
Government.
    Communicating during a disaster is now an interactive 
conversation. Millions of minds converge to solve problems, 
seek out answers, and disseminate vital information. The 
convergence of social networks and mobile has thrown the old 
response playbook out the window.
    The earthquake that rocked Haiti in January 2010 served as 
an example of the opportunity social media and mobile 
technology provide to support the great work of our disaster 
response professionals.
    A few hours after the earthquake, a man who was trapped 
with 20 other people under a collapsed building in Port-au-
Prince managed to send a photograph of the wreckage from his 
phone to a cousin in Chicago. The cousin then tweeted the 
photograph to @RedCross and first responders in Haiti were able 
to rescue them. In previous disasters, these victims may not 
have been rescued in time.
    Applying the lessons learned from Haiti, a protocol has 
begun to emerge. Facebook's disaster relief page, which was 
created during the Haiti earthquake is now used any time a 
disaster strikes.
    The American Red Cross' Facebook page has over a quarter-
million people following them to learn about disasters, how 
they can donate both blood and money, and get information in 
real time.
    Beyond the dissemination of disaster information and 
donations, the Red Cross has also established a social media 
command center. This allows them to better serve those who need 
help, spot trends in real time, and anticipate the public's 
needs. It not only connects people with food, water, shelter, 
but it also helps provide emotional support when they need it 
most.
    When a tornado devastated Tuscaloosa in 2011, a local 
school system went on-line and posted a request for volunteers 
to help clean up their school. Amazingly, 80 people showed up 
in less than 30 minutes.
    This response typifies the unmatched power of social media. 
You would be hard-pressed to make these phone calls in 30 
minutes, let alone have an outpouring of 80 people show up that 
quickly.
    Just last fall when Hurricane Sandy ravaged the coastline 
of my home State of New Jersey, people took to the internet to 
document their experience. In fact, FEMA encouraged people to 
``Let loved ones that know you are okay by sending a text 
message or updating your social network.''
    In a truly miraculous story coming out of Hurricane Sandy, 
a woman noticed a Facebook post showing the badly-hit South 
Seaside Park, and she knew her 93-year-old grandmother was 
there trapped, and she sent a message to this page, and as a 
result, her grandmother was evacuated and saved.
    One of the Internet Association member companies, Airbnb, 
sprang into action following the hurricane as well. As you may 
know, Airbnb as an on-line marketplace that helps find housing 
accommodations.
    With more than 100,000 people still homeless a week after 
Sandy, Airbnb partnered with the city of New York to connect to 
those without shelter to people that had extra space. As you 
can see on the screen, nearly 1,500 Airbnb members opened their 
homes for free to provide shelter to people in need.
    Finally, just last month, in Oklahoma, social media 
supplemented the traditional means of spreading the message to 
take shelter. In the immediate aftermath of the tornado, FEMA 
again encouraged survivors to update their social networks to 
let loved ones know their whereabouts so families could be 
reconnected.
    Social media has also changed the way American citizens 
respond to try to be. The city of Moore, Oklahoma, for example, 
as you see on the screen, used its Facebook page to inform 
citizens on ways they could help.
    Social media platforms like Flickr and Instagram allow 
people from all over the country and all over the world see 
both wreckage and hope in real time. Seeing these unfiltered 
images in real time help tells the story in ways that 
traditional media never could and allows people to feel 
connected, giving them an even greater desire to help.
    The internet has served as a remarkable tool to save lives, 
facilitate philanthropic relief efforts, and improve disaster 
responsiveness, but there is always work to be done.
    Responding to this challenge will require a collaborative 
effort among the Government agencies, first responders, 
technology companies, and the general public.
    It is our pledge that the Internet Association will do our 
part working with our companies to facilitate these 
conversations between Government and technology companies to 
help harness the power of social media and strengthen our 
Nation's emergency preparedness for the 21st Century.
    Thank you.
    [The prepared statement of Mr. Beckerman follows:]
                Prepared Statement of Michael Beckerman
                              June 4, 2013
                              introduction
    Chairwoman Brooks, Ranking Member Payne, and distinguished Members 
of the committee, thank you for calling this timely and important 
hearing. It is a pleasure and an honor to appear before you today to 
discuss how the internet and social media and are transforming how 
Americans prepare, respond, and recover when disaster strikes.
    My name is Michael Beckerman, and I am the president and CEO of the 
Internet Association, a trade organization comprised of 17 leading 
internet companies across the globe, including AOL, Airbnb, Amazon.com, 
ebay, Expedia, Facebook, Google, IAC, LinkedIn, Monster, Path, 
Rackspace, Salesforce.com, SurveyMonkey, TripAdvisor, Yahoo, and Zynga. 
Our members have been on the forefront of efforts to leverage new 
technology and communication platforms to inform the public before, 
during, and after a disaster, and to facilitate recovery and 
reconstruction efforts in the aftermath. We deeply appreciate the 
opportunity to share the perspective of our membership with the 
committee today.
    The rise of social media, ``crowd-sourcing'' and the ``share 
economy'' has revolutionized how we interact with our friends, family, 
fellow citizens, and Government. Communicating during a disaster is now 
an interactive conversation. Millions of minds converge to solve 
problems, seek out answers and disseminate vital information. Important 
news can be shared with millions, and by millions, quickly and 
efficiently. The social web is challenging emergency managers, 
Government agencies, and aid organizations to adapt time-honored 
expertise with real-time information from the public (Please see 
Exhibit A). In short, the convergence of social networks and mobile has 
thrown the old response playbook out the window.
       then and now: evolution of technology in disaster response
    The power and promise of the internet was on full display in the 
immediate aftermath of Hurricane Katrina, one of the most devastating 
natural disasters this country has ever experienced. When this 
catastrophic storm ravaged the city of New Orleans and its surrounding 
areas, it claimed many lives, displaced hundreds of thousands of 
people, and left billions of dollars worth of damage with its wreckage.
    During an emergency, information is the most valuable commodity. 
After the storm, the internet played an important role in mitigating 
the breakdown of communication that is typical during times of 
disaster. According to the Pew Research Center, about 50% of all 
internet users received news about the hurricane not only from 
mainstream media websites but also from blogs.\1\ A quarter of on-line 
users shared e-mails or instant messages about the storm while others 
used the internet to check on someone's safety.\2\
---------------------------------------------------------------------------
    \1\ Stephen Morris and John Horrigan, ``13 million Americans made 
donations online after Hurricane Katrina and Rita,'' http://
www.pewinternet.org/Reports/2005/13-million-Americans-made-donations-
online-after-Hurricanes-Katrina-and-Rita/Data-Memo.aspx (Nov. 24, 
2005).
    \2\ Id.
---------------------------------------------------------------------------
    The water's recession revealed the true extent of the devastation, 
which inspired the rest of the country and the world to make monetary 
contributions critical to rebuilding the city. In just a few short 
weeks after the storm, private donations neared about $2.7 billion.\3\ 
In reaching this record-setting level, the internet served as an 
important outlet for relief donations with about 13 million Americans 
turning to on-line sources to provide donations.\4\
---------------------------------------------------------------------------
    \3\ Thomas Frank, ``Katrina inspires record charity,'' USA TODAY 
http://usatoday30.usatoday.com/news/nation/2005-11-13-katrina-
charity_x.htm?csp=34 (Nov. 13, 2005).
    \4\ Stephen Morris and John Horrigan, ``13 million Americans made 
donations online after Hurricane Katrina and Rita,'' http://
www.pewinternet.org/Reports/2005/13-million-Americans-made-donations-
online-after-Hurricanes-Katrina-and-Rita/Data-Memo.aspx (Nov. 24, 
2005).
---------------------------------------------------------------------------
    That was 2005--only a year after Mark Zuckerberg created Facebook, 
before Twitter came into existence and even before smartphones became 
as ubiquitous as they are today. Since then, our member companies have 
continued to innovate, achieving significant advancements in on-line 
tools and services such as social media. Today, crowd-sourcing and 
social media allow information to be shared in real time, allowing 
first responders to reach victims much faster than before.
    In the years since Hurricane Katrina, many wonder how the robust 
and well-developed social media websites we enjoy today could have been 
leveraged. Could we have saved more lives had there been a full-fledged 
Facebook or Twitter?
    The 7.0 magnitude earthquake that rocked Haiti in January of 2010 
served as an example of the opportunities social media and mobile 
technology present to support the great work of our disaster response 
professionals.
    Within a few hours of the quake, a man trapped with 20 other people 
under a collapsed building in Port-au-Prince managed to send a photo of 
the wreckage from his phone to a cousin in Chicago. The cousin tweeted 
the photo to ``@RedCross'' and the Red Cross in turn relayed the 
location to first responders in Haiti. In previous disasters, these 
victims may not have been rescued in time. In other instances, using 
geo-location technology built into phones, allowed rescue workers to 
pinpoint the location of trapped victims and save many lives.
    To cite one prominent example of innovation in disaster response 
from our membership, immediately after the 2010 Haiti earthquake, 
Google worked with the United States Department of State to create 
Google Person Finder, an on-line registry and message board for 
survivors, family, and loved ones affected by a natural disaster 
allowing them to post and search for information about each other's 
status and whereabouts. Google Person Finder launched in English, 
French, and Haitian Creole on January 15, less than 3 days after the 
earthquake.
    Social media a vital role in the critical days and weeks after a 
disaster, when efforts transition from response to recovery. In a 
connected, borderless medium, the excuse that donating relief money is 
too complicated and confusing has largely been eradicated through text 
messaging and social media. In the first 48 hours following the Haitian 
Earthquake, the Red Cross raised more than $3 million dollars from 
people texting a $10 donation. ``Crowd funding'' empowers citizens to 
donate to, and solicit donations for, victims of disasters through 
posts to Facebook, Google+, LinkedIn, Twitter and other social media 
sites.
    To highlight just a few examples from The Internet Association 
membership:
  <bullet> Facebook launched the Disaster Relief on Facebook Page, 
        where millions of people could educate themselves and find out 
        how to help.
  <bullet> Zynga, the on-line gaming company, was able to raise nearly 
        $3 million for relief efforts from their game players.
  <bullet> Amazon.com customers gave more than $750,000 through the 
        Amazon.com website.
    Through a corporate campaign, Expedia, Inc. donated $200,000 to the 
        United Nations and held a special 2:1 match, with employees 
        donating an additional $75,000 (total donation of $270,000 to 
        the United Nations).
    Applying the lessons learned from the Haiti disaster, a protocol 
has begun to emerge. Facebook's Disaster Relief Page is now used for 
wherever disaster and misfortune may strike. The American Red Cross's 
Facebook page alone now has more than half a million fans to which the 
organization delivers disaster news and allows people to donate both 
blood and money.
    Beyond the dissemination of disaster information and donations, the 
Red Cross has established a Social Media Command Center--the first 
social media-based operation devoted to humanitarian relief. Located in 
the Red Cross National Disaster Operations Center in Washington, DC, 
the center is expanding the Red Cross's ability to engage with the 
public during emergencies and enabling Red Cross team members to 
determine where to position workers on the ground. The command center 
allows the Red Cross to better serve those who need help, spot trends, 
and better anticipate the public's needs; and connect people with the 
resources they need, like food, water, shelter, or even emotional 
support.
    Additionally, the Red Cross has established a Social Media 
Volunteer Corps program to help respond to questions from and provide 
information to the public during disasters. The Red Cross has conducted 
numerous webinars to train this new digital volunteer army, who have 
played critical roles in working to verify and curate the incredible 
volume of data during disasters, notifying Digital Operations Center 
staff of on-line trends and situational information that can inform 
disaster-response efforts. Google's work on the Haiti earthquake led to 
the formation of the Google Crisis Response team, which has launched 
Google Person Finder again for several subsequent disasters, in many 
different languages and with a variety of data exchange partners. 
Before I conclude, I'd like to quickly touch on a few more recent 
disasters and highlights some social media success stories from among 
our membership.
    Japan Tsunami, March 2011.--Images of entire cities being crushed 
under water half a world away left many Americans feeling helpless. 
Luckily we have companies like Amazon.com, which offered homepage 
placement to the American Red Cross and Mercy Corps in addition to 
donating their payment technology. This led to more than $1.8 million 
in relief aid for our friends in Japan. Social media played an 
important role as the most efficient and reliable way to connect with 
relatives. Even the U.S. State Department took to Twitter to publish 
emergency number and inform Japanese residents in America of how to 
contact their families affected in Japan.\5\
---------------------------------------------------------------------------
    \5\ Harry Wallop, ``Japan earthquake: how Twitter and Facebook 
helped,'' http://www.telegraph.co.uk/technology/twitter/8379101/Japan-
earthquake-how-Twitter-and-Facebook-helped.html (Mar. 13, 2011).
---------------------------------------------------------------------------
    Tuscaloosa, AL and Joplin, MO Tornados, April & May 2011.--When a 
tornado devastated Tuscaloosa, Alabama, a local school system went on-
line to post a request for volunteers to help clean up their school--
amazingly, 80 people showed up in less than 30 minutes. This typifies 
the unmatched power of social media; you would be hard-pressed to make 
40 phone calls in 30 minutes, never mind 80. As users leverage our 
member companies' services, our member companies also lend their 
manpower and expertise in the recovery process. Expedia, Inc. employees 
continue to volunteer to provide their on-going support in the clean-up 
and recovery effort.
    Hurricane Sandy, October 2012.--When last fall's once-in-a-century 
type storm slammed our eastern seaboard, people took to the internet to 
document their experience. The volume was so large that the Red Cross 
asked 23 staffers to monitor over 2.5 million social media posts; of 
which, 4,500 were tagged for first responders to follow up on.
    New York City itself turned to Twitter to seek out emergency-
related tweets in the aftermath of the storm. For instance, the city's 
Chief Digital Officer organized responses to hundreds of Twitter 
questions pouring in for those in need of accurate information.\6\ In 
addition to disseminating information, the Fire Department of New 
York's Social Media Manager used Twitter to serve as a liaison between 
those residents in distress and firefighters and EMS members. As phone 
lines remained down, the Social Media Manager responded to tweets 
requesting assistance by collecting phone numbers and the details of 
the emergency then relayed that information to first responders.
---------------------------------------------------------------------------
    \6\ Chris Moody, Meet FDNY's one-woman Twitter response team 
guiding New Yorkers through storm, http://news.yahoo.com/blogs/ticket/
meet-fdny-one-woman-twitter-response-team-guiding-141143449.html (Oct. 
30, 2012).
---------------------------------------------------------------------------
    Airbnb, an on-line marketplace for users to find housing 
accommodations, sprang into action following Hurricane Sandy. With more 
than 100,000 people still homeless a week after Hurricane Sandy hit the 
Northeast, Airbnb partnered with the city of New York to connect those 
without shelter to people who had extra space. Nearly 1,500 Airbnb 
members opened up their homes for free to people in need. Please See 
Exhibit B.
    Justin Ausiello's Jersey Shore Hurricane News Facebook page became 
a trusted place for information and served as a crucial tool for those 
affected by the hurricane, by informing citizens about shelters, 
supplies, and news.\7\ In a truly miraculous story, a woman noticed a 
post on Mr. Ausiello's page of the badly-hit South Seaside Park, where 
her 93-year-old, diabetic grandmother was trapped. After the woman sent 
a message to the News Page, her grandmother was subsequently rescued.
---------------------------------------------------------------------------
    \7\ Jersey Shore Hurricane News, https://www.facebook.com/
JerseyShoreHurricane- News?sid=0.9051242845943719--last visited June 3, 
2013.
---------------------------------------------------------------------------
    Ebay Inc., an on-line market place for consumers, coordinated a 
company-wide effort to support the massive community relief and 
recovery effort and looked to more than 210,000 users for assistance. 
As a result, StubHub, ebay, and PayPal facilitated over $10 million of 
support for Hurricane Sandy relief.
    Moore, Oklahoma Tornado, May 2013.--Thanks to advanced technology 
and excellent meteorologists, Oklahomans knew of the tornado risks days 
in advance. Social media supplemented traditional means of spreading 
the message to take shelter. In the immediate aftermath, FEMA 
encouraged survivors to update their social networks to let their loved 
ones know their whereabouts, if they were safe or needed emergency 
assistance. Along with the Red Cross, cities, animal assistance groups, 
and prayer/religious support groups now have a strong presence on 
social media.
    Social media has changed the way American citizens respond to 
tragedy. The city of Moore uses its Facebook page to inform citizens on 
ways they can help. (Please see Exhibit C). Social media platforms like 
Flickr and Instagram allowed people from all over the country to see 
the both the wreckage and the hope in Moore, Oklahoma on their computer 
screens, tablets, and smartphones. Seeing unfiltered images in real 
time tells the story in ways the traditional news media is unable to, 
and allows people to feel connected giving them an even greater desire 
to help.
    Continuing similar efforts as it did with Hurricane Sandy, ebay is 
promoting and facilitating customer donations. In addition to providing 
an opportunity on its home page for customers to make contributions, 
sellers, and buyers have other options available to them. For instance, 
sellers may donate a percentage of their sale proceeds to a featured 
relief organization or buyers may purchase items via the website that 
benefit relief organizations, marked with a special charity icon. 
Additionally, PayPal powers payment processing for partner 
organizations and personal fundraisers.
                               conclusion
    The internet has served as a remarkable tool to save lives, 
facilitate unprecedented philanthropic relief efforts, and improve 
disaster responsiveness.
    And yet, there are still challenges that remain. Emergency response 
professionals are not yet fully ready to collect, respond, or react to 
the incoming stream of social data in a timely manner. Responding to 
this challenge will require a collaborative effort among Government 
agencies, first responders, technology companies, public safety 
officials, and the general public.
    It is my pledge to you that The Internet Association will do its 
part to facilitate these conversations and collaborations so that we 
can harness the power of social media and strengthen our Nation's 
emergency preparedness, response, and recovery for the 21st Century.
                             Exhibit A \8\
---------------------------------------------------------------------------
    \8\ First Image: Oklahoma Governor Mary Fallin's Twitter Post 
Updates. Also available at http://www.huffingtonpost.co.uk/2013/05/21/
oklahoma-tornados-2013-killed_n_3310410.- html (last visited May 31, 
2013). Second Image: Instagram Photo of Oklahoma Tornado Aftermath by 
lynn_love.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             Exhibit B--The City of Moore Facebook Page \9\
---------------------------------------------------------------------------
    \9\ The City of Moore, https://www.facebook.com/cityofmoore (last 
visited June 3, 2013).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Exhibit C--AirBnb Page for Hurricane Sandy
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mrs. Brooks. Thank you, Mr. Beckerman.
    The Chairwoman now recognizes Mr. Cardenas for 5 minutes 
for an opening statement.

     STATEMENT OF JORGE L. CARDENAS, VICE PRESIDENT, ASSET 
 MANAGEMENT AND CENTRALIZED SERVICES, PUBLIC SERVICE ELECTRIC 
                        AND GAS COMPANY

    Mr. Cardenas. Chairman Brooks, Ranking Member Payne, and 
Members of the subcommittee, thank you for the opportunity to 
appear before you today.
    My name is Jorge Cardenas. I am vice president of asset 
management and centralized services for Public Service Electric 
and Gas Company, which is New Jersey's largest utility, best 
known as PSE&G.
    PSE&G's service territory includes all of New Jersey's 
major urban areas. We serve some 2.2 million electric customers 
and 1.8 million gas customers. These really has come together 
to be about 70 percent of the population of New Jersey.
    Superstorm Sandy hit New Jersey hard. In our service 
territory, it took down 48,000 trees which impacted our 
distribution system. It destroyed 2,400 utility poles--many of 
them were snapped like toothpicks--drove walls of water into 29 
of our switching and substations, and damaged our gas lines and 
meters.
    Over 40,000 of our gas customers were impacted and almost 2 
million of our electric customers lost power. Restoration 
efforts were impeded by a forceful nor'easter that hit a week 
later. The impact of destruction and the complexity of the work 
to restore service made communications of all kinds a key 
component of the Sandy recovery effort.
    Before I discuss our social media experience, let me also 
note the importance of smart grid technology, which enables 
utilities to obtain critical information that can help pinpoint 
problems and automate restoration.
    Smart grid technology enhances our ability to communicate 
with our own system. It can dramatically shorten the time it 
takes to restore service in the aftermath of a storm and can 
prevent outages from becoming widespread.
    That is why in New Jersey we have proposed $450 million 
investment in smart grid technology as part of our energy 
strong proposal, which will harden our system against these 
types of extraordinary weather events, those we have 
experienced over the recent past.
    Turning to social media, we used email and Twitter the days 
before the storm to communicate about safety and to help people 
prepare, and after the storm passed we use them to explain the 
historic amounts of damage and the huge effort it would take to 
rebuild.
    We used Twitter to advise on the daily location of our 
giant tents and generators which allowed customers to charge 
electronic equipment, get free ice, water, and food. We 
explained the importance of reporting outages and damaged 
equipment and the correct method to do so, so we can take 
action.
    We educated the public about what we were doing to get 
power to refineries, hospitals, schools, businesses, and homes. 
While we had historically used social media only during 
business hours and with a small group of employees, we quickly 
staffed up for 17 days, operated our Twitter feeds 15 hours a 
day, 7 days a week.
    We sent more than 9,000 messages and saw some 90,000 
directed at us. At one point during the storm we sent so many 
tweets that we exceeded our daily allowances. Through our 
utility contacts we reached the leadership of Twitter to expand 
our capacity. That is a lesson learned for the next storm.
    Ultimately, we added over 47,000 followers during the time 
of the storm. When we exited the storm, we had the largest 
following of any utility in the United States.
    Our innovative use of social media has been noticed outside 
the company. In a recent report, JD Power and Associates cited 
our industry-leading communication success. Following Sandy, 
the utility customer service non-profit CS Week gave PSE&G an 
award for our use of social media during the storm.
    Here are some of our key takeaways; lessons learned. Mobile 
technology is a game changer. More than half of Americans have 
a smart phone and more and more people in almost every age 
demographic are active on social media. People have an 
increasing and insatiable need to be connected even more so in 
times of emergency.
    They want to be heard. They want to be validated. They want 
to help and influence us. The number of people on social media 
spikes in times of disaster. People flock to Twitter and 
Facebook and the like because they are searching for immediate 
information that they can't get via traditional broadcast 
channels.
    Engaging influencers is critical. It is just as important 
to grow the influence of your on-line community as it is to 
grow its size. Connecting with people who have credibility in 
their local communities is critical to an organization's 
ability to spread its message.
    The public respects and rewards consistent, transparent 
interaction and cooperation between the private sector and 
community leaders. During Sandy we used Twitter to amplify 
messages from municipal and State officials, police 
departments, Office of Emergency Management, and social service 
agencies helping get valuable information right away to those 
who needed it.
    Tone matters. It does matter a lot. People respect a social 
media effort that is continuously empathetic, authentic, and 
helpful. Public notes of appreciation matter too, especially to 
the fiercely proud people who work in the utility industry. We 
regard ourselves as first responders and supportive messages 
can go a long way with a weary employee base in need of a 
boost.
    In closing, Sandy hit home how important it is to continue 
to improve our ability to communicate in an increasingly 24/7 
connected and cyber-savvy world.
    To that end, I want to thank Congressman Payne for working 
with us on a National Research Council study that will help our 
industry use digital information to improve reliability and 
resiliency and help us understand our vulnerabilities to cyber-
attacks.
    Thank you again for the opportunity to share our 
experience.
    [The prepared statement of Mr. Cardenas follows:]
                Prepared Statement of Jorge L. Cardenas
                              June 4, 2013
    Chairman Brooks, Ranking Member Payne, and Members of the 
subcommittee, thank you for the opportunity to appear before you here 
today.
    My name is Jorge Cardenas. I am vice president of asset management 
and centralized services for Public Service Electric and Gas Company, 
which is New Jersey's largest utility company, best known as PSE&G.
    PSE&G's service territory includes all of New Jersey's major urban 
areas, along a 2,600-square-mile north-south corridor that hugs much of 
the New Jersey Turnpike. We serve some 2.2 million electric customers, 
and 1.8 million gas customers.
    PSE&G is a subsidiary of Public Service Enterprise Group, an 
integrated generation and energy company headquartered in Newark, New 
Jersey.
    I appreciate your invitation to appear at today's hearing to 
discuss the use of social media and technology during disaster.
    Superstorm Sandy hit New Jersey hard. In our service territory, it 
took down 48,000 trees affecting our distribution system, destroyed 
2,400 utility poles, drove walls of water into 29 of our switching and 
substations, and damaged gas lines and meters.
    The damage, and the impact to our system, was unprecedented.
    All in all, over 40,000 of our gas customers were impacted; many 
needing their heating systems repaired and their gas meters and 
regulators replaced, and 90 percent of our electric customers--almost 2 
million--lost power. Restoration efforts were impeded by a forceful 
nor'easter that hit a week later.
    The impact of the destruction and the complexity of the work that 
needed to be done in order to restore service made communication--of 
all kinds--a key component of the Sandy recovery effort.
    I'm here primarily to talk about our use of social media, but let 
me also note the importance of smart grid technology which makes it 
possible for utilities like ours to obtain critical information that 
can help pinpoint problems and automate restoration. Smart grid 
technology can dramatically shorten the time it takes to restore 
service in the aftermath of a storm, and can prevent outages from 
becoming widespread.
    That's why, in New Jersey, we have proposed a $450 million 
investment in smart grid technology as part of our $3.9 billion 
``Energy Strong'' proposal, which will harden our system against the 
types of extraordinary weather events that have hit our area over the 
last few years.
    Now I'd like to talk in more detail about our experience with 
social media and its value as a communications tool for a storm event 
like Sandy.
    We already had email addresses for about 800,000 customers and 
almost 15,000 people in our Twitter community, and the ability to 
communicate directly was helpful.
    We used email and Twitter in the days before Sandy to communicate 
about safety and to help people prepare. After the storm passed, we 
used them to explain the historic amount of damage and the Herculean 
effort it would take to clean up and rebuild.
    We explained the importance of reporting outages and damaged 
equipment, and the correct method for doing so.
    We supplemented the messages we typically send in a storm through 
traditional media outlets with a greater number of proactive outbound 
phone calls to customers, daily conference calls with local leaders, 
more frequent emails to stakeholders, and a much stronger social media 
presence than we had ever before attempted.
    We educated customers and community leaders about our inspection 
and restoration process for getting power to refineries, as well as 
heat and light to hospitals, schools, businesses, and homes.
    Throughout it all, we were frank about the challenges and setbacks 
we faced--as well as our victories.
    That consistent and transparent dialogue helped our customers and 
the communities we serve set expectations and plan appropriately.
    We not only listened and pushed out valuable information--we talked 
with people. That was a differentiator.
    For our part, we're proud of the speed and flexibility with which 
we ramped up, our ability to adapt to the magnitude of the situation, 
the volume of interactions we handled via social media and the intense 
and sustained nature of our efforts.
    While we had historically used social media only during business 
hours and with a small group of people at the helm, we quickly staffed 
up and, for 17 days, staffed our Twitter feeds 15 hours a day, 7 days a 
week.
    We used Twitter to send word about the daily locations of our giant 
tents and generators--which allowed customers in hard-hit areas to 
charge their electronic equipment and get free ice, water, and food.
    We sent more than 9,000 messages (more than 500 a day) and saw some 
90,000 directed at us. When the volume of in-bound tweets became too 
great to us to reply to each individually, we responded to messages 
about safety and offered comment when we felt it could benefit a broad 
audience.
    At one point during the storm, we sent so many tweets to alert 
customers, we exceeded the amount of tweets allowed per day. Through 
our utility contacts, we reached the leadership of Twitter to expand 
our capacity. A lesson learned for the next storm.
    We gained almost 47,000 followers during this time, and exited the 
Superstorm with the largest Twitter community of any utility in the 
United States.
    Our innovative use of social media was certainly noticed. In a 
recent report, JD Power and Associates mentioned our use of Twitter 
during Sandy as a best practice, citing our ``industry-leading 
communications success.''
    And CS Week, a nonprofit that focuses on customer service for 
utilities, recently gave PSE&G an award for ``Innovation in Customer 
Service'' for its use of social media during Sandy.
    While we are back to a more reasonable pace now, we are now more 
convinced than ever about the power and importance of social media--
especially in times of emergency.
    We continue to build and engage our on-line communities with the 
understanding that ``blue sky days'' are different than those marked by 
crises, and social media and mobile technology are an increasingly 
important part our communications strategy.
    Here are some other things we learned:
    1. Mobile technology is a game changer.--More than half of 
        Americans have a smart phone, and more and more people--in 
        almost every age demographic--are active on social media.
    2. People have an increasing and insatiable need to be connected.--
        Even more so in times of emergency. They want to be heard, to 
        be validated, to help and to influence. Understanding that, and 
        honoring it, is key to creating community and getting through 
        crises.
    3. The number of people on social media spikes in times of 
        disaster.--People flock to Twitter and Facebook and the like 
        because they are searching for immediate information that they 
        can't get via traditional broadcast channels. And the big 
        social media platforms are all mobile-optimized.
    4. Engaging influencers is critical.--It's just as important to 
        grow the influence of your on-line community as it is to grow 
        the size. Connecting with people who have credibility and 
        influence in their local communities is critical to an 
        organization's ability to spread its message outside of its own 
        networks, and increase the effectiveness of the communication.
    5. The public respects and rewards consistent, transparent 
        interaction and cooperation between the private sector and 
        community leaders.--During Sandy we used Twitter to amplify 
        messages from municipal and State officials, police 
        departments, Offices of Emergency Management and social service 
        agencies--and that was integral in getting valuable information 
        to those who needed it when it was needed.
    6. Tone matters.--People respect a social media effort that is 
        continuously empathetic, authentic, and helpful.
    7. Public notes of appreciation matter too, especially to the 
        fiercely proud people who work in the utility industry.--We 
        regard ourselves as first responders, and supportive messages 
        can go a long way with a weary employee base in need of a 
        morale boost.
    So--how do we build on this experience at PSE&G?
    Today our customers can access outage maps on our website and get 
information about safety and our outage reporting and restoration 
processes.
    We are optimizing these pages and other parts of our website so 
that they can be more easily utilized via smart phones.
    While we have some exciting new texting capabilities, we are 
looking to enrich our offerings even further so that customers can 
report their outages via text and get updates from us as we make 
progress on restoring their service.
    And we are working on developing separate web pages for each of the 
municipalities we serve, which will provide localized information 
including an estimated time of restoration for specific geographic 
areas.
    Sandy reminded us how important it is to continue to improve our 
ability to communicate in an increasingly 24/7, connected, and cyber-
savvy world. We continue to work with our peers both within the energy 
industry and in other industries to learn and develop best practices.
    While I work for the utility company, it is worth noting for this 
committee that the generation side of our business has begun 
incorporating social media into its emergency planning.
    Working with the Nuclear Energy Institute, PSEG Nuclear has begun 
to transform its existing news center operations into a virtual joint 
information system (JIS).
    The virtual JIS would incorporate social media platforms and a dark 
website to share information with the public in the event of a nuclear 
plant emergency.
    The plan incorporates NEI's lessons learned through the tragedy in 
Japan as well as PSEG's learnings from Superstorm Sandy.
    This process is being developed with support from the New Jersey 
Office of Emergency Management as well as the Delaware Emergency 
Management Agency. It would also meet requirements established by the 
Federal Emergency Management Agency.
    Finally, I want to thank Congressman Payne for his bill which calls 
for a National Research Council study that could help our industry use 
digital information to improve reliability and resiliency, and help us 
understand our vulnerabilities as they relate to cyber attack.
    In closing, changing weather patterns and an increased dependence 
on electricity require us to rethink the use of communications 
technology throughout our operations. Social media certainly has an 
increased role to play in the dissemination of emergency and disaster 
information.
    And when we think about how to make our grid more resilient, it is 
smart grid technology that allows our equipment to ``talk''--giving 
critical pieces the ability to automatically locate, isolate, diagnose, 
and begin to address problems--which helps us keep the lights on.
    Thank you again for the opportunity to testify this morning, and 
I'd be happy to take any questions.

    Mrs. Brooks. Thank you, Mr. Cardenas.
    Before I begin to ask questions and before the rest of the 
panel begins to ask questions, I would like to mention that in 
the spirit of this hearing, last week I, as well as some 
members of my team and staff from homeland security, 
participated in last Friday's weekly ``SMEM chat'' or what is 
Social Media Emergency Management chat on Twitter and solicited 
questions from those participants.
    So on a weekly basis folks participate in this manner, and 
I appreciate all of the wonderful insights. I am not sure if 
this has been done in Congress before to solicit these types of 
questions, but since this is the people's house, I am happy to 
be submitting some of these questions that came from this chat 
last Friday.
    I should also note that during that chat, I was asked to 
express their appreciation for the work that your companies and 
your association are doing to support emergency managers. They 
truly appreciate it, and they wanted to make sure that we, you 
know, thanked the private sector for all of the work they are 
doing to support their work.
    I would like to start out first of all with Mr. Stepka.
    Thank you for speaking with us today, and certainly I know 
and you have shared with us all of the positive things that 
Google is doing to assist survivors and responders during 
Hurricane Sandy in particular, but I am very curious what kind 
of feedback you have received particularly from the users of 
your products; whether it is crisis maps, people finder, public 
alerts, and what kind of changes have you made, because this is 
obviously an evolving process, and I am curious, you know, what 
you have heard from the users.
    Mr. Stepka. Sure. One thing we look at for feedback is just 
how much things are being used and definitely our products are 
being used a lot. We had over 15 million unique visits to the 
Sandy pages alone. We had millions of people over the years 
using our products in this context.
    I think one of the key areas we looked at--I mentioned 
about crowdsourcing and how that became important, I think, to 
add to the crisis maps. We realized that that information is 
necessary. Sometimes the authoritative sources are not going to 
have everything you need to know. That is one piece of 
feedback.
    Mrs. Brooks. Can you just explain to us and for the 
audience what crowdsourcing is?
    Mr. Stepka. Sure. The notion of crowdsourcing is that 
basically rather than just taking data from authoritative 
sources like from, you know, FEMA or other organizations that 
have information from their sources which are authoritative, we 
also have the idea of crowdsourcing is collecting data from our 
users directly and finding a way to put that onto our 
properties around our products; so like on a map.
    The example I gave was around fuel stations in New Jersey. 
That information came from users and then was then put on our 
website and on our maps so people could see where the stations 
were that had fuel.
    The advantage of crowdsourcing is it lets lots of people on 
the ground participate and provide that information and you 
have to have a way to do that in a way that makes--that there 
is good feedback and people can correct data if they find 
errors. This is a crowd effort to make sure the data is 
accurate.
    Mrs. Brooks. Thank you. Just a follow-up with respect to 
your maps. I know you receive information data feeds from 
multiple sources like you have said, FEMA, Red Cross, and 
others. Have you experienced, and you mentioned it in your 
testimony, have you experienced interoperability issues with 
importing that information onto your maps?
    How does that work? What are you doing to address those 
issues? Or what should groups like FEMA and Red Cross who we 
hope to be talking to in a next panel discussion, you know, 
what should we be sharing with them?
    Mr. Stepka. Yes. Over the years we spent a lot of time 
early on doing a lot of massaging of data frankly to get it on 
to the maps. It was a lot of work initially; it was very ad hoc 
because we just wanted to get the information to people as 
quickly as possible.
    It did slow things down quite a bit. We are working a lot 
to get data in machine-readable formats and that is the most 
important thing--ways that we can actually receive the data and 
integrate it and we think the open standards is the best way to 
do it. This way it is available not just that Google but to 
anybody who can use that information in a secure way on 
whatever products they have or services they have.
    So I think the most important thing we are doing and what I 
would suggest is that we have these standards that 
organizations get behind like, for example, for alerts, we have 
a standard called Common Alerts Protocol, which is being 
adopted by a lot of organizations. I know in particular USGS is 
doing it for earthquakes for example.
    So as much as possible getting information in these 
standard formats so that it is very easy for us to integrate. 
Once they are in those formats, it is not a problem for us to 
integrate all of that data. It is just when they are not 
machine-readable it requires a lot of handholding and manual 
work, frankly.
    Mrs. Brooks. How might you suggest that we educate everyone 
about the need for this open format?
    Mr. Stepka. I think it will come up probably in, as many 
things do, in terms of funding; resources for--make sure those 
resources are focusing on writing to standards. It does require 
that organizations, Government organizations take the data they 
have and take the effort to change it so that it can be made 
available through these secure protocols, and I think that does 
require some resources.
    Mrs. Brooks. Thank you.
    Very briefly, Mr. Payne, the work you are doing of course, 
at Palantir, to support the disaster relief efforts is truly 
impressive. I would like to ask you a similar question. As a 
result of lessons learned from Hurricane Sandy, what are some 
of those lessons? I know you shared some of those with us, but 
with respect to the users of your technology?
    Mr. Payne. I think that one of the first and most important 
lessons learned is the value of connectivity. What we saw in 
Hurricane Sandy is if you look at open 3-1-1 data, which is a 
great example of governments embracing open data and pushing 
out non-urgent requests for help from the community, to make 
that data publicly available.
    Before Hurricane Sandy, you saw a--something that reflected 
the heat map of the population density of New York City by and 
large. Then afterwards, there were discrete areas that were 
completely gone from requests for help because they had lost 
connectivity.
    So the first lesson is the absolute importance of 
empowering people to have ways to share that message to 
communicate directly with individuals. You know, at the end of 
the day a car battery will power an iPhone or an Android phone 
150 times, but how do you make that link up such that that 
device stays hot or active in days after a storm? So that is 
one lesson.
    That being said, technology can be used and built to work 
in areas where there is not that connectivity. The second 
lesson is that the more data that you can fuse, the better 
cohesive picture you can build.
    Here one of the great things that happened after Hurricane 
Sandy is NOAA released very good high-resolution, overhead 
imagery of the affected areas. They flew an aircraft along the 
coastlines and made that data publicly available and so in 
tools like Google Maps or Palantir's geographic capabilities, 
we were able to actually look at where there was sand in the 
streets, where there were broken-down cars, where there were 
destroyed buildings, et cetera, and then use that to allocate 
resources to help those people affected by that get back on our 
feet.
    Mrs. Brooks. Thank you very much.
    My time is now up. I now recognize the Ranking Member of 
the subcommittee, the gentleman from New Jersey, Mr. Payne, for 
any questions.
    Mr. Payne of New Jersey. Thank you, Madam Chairwoman.
    Mr. Cardenas, you know, most utility companies have a 
presence on social media, but PSE&G has been a trailblazer in 
that regard. What differentiates public services' social media 
efforts from others in the utility industry?
    Mr. Cardenas. I think that the key differentiator is that 
we had real people speaking with real people. Our employees 
live in our service territories. They were experiencing the 
same exact things are customers were. We were very transparent.
    Our people on Twitter had the latest information. They knew 
about our challenges. They knew about time lines to restore 
certain communities. They did the best they could up front when 
we had individual responses. Later on they turned to more 
geographically encompassing messages.
    We were empathetic. I think we were very well-connected to 
each of those who sent us a tweet and we did our very, very 
best to get timely, very real information out to the public.
    Mr. Payne of New Jersey. Have Government entities 
responsible for disaster relief reached out to PSE&G? To ask 
them their expertise in developing these best practices?
    Mr. Cardenas. We have as late as yesterday, we had a 
meeting with a number of other utilities, other entities to 
share amongst us our best practices and our successes both in 
government throughout the storm whether it be the municipal 
mayors, whether it be the Governor's office, the Congressman's 
offices, we work clearly with them all the time to get their 
messages and our messages out to ensure we reinforced each 
other and make sure people were well-informed.
    Mr. Payne of New Jersey. Thank you, sir.
    Mr. Stepka, you know, I represent the 10th District in New 
Jersey which was greatly impacted by Hurricane Sandy. I 
understand that you had a strong presence in the area. Would 
you elaborate on what you did with the State and for the 
residents of New Jersey?
    Mr. Stepka. Sure. I think the most notable thing we did is 
through the crisis map I think gave people a lot of warning 
about where the map--wherever the storm was moving and how it 
was going and evacuation routes things like that, shelter 
information.
    I think the issues about the gas stations as well, I think 
was also New Jersey as well. That was probably one of the 
responses we did and we worked through our tools to provide 
people information.
    Mr. Payne of New Jersey. Okay. What can we do in the region 
to prepare for the next crisis?
    Mr. Stepka. I think the lesson learned about getting data 
in advance in these available to--in these open formats I think 
is important. There is always more information we can get. I 
think it is interesting about the fuel information, the longer-
term time to recover from the storm.
    It is important to figure out ways to get that data in 
advance, but I think at the same time with crowdsourcing, we 
always have to find the right balance between getting good 
information and making sure it is accurate.
    Mr. Payne of New Jersey. Okay. Thank you.
    Mr. Beckerman, how do you feel--how can the Federal, State, 
and local governments and first responders best leverage the 
social media in data integration the tools available on the 
internet and disaster preparedness and response activities 
moving forward?
    Mr. Beckerman. I think one of the most important things is 
having an open line of communication between the technology 
companies and the Government and that appears to be happening.
    Social media and the internet can help before a storm like 
we have seen in the hurricanes and tornadoes. When you have 
some advanced warning, you can send messages out on social 
media and let people know the shelter in place or evacuate 
during a disaster as we have seen with help--responding to 
people to get real-time help, and then after a disaster to make 
sure that relief and volunteers and money and blood and things 
like that are getting to communities that need it most.
    Mr. Payne of New Jersey. This should be an on-going 
conversation.
    Mr. Beckerman. On-going, absolutely.
    Mr. Payne of New Jersey. Not waiting for the next disaster 
to happen, correct?
    Mr. Beckerman. That is correct.
    Mr. Payne of New Jersey. Okay, okay.
    Let's see. Mr. Payne, you have identified development of 
clear data retention policies as a means of preventing 
sensitive information from falling into the wrong hands and bad 
actors. How do you envision these policies being developed and 
should they be directive or voluntary?
    Mr. Payne. In some cases, that they will be directive. 
Obviously, personal information about someone's health 
information or health status is a very good example that falls 
under HIPAA law.
    The important thing is that an organization does not know 
what is happening to the data that they are sharing. Them 
making the decision to share that data becomes a very difficult 
decision to make.
    If it is an all-or-nothing, far too often the answer has to 
be nothing, but if there is abilities to technologically drive 
subsets of data, remove personally identifiable information, et 
cetera, that can empower that organization or that individual 
to make the decision of yes.
    At the end of the day, those most vulnerable during 
disaster are those most vulnerable before the disaster and 
often it is systemic health concerns and that sort of thing.
    Knowing who those people are and where they are can be very 
useful for first responders to ensure that they have the 
correct medication, the correct resources that they need, but 
redacting that information or removing that information after 
the disaster is something that I think would make it much more 
likely for the decision to be yes to share that information.
    Mr. Payne of New Jersey. Thank you.
    Madam Chairwoman, I yield back.
    Mrs. Brooks. Thank you very much.
    The Chairwoman will now recognize other Members of the 
subcommittee for questions they may wish to ask the witnesses.
    In accordance with our committee rules and practice, I plan 
to recognize Members who were present at the start of the 
hearing by seniority on the subcommittee, and those coming in 
later will be recognized in the order of their arrival.
    At this time, the Chairwoman now recognizes the gentleman 
from New York, Mr. King, former chair of the Homeland Security 
Committee, for questions.
    Mr. King. Thank you, Madam Chairwoman. Let me thank you for 
holding this hearing which is especially vital and it certainly 
has a real significance coming so soon after Sandy.
    Let me join Mr. Payne in commending Mr. Cardenas for the 
outstanding job that PSE&G did in New Jersey. Unfortunately, we 
did not have the same experience in New York. I am not trying 
to drag you into a cross-border dispute here, but in my 
district, and the district next to mine, we have about $8 
billion in damage, and that we can cope with.
    What we could not cope with was almost a total lack of 
communication between the consumers and the public utility, 
Long Island Power Authority. It was again, almost impossible to 
get information, get answers. Again, I say almost a total 
breakdown in communication.
    From what Mr. Payne has said, and certainly your testimony 
today, it is clear that PSE&G was making substantial use of 
social media. I know you are working within New Jersey, but are 
you making any effort to reach beyond New Jersey to share your 
experiences with other utilities throughout the country?
    Mr. Cardenas. Absolutely. Absolutely. We have met with 
ConEdison, with LIPA, with members from Connecticut to share 
our best practices. We have shown them what we did, how we were 
able to in real time ramp up to train our employees to respond 
on Twitter.
    It has become a brand-new technology that grows every day, 
changes every day. So you have to stay ahead and we chose to 
embrace it and to be very transparent.
    I think that is the one thing we told the other utilities. 
Please, provide information you have and that is important and 
that it be done with people who can speak with people, not to 
people, because everybody is kind-of on the same boat here and 
we are all trying to help each other. So we have met with 
utilities in the surrounding States.
    Mr. King. Can you tell us if they have been listening to 
you?
    Mr. Cardenas. I think only----
    Mr. King. You know, I am not trying to drag you----
    Mr. Cardenas [continuing]. Only time will tell, and I am 
sure they will. I think the energy industry, the utilities tend 
to share information, we just hope that everybody takes it on 
in a very timely manner.
    Mr. King. Thank you, Mr. Cardenas.
    Once again, Mr. Payne is ahead of the rest of us, he gets 
the break in New York with the good service, I mean, in New 
Jersey, and we in New York are trying to, you know, catch up. 
But anyway.
    Don, thanks for bringing the witness today.
    Let me ask Mr. Stepka--really I guess expanding on your 
testimony with the Chairwoman, can you describe the 
partnerships that you have established with first responders 
and Government agencies as Google rolls out its crisis response 
efforts and also if you could again again emphasize what you 
did with Sandy and how that would apply to the future?
    Mr. Stepka. Sure. I think the Red Cross is one of the key 
partnerships we work with very closely--actually for things 
like shelter information and resources for recovery.
    With the city of New York, we were very engaged as well. We 
created actually a separate crisis map just for the city of New 
York. We had actually special data that was available for them 
for evacuation routes and things like the affected areas.
    Of course we work with NOAA as well for weather 
information. They are also working with a CAP standard for 
alerts. It is very helpful for like when storms are coming and 
we can alert that information to our users. With Sandy those 
partnerships, a lot of those were in place already, so we were 
able to really respond more effectively.
    Mr. King. Do you recall if you have had any relationships 
on Long Island, Nassau County, Suffolk County, or the State 
government?
    Mr. Stepka. You know, I don't recall off the top of my 
head. We can get back to you on that.
    Mr. King. Okay, if you would and if not, let me know, and I 
will, you know, contact the county executives. From listening 
to your testimony and the way it was described, I think it 
would be very vital.
    Mr. Stepka. Okay.
    Mr. King. All of us were really caught off guard with 
Sandy.
    I yield back, Madam Chairwoman, thank you very much.
    Mrs. Brooks. Thank you.
    The Chairwoman now recognizes the gentlelady from New York, 
Ms. Clarke.
    Ms. Clarke. Thank you, Madam Chairwoman, and to our Ranking 
Member, Mr. Payne, to our distinguished panelists.
    I wanted to sort-of, a follow-through on some of the train 
of thought here, because what we saw with the Sandy event was a 
unique confluence of conditions and one of the things that 
have--being a New Yorker--has concerned me is the way that the 
mobile phone scenario degrades very rapidly in those types of 
environments.
    You couple that with a water event so that perhaps Mr. 
Payne's idea of using a car battery becomes a nonstarter and 
then the going down of the grid, now you know we have no way of 
communicating.
    So I would be interested in sort of getting a sense of 
other ways that we can perhaps tap into the technology world 
beyond that affected environment to bring relief as rapidly as 
possible to those environments.
    Has there been any discussion about satellite technology 
and how that in some way can be of assistance, and then finally 
just a description of your partnerships with New York 
responders and agencies around such an event such as Sandy--now 
I spoke about a natural disaster, but in the event of a 
terrorist attack which we have experienced in New York City, 
the same scenario plays out once everyone starts getting on 
their mobile phones at the same time.
    It becomes you know--if you can get through to someone you 
are lucky and it seems to go out in concentric circles. The 
closer you are, the harder it is but after a while there is a 
cascading effect. So can you just sort of share with me your 
thoughts around that? Because that was a major concern, for 
many days, quite frankly, after the event in New York City.
    Mr. Stepka. The first part of your question about the 
usefulness of mobile phones during a crisis. It is a problem--
of course if we don't have power. That is the first thing you 
need to have and there are, I think, very creative ideas of 
getting around that issue and they are on a different grid so 
they tend to have their own power sources separately.
    You mentioned the ideas of satellites or other 
technologies. I think it is something we have done a lot of 
internal discussions around, like what technologies would be 
useful as a back-up system in this situation? A lot of them 
have advantages and disadvantages. I think they are worth 
looking into more deeply and making investments overall, but we 
don't have anything now in place for that.
    I do think, I mean, all of these tools are limited by the 
fact that if you don't have connectivity, you can't get them. I 
do think it is something that we are focusing more immediately 
on, which is probably more cost-effective and that is getting 
people more prepared before-hand.
    So the cool thing about a storm like Sandy--you can see it 
coming, unlike a tornado which unfortunately gives very little 
warning, but with a situation like, you know it is coming, we 
can actually give people a lot more certainty and give them 
instructions and ideas about how to prepare for it so they 
don't have to deal with it as badly; either evacuating early or 
at least getting supplies ready for the emergency.
    So I think that something we can do a much better job at 
and I think it is something we are looking at closely.
    The second question, I think you were asking around--more 
around I guess terrorists events and that sort of thing. For 
the most part, we have been focusing on a natural disasters. In 
a terrorist attack we did actually help with the Boston 
bombing. We turned on our Person Finder so people could find 
out where their loved ones were during the crisis--after the 
crisis because there was a lot of chaos right then.
    I think in general it is a very different set of issues and 
I think it is important to look at them very carefully. Like 
you see there is a bad actor in play, you need to understand 
what is the motivations and how they are engaging on this event 
and how do we make sure that we be very careful how we respond?
    Mr. Payne. Today, there exists a system for NGO's focus on 
response to use voice. It is called to the Wireless Priority 
Service. That is over a decade old and it doesn't have any 
allocations for data. To change that to allow folk to use data 
would reduce the congestion on networks and allow people to be 
more effective in communicating.
    Further known are the First Net initiative looking long-
term at something that I think can really help. It is a Nation-
wide 500 megahertz' worth of spectrum allocation for specific 
data transmission during emergency response.
    My understanding right now is that that is only allocated 
for official Government agencies. If there could be small 
portions of that system, of that First Net system, that could 
be allocated for individuals at FEMA shelters or Red Cross 
shelters or NGOs to do quick communications to check in with 
their loved ones, I think that would go a long way towards 
empowering people to communicate in wide-scale disasters.
    Ms. Clarke. Thank you very much, Madam Chairwoman.
    I thank you for your responses.
    Mrs. Brooks. Thank you.
    The Chairwoman now recognizes the gentleman from 
Pennsylvania, Mr. Perry, for 5 minutes.
    Mr. Perry. Thank you, Madam Chairwoman.
    Gentlemen, I appreciate your testimony.
    I am interested in prevention of things that we have seen 
happen and wondering what you see as the Federal Government's 
role, and in particularly in cases, if we could use the Boston, 
the bombing at the marathon and the--and the Facebook postings 
in advance of that.
    How should--how do you see that that should be monitored? 
Should it be monitored in the first place? How should it be 
monitored? What would the triggers be? Should that information 
go to law enforcement? Who should send it?
    I think there is a lot of questions there because I think 
there is some expectation that this stuff is open source that 
it no longer bears the same privacy concerns that maybe your 
email would once you posted on Facebook.
    Is that true, and if that is available, should or should we 
not be using that to safeguard our communities? I would just 
like to have a continuing dialogue.
    I guess, Mr. Stepka, anybody would like to answer?
    Mr. Stepka. Sure. I think it is a very important question 
to get that right and we do take this very seriously. I think 
in general, all this public information that is available on 
social media, I think can be a source, I think for law 
enforcement to look for potential bad actors and I think they 
can do that.
    In general instances, that being posted publicly, that can 
be reviewed by law enforcement without any need to get 
subpoenaed or even working with either Google or other 
technology companies. They can do that directly.
    I think, you know, that is pretty much--I think the most 
important thing to think about with that. This is a--in a free 
society it is a hard balance to figure out how to deal with 
these kinds of information out there. There is many--there is 
usually a very small number of people who are bad actors and 
they get lost in the noise, I think, unless you are looking for 
them specifically.
    Mr. Beckerman. From our perspective, privacy is very 
important. Our companies take the privacy of the users very 
seriously either every day and also during disasters, and there 
are a lot of tools on-line, but we feel that law enforcement 
should use the same warrants and due process and that they do 
in the analog world that they should apply to the digital 
world.
    Mr. Perry. So in that case, where there have been or were 
Facebook postings, who would have--whose responsibility is it 
to monitor? How would they find in this huge universe of 
postings, how would they find that in a timely--whoever they 
are--first of all, who do you see?
    Who are the ``they?'' Is it law enforcement? Is it the 
Department of Justice? Department of Defense? Is it the CIA? 
Who is it that would do it? Is it you folks? How would they go 
about finding that needle in the haystack on a continual basis, 
if you have any thoughts on that?
    Mr. Stepka. One thing we can do is, and this is related to 
YouTube when people would post either things which violate our 
terms of service around hate speech or terrorist activity, that 
sort of thing, if someone flagged that information we do take 
it down.
    So we do rely on our users to help police it in that sense. 
I think, like I mentioned before, if there is public postings, 
I would leave it to law enforcement to look at the public 
postings. If they are not public, they do have to go through 
their normal process to get access to the information, the same 
as any other kind of subpoena process.
    Mr. Perry. So when you take it down--if it falls within the 
criteria that you find objectionable per your company's 
policies, do you then report? Do you feel an obligation to 
report in the instances of--in the instance of these--these 
Facebook postings or these videos in particular, is--should 
there be an obligation?
    Was there any obligation other than just taking it down 
because of course that doesn't help law enforcement, that 
doesn't alert citizens or the authorities to what might be 
impending? What is your protocol--what should the protocol be 
there?
    Mr. Stepka. Yes, specifically on YouTube I know that if a 
user flags something as being terrorist, a terrorist activity 
or basically a bomb-making-type thing, we do take it down.
    You know, I don't know the answer to your question about 
whether we do then inform law enforcement of that. I can find 
out that and get back to you.
    Mr. Perry. All right, thank you.
    Madam Chairwoman, I yield back.
    Mrs. Brooks. Thank you.
    At this time I recognize gentleman from Mississippi, Mr. 
Palazzo, for 5 minutes.
    Mr. Palazzo. Thank you, Madam Chairwoman.
    I thank our witnesses here today for their testimony and 
answering our questions.
    I represent the Mississippi's 4th Congressional District 
which spans the entire Mississippi Gulf Coast. We got hit 
pretty hard during Hurricane Katrina and that was in 2005, 
almost 8 years ago.
    It feels like a long time, a very long time, but the 
remnants of the storm are still heavily present with us every 
day and we are still recovering. But I would like to point out 
Facebook was still in its infancy, relatively speaking.
    It was almost nonexistent to many people. Twitter was 
nonexistent. The first iPhone wouldn't come out for almost 
another year. Last year, Hurricane Sandy hit the Northeast and 
there were millions of people on social media sharing 
information, watching live Twitter feeds, and checking up on 
their loved ones. So just in a few short years we have seen 
social media explode, and I think most of my questions have 
already been answered.
    We have talked about lessons learned, but if any of you 
have the experience, can you kind of compare the technologies 
that we had during Hurricane Katrina, the lessons that we 
learned that brought us up to the successful information 
sharing that we had during Hurricane Sandy?
    Mr. Stepka, we will just go left to right.
    Mr. Stepka. Sure. I think the biggest change would be with, 
I think, the mobile phone technology, it is a major change the 
people have access to communications especially whereever they 
are and also if their main lines go down. I think the second, 
of course, is social media.
    No question that has been a big difference. I think people 
are more connected imminently in that sense and have many 
outlets and many ways of contacting both authoritative 
organizations as well as each other so they can tell their 
family members that they are okay. That sort of thing.
    Mr. Payne. I believe one of the biggest fundamental 
differences that social media has provided is the efficiency of 
the supply and demand of those that want to help and those that 
need help.
    What we saw in Hurricane Sandy is we had one group of 
veterans, a couple hundred people in total, harnessing over 
14,000 volunteers from the community and those volunteers by 
fusing a bunch of technology requests for help, all sorts of 
data were efficiently tasked to muck basements, to remove the 
sand from parking lots and playgrounds, etc.
    The net effect being that very quickly after the disaster 
folks' houses had the material removed that prevented mold from 
growing in those houses and those houses being destroyed.
    So looking ahead, I believe that we will see an ever-
increased ability to harness more goodwill and more help from 
individuals in the surrounding areas to help people get back on 
their feet. I think that is the best sort of siren of social 
media.
    Mr. Beckerman. Yes, thank you. I think you explained the 
differences perfectly by the fact that Facebook had been only a 
year in existence, Twitter didn't exist, there were no iPhones.
    So during Hurricane Katrina in 2005, only half of the 
internet users used on-line sources to find news, and today 
that is obviously much higher. Only 25 percent used on-line 
sources to check in on loved ones and let people know they were 
all right and things like that. Today obviously as we heard 
from the rest of the panel and from the Members of that number 
is much higher.
    After Hurricane Katrina 13 million people went on-line in 
the United States to donate and again, today that is higher. So 
we have seen as the technology has grown the benefits of the 
internet and social media really help people, and I think it 
could have been obviously a benefit during Hurricane Katrina as 
well.
    Mr. Palazzo. All right, well I definitely agree with 
everything that you said. I can tell you just the other day we 
had a severe weather event and my phone went off and I did not 
apply for the app--I guess it was just the phone service just 
notifying us that we are about to hit some severe weather on 
the Mississippi Gulf Coast and I was very grateful for that.
    I have seen--as we have seen in the tornadoes that have 
recently happened in my district and all across the country, it 
does allow people from all across United States to help in some 
form or fashion even if it is donations or having people come 
out and help fill sandbags, remove mold.
    I think that is a fantastic--and my final question would 
be--and this is for everyone again, what suggestions or tips do 
you have for Americans that are actually users of the 
technology, the social media, during a disaster? What tips 
would you provide, if anybody?
    Mr. Stepka. I think the first tip I would give; I think it 
is good to have a plan in advance of an emergency. Every family 
should be thinking about this in advance. They should know how 
to contact each other, they should have--whatever means they 
want to do it--whether electronic or some back-up ways, they 
should do that.
    So I think preparation is the best thing for everyone. 
During an emergency itself I think power is essential. If we 
think about, you know, water, other kinds of resources you want 
to have ready, but having power connectivity I think are really 
important, so you can have access to communications.
    Mr. Cardenas. For us, from a utility perspective, don't 
take for granted that we know that you don't have power. So it 
is good to know that information because you know maybe two 
blocks from you, right, people may not have power, you may get 
power, they don't have power, so please be accurate.
    You don't have power, let us know. Because it may be that 
you have a problem that is only localized to your block or to 
your service. So provide information. The more the better.
    Mr. Palazzo. All right.
    Well thank you, Madam Chairwoman. It is a very informative 
hearing. Thank you.
    Mrs. Brooks. Thank you.
    I have a couple of questions kind of following up on that a 
little bit. How can our emergency management officials monitor 
and validate the information that they received or the power 
companies, how can you or do you monitor and validate?
    We learned this and that SMEM chat on Twitter last week. 
Those officials shared with us, how can the private sector help 
the emergency managers and first responders efficiently 
collect, validate, share this information posted by the public 
during the disaster? Any suggestions as to how your experiences 
and work can inform and, I guess, I will start with Mr. 
Cardenas.
    Mr. Cardenas. During the storm and right now real-time we 
have people on Twitter, on Facebook, and information that is 
posted is shared not only with us but back with municipal 
officials, State officials, and I think that is critical to 
have that partnership between the public and the private sector 
and that it is a two-way street.
    They come to us with information, we go to them. During 
events any times there is false information posted and working 
with that municipal official you can correct the information. 
You can provide--it is not--you are not going to be out 3 
weeks.
    It may be 3 days. That kind of sets people to be on the 
right page as to what they have to plan for. Many of these 
events are real-time, so that real-time information is 
critical.
    Mrs. Brooks. Mr. Stepka.
    Thank you.
    Mr. Stepka. Yes, I was going to say I agree. I think that 
is important to look at the information as being--it could be 
imperfect in the crisis and is going to evolve. You will 
iterate on the information.
    I think collaborating among agencies and organizations is 
critical as well as the public because the public can help 
validate information.
    I think the crowdsourcing idea makes a lot of sense in this 
context, but we have to think about where it is appropriate and 
how to act on it when we need to validate the information 
before you act on it--or corroborate that information 
elsewhere.
    Mr. Payne. There truly is a risk of data obesity as we grow 
with significant amounts of information streams coming on in 
the future. I think that robust data fusion capabilities with 
data analysis capabilities can empower that analyst to tease 
through the information that is relevant to them, vet it 
against other sources, and use of social media as part of a 
holistic approach to information to make resource allocation 
decisions.
    Mrs. Brooks. With respect to the work that you have all 
been doing, just last week FEMA released 2013 National 
Preparedness Report, which did identify the need to mature the 
role of public-private partnerships as a new National area for 
improvement, and this was also highlighted during our Twitter 
chat last week.
    Based on the incredible work that your companies are doing, 
what has your actual interaction been with Federal, State, and 
local governments, and has FEMA reached out to you all 
specifically, and have you worked with FEMA?
    I will, you know, ask Mr. Stepka and Payne specifically 
initially because I am sure you have worked with them, Mr. 
Cardenas. Or----
    Mr. Cardenas. Yes.
    Mrs. Brooks. Yes.
    Mr. Stepka. Yes, we have worked with FEMA and we have 
talked with them about how we can better work together to help 
support their efforts. So I think I would like to do that more 
as well.
    I think at every level of government we have been working 
on it with different situations. I mentioned we worked with the 
city of New York as well in the crisis.
    I think we look for scalable ways to reach out to 
Government organizations. It is hard to reach out to all of 
them, so I think it is important again to go back to standards. 
If we have standards laid out, it doesn't require that we have 
relationships with every single organization, every level of 
government. If we all can agree on certain kinds of interaction 
with secure data, that will take care of a lot of those 
interactions.
    Mr. Payne. I think this relationship highlights the 
importance of open data. FEMA does a great job with certain 
data sources that they can publicly release making them 
available so that organizations like Google, ourselves, and 
other response organizations can leverage that information. We 
would certainly welcome the opportunity to engage them to see 
on both sides how we can improve that relationship.
    During Hurricane Sandy, we did work with the Office of 
Executive Management at New York City. I think they did a 
fantastic job interfacing with the dozens of organizations to 
help as much as possible and I think that was a success story 
of a governmental-social sector interaction.
    It is something that we take a very strong commitment to 
openness at Palantir Technologies and with all of the work we 
have done, be it a flood, tornado, or hurricane have ensured 
that all the data that was generated by mobile devices 
integrated et cetera was made available to relevant authorities 
to ensure that they had access to all of that information that 
they--other than the personally identifiable information that 
was removed.
    Mrs. Brooks. Thank you. I would ask the Ranking Member, the 
gentleman from New Jersey, for any further questions.
    Mr. Payne of New Jersey. Yes, ma'am. Thank you, Madam 
Chairwoman.
    Mr. Cardenas, I had a great deal of interest in smart grid 
technology and have had conversations with your company 
officials as well in reference to it, and in your testimony you 
explained the smart grid technology enables utility companies 
to pinpoint problems and restore service more quickly. How does 
the smart grid technology differ from 20th Century technology?
    Mr. Cardenas. Well, equipment in a smart network talks to 
the components of that system. It can reconfigure automatically 
the way a neighborhood is fed. It relies not on human beings 
doing individual steps; information between these components 
can automatically restore services in many cases.
    In addition to that, it provides efficiencies with the 
setting up of a circuit you are going to work on remotely so 
that you don't have to send people to each piece of equipment 
and put it in a way that people can work on it.
    For instance, we had 4,000 people who came to help us out, 
and we had to, every morning, send them out to do work. It took 
us a long time to allow them to be able to do the work because 
we had to make it safe.
    With a smart grid, with a supervisory control and 
information system, we could do that remotely and gain 
efficiencies in the actual time and leveraging that resource to 
get the restoration done.
    So a smart grid is quantum leaps ahead of what we had 10 
years ago, 20 years ago. It is now the way we go and it is 
where we are hoping to make very large investments in.
    Mr. Payne of New Jersey. So that is basically how the smart 
grid technology would improve responses during disasters. Is 
that correct?
    Mr. Cardenas. It will do it both ways. It will do it with 
the efficiency of the people working to restore service as well 
as the automated restoration associated with reconfiguring the 
way the grid is fed.
    Mr. Payne of New Jersey. Thank you.
    Mr. Stepka, in your testimony, you note that, you know, the 
affordable high-speed internet access, you know, is necessary 
to be tech ready for disasters. Nearly 100 million Americans do 
not have access to broadband and one-third do not have access 
to internet, and, you know, I discussed that a bit yesterday 
when we were in my office.
    So from your perspective, how does the digital divide 
undermine disaster response efforts, and how would you address 
the problem?
    Mr. Stepka. I think it is a very important issue. I think 
it is in addition to crisis response we also work on this issue 
in general trying to provide a better internet access to people 
around the world actually.
    As you know, we have launched an effort to bring high-speed 
internet access starting in Kansas City, Austin, and Provo, and 
I think the idea being is in general this is very important.
    Obviously, we need to have a way to provide internet access 
to everybody as well as high-speed access in their home. I 
think so that everybody has access to these great tools and 
also seeing the advantages of being connected not just in a 
crisis.
    I think it is a challenge, what we are doing, in general 
and we are focusing a lot of resources on. There are a couple 
of challenges which are different. One challenge is in urban 
environment versus rural environments. Rural environments are 
very hard to reach using fiber, for example, and usually a 
wireless technology is probably more efficient.
    So we have experimented working with the FCC on a different 
technology which provides potentially the ability to provide 
access to people using the TV white spaces, which is a low 
bandwidth--sorry low-frequency bandwidth that can be used to 
reach rural parts of the world.
    Mr. Payne of New Jersey. Thank you.
    Madam Chairwoman, I yield back the balance, and I would 
like to thank all of the witnesses for their testimony.
    Mrs. Brooks. Okay. Thank you.
    I have a question.
    Mr. Beckerman, I will start with you and others might want 
to chime in, but what are--in following up--what are some 
things that the Federal Government should do in forming 
partnerships with the private sector to take advantage of the 
new technologies? I might ask whether or not you are aware you 
represent a number of associations or I am sorry a number of 
companies and incredibly innovative companies.
    Are there any new technologies we can be anticipating that 
can be used that you can talk with us with respect to social 
media for emergencies and disasters, but how can we better 
connect up the Federal Government with these new technologies?
    Mr. Beckerman. Well, I would say this hearing today is a 
great start opening the dialogue. So thank you for having the 
hearing.
    You know, the most important thing is for private sector, 
our companies, and the Federal Government to have an open 
dialogue and talk. The technology is evolving, and as we go 
through each one of these unfortunate situations, lessons are 
learned and the Federal Government gets better and our 
companies get better and the public gets better at 
understanding how to use the technology.
    Crowdsourcing is a very powerful tool, both during a 
disaster to help bring volunteers, and after disaster to help 
bring money and volunteers and rebuild.
    So, you know, we just ask that the Federal Government--and 
they have been doing a great job so far--is keep an open 
dialogue with our companies and share data where they can, and 
we will educate the public on how they can use this technology.
    Mrs. Brooks. Do you believe that the Federal Government is 
improving its use of social media for emergency alerts and 
preparedness or what is your opinion on that?
    Mr. Beckerman. Absolutely. It is improving every time, and 
as we have seen from some of the protocols from FEMA, they are 
already using social media to send out alerts telling people to 
get their shelter in place or evacuate and that is a great 
step.
    Mrs. Brooks. Any others on the panel would like to comment 
on about how we, you know, work even better together and any 
emerging technologies?
    Mr. Stepka. I would echo everything he said as well.
    I think it is very helpful to work collaboratively on these 
ideas. The technology is still evolving. I think it is still 
early days in some ways.
    I think working together on open formats for data to be 
shared in a secure way that is appropriate using crowdsourcing 
in an appropriate way as well is a very important thing in this 
context.
    But I think there has been a lot of good progress to date. 
I am actually very encouraged by as I mentioned what the White 
House said recently on data standards, and I think those 
general movements are all in the right direction.
    Mrs. Brooks. Okay.
    Mr. Payne.
    Mr. Payne. To echo the other panelists, I concur that we 
are moving in the right direction.
    I am heartened by many of the openness data initiatives and 
open data standards. The White House CTO has done a fantastic 
job pushing new standards that make computer comprehensible 
formats the norm.
    One good example I will offer of this is nonprofit data. 
Today nonprofit data is publicly available, but as a scanned 
piece of paper the computer cannot read very well and it takes 
hundreds of thousands of man-hours to rewrite the database that 
exists with information that is supposed to be public data.
    So in the new budget proposal is the ability for that to be 
electronic information and thus much, much easier for tech-
knowledgeable organizations to leverage the data.
    There are one-and-a-half--1.4 million nonprofit 
organizations in America today and having the ability to engage 
them in a disaster or in an emergency would have a lot of 
benefit to those on the ground and that open data could go a 
long way towards that engagement.
    Mrs. Brooks. Thank you.
    Mr. Cardenas, any thoughts you might have?
    Mr. Cardenas. I will give you one example of the 
collaboration and how we are going to be able to help.
    I don't--in the not-very-distant future, I can see a first 
responder from a municipality going out with a phone taking a 
picture, sending that to us, telling us what equipment is at 
that location the picture was taken from from and then take 
action on that.
    The collaboration between the utility and the way it 
formats this information and its ability to speak and connect 
with that device will be critical as we move forward into the 
future where whether it be crowdsourcing or just the use of 
these devices to locate and identify equipment that has been 
damaged is going to continue to be critical. That I am hoping I 
will be able to see in the next 9 to 12 months.
    Mrs. Brooks. Thank you.
    Thank you, very much.
    Mr. Payne.
    Mr. Payne of New Jersey. Madam Chairwoman, I ask unanimous 
consent to submit testimony from Humanity Road and the Business 
Emergency Operation Center Alliance of New Jersey to the 
record.
    Mrs. Brooks. Pardon? Oh, yes. Oh, thank you.
    Thank you. Without objection, that will be admitted.
    [The information follows:]
 Statement Submitted For the Record by Ranking Member Donald M. Payne, 
                                  Jr.
 Prepared Statement of Christine Thompson, President and Co-Founder of 
                             Humanity Road
    Chairman Brooks, Ranking Member Payne, and distinguished Members of 
the subcommittee. My name is Christine Thompson, president and co-
founder of Humanity Road, a 501c3 Public Charity that specializes in 
digital disaster relief. In support of its mission, Humanity Road 
volunteers harness internet and mobile communications technology to 
collect, verify, and route information on-line during sudden onset 
disaster. Using the internet, we research and share public safety 
information and direct the public to Governmental and aid agencies that 
provide disaster assistance. Since 2010 Humanity Road supported over 
500 emerging events in 53 countries and helped develop and execute 11 
joint social media exercises for private- and public-sector partners. 
We responded in social media for tornado outbreaks, hurricanes, 
earthquakes, tsunamis, flash floods, blizzards, and man-made events and 
activated to provide surge support monitoring of social media by local, 
county, and State-level officials. In the past 3 years we watched the 
amazing growth of mobile and internet-based communications used by the 
impacted public in the United States. During our operations, including 
Hurricane Sandy, we documented the effective use of social media and 
technology tools in fast-moving and slow-moving events. Social Media 
has been used to facilitate rescues, reunite loved ones, manage 
spontaneous donations, and collect situational information. We are here 
to provide examples of how technology has been used, the benefits and 
challenges, and ask for your support on four specific areas:
    1. Engage Humanitarian Technology Partners
    2. Manage Response--Structure for the Use of Technology Partners
    3. Manage Preparedness--Plan for Technology in Training and 
        Exercises
    4. Accelerating Lessons Learned and Innovation.
    The Belle Harbor community response in Rockaway, New York after 
Superstorm Sandy provides an excellent example of a whole community 
approach to disaster response and how social media, digital disaster 
response, and new technology are transforming preparedness, response, & 
recovery. This community is positioned on a peninsula accessible only 
by bridge. The area was inundated by storm surge, sand, and winds 
causing a power and communications blackout with catastrophic damage. 
In the face of these challenges local residents, through the use of 
social media and technology partners, catalyzed a recovery effort that 
serviced over 10,000 people a day. Two hundred volunteers managed the 
operation daily. St. Francis de Sales School had no functioning phones, 
power, or heat. The nearest Red Cross Shelter was more than 30 miles 
away and transportation and gas were nonexistent or challenged. By 
request, a collaborative technology team delivered an innovative 
communications solution on-site within 24 hours. And within a few days, 
this local community-led effort had their own citizen-run command 
center with satellite communications and Wifi hotspot. The command 
center solution was operating on generator and solar-powered lights. It 
became the central coordination point for volunteer coordination, field 
survey teams, feeding, donation management, medical assessments, and 
community response teams that helped with debris removal to name a few. 
The community volunteer team at St. Francis included Monsignor Brown, 
local youth, residents, and spontaneous volunteers from throughout the 
city. The community used social media to list ``essentials'' 
controlling donation and volunteer management. A mobile medic team also 
went door-to-door taking water and supplies, performed health 
screenings on the vulnerable populations, particularly the elderly who 
were stranded without elevator service in high-rise buildings. 
Challenges remained; the community needed to warn its residents about a 
second dangerous storm that was approaching. Paper bulletins were 
posted on church doors, paper handouts made in multiple languages and 
locals resorted to using bullhorns.
    The collaborative communications solution team at St. Francis de 
Sales provided over a quarter-million dollars in communications assets 
and services. The lead partner cost for spearheading this physical 
deployment was only $5,000. The solution team included nonprofits such 
as Humanity Road, Disaster Tech Lab, Information Technology Disaster 
Relief Center (ITDRC), and other private-sector partners including 
Aruba Networks, Viasat, Cisco, and Goal Zero. Each played a role in 
empowering the local community response efforts through technology. 
This innovative approach was not a Joint Resource Center (JRC) or 
Disaster Resource Center (DRC) launched and run by FEMA. It was a Whole 
Community Resource Center which put the recovery at the local level, 
not State or Federal. The FEMA Innovation Team is studying these local 
response activities and working on recommended improvements in the 
design of the disaster recovery center models. The approach used in 
Belle Harbor worked and not only because of the innovative use of 
social media, communications technology, and power solutions; but 
because the solution provided was for the community by the community. 
Technology is only useful when people know how to use it, it must 
fulfill the local need and not intrude on or complicate the primary 
mission of the local disaster response and recovery efforts.
    In summary, the effective use and implementation of technology and 
social media can rapidly reach populations isolated from the response 
chain due to communications and power impacts. Digital volunteerism and 
digital response organizations in the social media age can help empower 
a community to take part in their own recovery efforts. This can also 
provide relief that mitigates traditional response chain issues in 
large-scale events reducing the recovery period and associated costs. 
However, whenever innovation meets implementation, there are 
challenges. There is a gap in assessing communications outages as 
currently, there is no publicly-available map for communications 
availability or outages. There are also challenges in response 
reporting, preparedness planning, and measuring effective social media 
and technology mobilization. Having provided examples of Humanity 
Road's Rockaway deployment and considering the benefits and challenges 
faced there, we ask for your support in four specific areas:
    1. Engage Humanitarian Technology Partners.--Humanitarian 
        technology disaster response organizations work both on-line 
        and also deploy into the impacted area. These teams provide a 
        great opportunity for improving the speed and accuracy of 
        initial damage assessments by improving communications. We 
        recommend disaster response officials and organizations take 
        advantage of using volunteer-based disaster response 
        organizations that are skilled in the use of internet and 
        mobile communications technologies including social media. This 
        can provide a cost-effective solution to a high-volume problem 
        and closes gaps between non-technical Government organizations 
        and high-tech disaster response techniques. These humanitarian 
        partners work with equipment and service providers to deliver 
        solutions that meet local needs and participate in disaster 
        preparedness training and exercises to build resilience and 
        readiness.
    2. Manage Response--Structure for the Use of Technology Partners.--
        We recommend that officials review and designate a suggested 
        reporting structure within the Incident Command Structure for 
        technology deployment activities such as surge support media 
        monitoring and crowdsourcing during disaster.
    3. Manage Preparedness--Plan for Technology in Training and 
        Exercises.--Technology-driven communications solutions such as 
        social media, crowdsourcing, crisis mapping, and surge support 
        for social media should be included in preparedness planning 
        and exercises. Training is also needed to build basic skills in 
        local, county, and State organizations. The existing grant 
        process is tied to county and State government and is 
        geography-centric. Digital disaster response is not always tied 
        to a specific geography. We recommend that grants be made 
        available to non-governmental technology organizations for 
        preparedness and response initiatives to build competence and 
        resilience with consideration that these initiatives may be 
        regional or National in scope.
    4. Accelerating Lessons Learned and Innovation.--We recommend that 
        Congress adopt innovation and acceleration by supporting the 
        DHS Virtual Social Media Working Group and the FEMA Innovation 
        Team & FEMA Think Tank programs. These are working models that 
        can facilitate and accelerate process improvement in the area 
        of social media and technology. These partners help to identify 
        lessons learned and can test them in a fail-safe environment 
        for incubation, planning, and implementation. The FEMA 
        Innovation Team, which is part of the FEMA think tank is 
        working on a communications heat map that would provide the 
        public with availability of wireless communications and WIFI 
        hotspots during disaster. And the DHS Virtual Social Media 
        Working Group just published its newest document: Lessons 
        Learned: Hurricane Sandy.
    Thank you for the opportunity to submit testimony. I will be glad 
to answer any questions and can also elaborate on additional examples 
of the effective use of technology and social media during disaster.
                                 ______
                                 
 Statement Submitted For the Record by Ranking Member Donald M. Payne, 
                                  Jr.
                  Prepared Statement of BEOC Alliance
                         beoc alliance overview
    The BEOC Alliance, a non-profit 501c3 organization, strives to 
expand and strengthen the capacities of Government agencies (local, 
county, State), business partners and non-Governmental organizations in 
preventing, preparing for, responding to, and recovering from disasters 
of magnitude. The Alliance's underlying goal is to improve private-
sector self-reliance and self-sufficiency during such events through 
rapid information sharing, situational awareness, and common operating 
pictures. The Business Emergency Operations Center (BEOC) is a means to 
achieve these desired end-states.
    The BEOC construct epitomizes an adaptable and scalable 
communications hub as well as a private-sector node within the Homeland 
Security Enterprise. The synergies produced through steady-state and 
elevated operational activities emanates from an interactive 
partnership triad composed of academia, Government, and the private 
sector. Real-time situational awareness is more than a goal; it's a 
functioning reality.
    The BEOC functions as a business fusion center supported by a 
formal research component based on a technology capabilities-centric 
matrix. The BEOC Alliance continuously exchanges information through 
weekly conference calls, alerts, portal postings, listserve 
notifications, exercises, and symposia. When situations dictate, 
members can quickly transition to a state of readiness for a rapid 
response and realistic recovery with a physical or virtual BEOC 
providing omni-directional communications vis-a-vis established 
distributed networks.
    Distributed communication networks support BEOC Alliance efforts 
through a ``mash-up'' of information technologies and systems. The 
research component of the BEOC program explores and evaluates an array 
of communication technologies at the Crisis Comnmnication Center housed 
at the New Jersey Institute of Technology. Resultant findings become 
thrust areas for improving interoperability and collaboration across 
the entire breadth of the private sector.
                      beoc alliance talking paper
    Primary Goal.--Business-to-Business assistance, collaboration, and 
cooperation through information sharing.
  <bullet> Whole is greater than the sum of its parts philosophy
    <bullet> Knowledge-sharing community
        <bullet> Bottom-up organic network formed through collaborative 
            efforts of like-minded organizations and executives
  <bullet> Inclusive affiliations and memberships
    <bullet> FEMA National BEOC Initiative
    <bullet> CI/KR Sectors through DHS IP RCCC
    <bullet> U.S. Northern Command
    <bullet> Private-Sector Organizations--National and Local
    <bullet> Non-Government Organizations
    <bullet> Academic Institutions
    What is the BEOC Alliance?
  <bullet> Member supported 501c3 non-profit organization
  <bullet> Certified Federal Government contractor
  <bullet> FEMA National BEOC Charter member
Business Emergency Operations Center (BEOC) Construct
  <bullet> A Communications Model
    <bullet> Omni-directional information sharing
    <bullet> Creates common operating picture for enhanced situational 
            awareness
  <bullet> A Practitioner's Tool
    <bullet> Aids in decision-making
    <bullet> Supports Private-sector readiness and operations
  <bullet> A Research Project
    <bullet> Technology Capabilities Matrix provides research roadmap
        <bullet> Ten identified capabilities
    <bullet> Research underpins first two construct components
Goals
  <bullet> Strengthen Private-Sector/Public-Sector/Department of 
        Defense Communication
    <bullet> All phases of Homeland Security and Homeland Defense 
            Emergency Management through adaptable BEOC implementations
  <bullet> Resource to the Private-Sector/Public-Sector/DoD in 
        implementing other BEOCs
    <bullet> Provide consultation and guidance to States and regions 
            developing BEOCs
  <bullet> Enable proactive business managers to cut through the chaos 
        during disasters
    <bullet> Ensure Access to timely, reliable, and actionable 
            information
  <bullet> Information sharing
    <bullet> Identify critical issues pre-event to avoid reactionary 
            behavior during disasters
  <bullet> Continued outreach and linkage of organic networks
    <bullet> Create common operating pictures
  <bullet> Resilience and restoration of vital functions and services
    <bullet> Maintain organizational resilience through information 
            exchanges, establishing priorities, and implementing plans 
            of action during the fluidity of crisis
  <bullet> Increase number of technology tools available to the private 
        sector for improving reach, connectivity, and redundancy
  <bullet> Advocate for the Private Sector
    <bullet> Help link public-sector agencies/organizations with 
            private-sector BEOCs
Scope of Activities
  <bullet> Ranges from local to National levels
  <bullet> Integrated research component
    <bullet> Continued research into networks, hardware, and 
            communication protocols
    <bullet> NJIT C4IF Lab a venue for experimentation
  <bullet> Formulation of Private Sector doctrine
    <bullet> Periodic cross-sector think-tank sessions
  <bullet> Host symposiums on Private-Sector/Public-Sector 
        communication and coordination issues
Operating Environment
  <bullet> Virtual during steady state
    <bullet> BEOC List serve
    <bullet> CyberCop Portal
    <bullet> BEOC Alliance Webpage
    <bullet> Recurring conference calls
  <bullet> Physical activation when circumstances warrant extended or 
        expanded operations
    <bullet> Events page
    <bullet> Multidisciplinary teams
    <bullet> Subject matter reach-back

    Mrs. Brooks. At this time, I would like to ask Mr. Payne if 
he has anything for closing, he would like to say before I 
close out. Okay.
    Thank you very much. I would very much like to thank this 
panel for their very valuable testimony. I think we have 
learned a lot. We have started a very important discussion.
    What I think is happening with emergency managers, whether 
it is municipal or State or Federal officials, your companies 
are paving the way. You have created new technologies.
    I am looking at the back of this actual hearing room is a 
picture from 9/11 and what the technologies that you all 
discussed whether it was People Finder, you know, whether it is 
the mapping capabilities that would have been so critical 
during that horrific time in our country's history.
    So we truly have come a very long way, and as I talk about 
the emergency technologies and knowing what is coming, I think 
we can't even imagine as Mr. Cardenas just shared with us, you 
know, the possibilities of what your companies and the 
innovators and engineers and inventors in your companies are 
creating.
    We just ask that you continue to share those with 
Government, with the public sector, with the volunteers. It is 
amazing to me that 14,000 volunteers, you know, come together 
quickly but that we already had a team of veterans in place to 
help mobilize and that were trained and so it is a wonderful 
marriage of, you know, the Government and the military and our 
veterans and that point, you know, marrying up with volunteers 
to really aid in recovery and save a lot of lives and save 
homes and save property, but most importantly, save lives and 
that is what I think your testimony here today has also shown.
    I think we absolutely have some challenges that, you know, 
everyone needs to be mindful of and some of those challenges, 
you know, the--sadly, the few bad actors that do come up, the 
privacy issues that we need to be mindful of, but I do think--
and the connectivity you have talked about, you know, without 
power, none of this works, and we do need to continue to 
explore and continue to advance and partner between the public 
and the private sectors, and I just want to thank you for your 
time. There may be questions submitted by others, and we look 
forward to working with you in the future.
    We plan on having another hearing in the future with 
Government officials, with FEMA and Red Cross and some others, 
and we look forward to trying to ensure that all of the 
innovation that you are creating and the way in which your 
companies want to contribute in emergency preparedness, we just 
thank you very much.
    So thank you. This meeting is adjourned.
    [Whereupon, at 11:29 a.m., the subcommittee was adjourned.]



   EMERGENCY MGMT 2.0: HOW #SOCIALMEDIA & NEW TECH ARE TRANSFORMING 
    PREPAREDNESS, RESPONSE, & RECOVERY #DISASTERS #PART2 #GOVT/NGOS

                              ----------                              


                         Tuesday, July 9, 2013

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 311, Cannon House Office Building, Hon. Susan W. Brooks 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Brooks, Palazzo, and Perry.
    Also present: Representative Swalwell.
    Mrs. Brooks. The Committee on Homeland Security, 
Subcommittee on Emergency Preparedness, Response, and 
Communications will come to order.
    I would like to welcome our witnesses, everyone in the 
audience, and those who are watching this webcast to our second 
hearing on how social media and new technology are transforming 
disaster preparedness, response, and recovery.
    Last month, the subcommittee heard from the private sector 
on this topic, and today we will continue our discussion with 
the Government and the NGO officials on how they are 
incorporating social media and new technologies into their 
emergency management efforts.
    Before I recognize myself for an opening statement, I ask 
unanimous consent that the gentleman from California, Mr. 
Swalwell, a member of the full committee, be permitted to sit 
on the dais and participate in today's hearing.
    So without objection, so ordered.
    There is no doubt that social media and new technologies 
are playing an increasing role in the way we prepare for, 
respond to, and recover from disasters.
    As we have seen through recent events, such as Hurricane 
Sandy and the Boston bombings, individuals and organizations, 
more than ever, are turning to social media and the internet to 
obtain public safety information, to connect with friends and 
family, and to request, most importantly, assistance from 
emergency response organizations.
    In fact, in a 2012 survey conducted by the Red Cross, we 
learned that 70 percent of respondents suggested that emergency 
response agencies should regularly monitor their social media 
sites so they can promptly respond to any requests for help.
    In addition, an infographic created by the University of 
San Francisco, and those are what you are seeing on the 
screens, showed that during a disaster, 1 out of 3 citizens 
expects help to arrive within 60 minutes of posting a request 
on social media.
    Social media also enables response organizations to quickly 
push information out to the public; something that has not been 
possible on such a wide scale until recently. A great example 
of this was in the Boston bombings when the first official 
announcement that Dzhokhar Tsarnaev had been captured, it came 
not at a traditional press conference like in the past, but 
instead, it was tweeted out through the Boston Police 
Department.
    Also, during the search for the Tsarnaev brothers, 
individual citizens were able to tweet and post videos, photos, 
and other information to law enforcement officials, which 
actually served as a force multiplier and it assisted in the 
hunt for the Tsarnaev brothers.
    We have also seen similar examples in which response 
officials have leveraged information from social media to 
enhance the response efforts in such instances as Hurricane 
Sandy and the Oklahoma tornadoes.
    Two of the most prominent emergency management 
organizations are with us today: The American Red Cross and the 
Federal Emergency Management Agency.
    Earlier this year, I had pleasure to visit both of their 
headquarters to learn more about their roles in preparing for, 
responding to, and recovering from disasters, and I was 
impressed to see how these agencies are incorporating 21st 
Century technology into their operations.
    It was because of those visits that we had the idea to host 
these hearings and to learn more and have them share more with 
the American public about what they are doing.
    In my visit to the Red Cross, I learned how they partnered 
with Dell to develop their Digital Operations Center, which is 
the first social-media monitoring platform dedicated 
specifically to humanitarian relief.
    This center allows the Red Cross to crowdsource information 
from affected areas during a disaster, spot trends and better 
anticipate the public's needs, and connect people with the 
resources they need; food, water, shelter, even emotional 
support.
    In conjunction with the Digital Operations Center, the Red 
Cross has developed what I think more and more agencies and 
local and State governments need to consider, and they have 
developed a Digital Volunteer Program, on which we will hear 
more; it trains digital volunteers from across the country and 
even the world, I have learned, as to how to use on-line apps 
to respond to questions from the public, distribute critical 
public safety information, and provide comfort and reassurance.
    During Hurricane Sandy, the digital volunteers played a 
critical role in enabling the Red Cross to actively monitor and 
verify social media posts around the clock and provide 
information to create that situational awareness.
    FEMA's Administrator, Craig Fugate, has been a big 
supporter of social media as well, and FEMA has been an active 
user of Facebook and Twitter to communicate with the public.
    I have also heard that FEMA is engaging with private-sector 
companies, including Google and Twitter, to determine how best 
to take advantage of open data, social media, and the two-way 
interaction to enhance their emergency management capabilities.
    We are also seeing a rise in the use of social media by 
State and local emergency management organizations, and in a 
recent survey conducted by the National Emergency Management 
Association and CNA on the use of social media, the majority of 
State, county, and local agencies reported using some social 
media in their disaster preparedness, response, and efforts, 
but to varying degrees.
    I think a great example of this was--at the local level--
was how Moore and Oklahoma City used their Twitter accounts 
during the devastating tornadoes last month. Both cities used 
Twitter to relay real-time updates on open shelters, road 
closures, lost and found pets, and personal items, and they 
also monitored their accounts and responded to requests for 
assistance posted by disaster survivors.
    Just last week, in my home State in Indiana, I toured MESH 
Coalition, which is a public health, non-profit, public-private 
partnership, and it is using social media for what they call 
infodemiology.
    They have dedicated staff monitoring social media as a 
disease surveillance tool and they push information to the 
hospitals and to the public health departments through Twitter 
about what they are seeing.
    I had the opportunity to see this operation last week, and 
again, I am hopeful that this new use of social media will be 
replicated far beyond the Hoosier State.
    While I have highlighted some positive developments in the 
use of social media and new technology, I do recognize that 
there are some challenges.
    For example, we must be mindful of how misleading, faulty, 
or malicious information or pictures can escalate quickly on 
social media sites and potentially negatively affect response 
efforts.
    In addition, as we have learned from our private-sector 
partners in the last hearing, we need to establish common 
standards and procedures to help make the sharing of data more 
efficient.
    Our private-sector witnesses also agreed that there more 
could be done in the way of public-/private-sector partnerships 
to help maximize the use of social media for disaster purposes 
and particularly to leverage big data so that the response and 
recovery efforts can be focused on those areas most in need.
    I am pleased to welcome our distinguished panel of 
witnesses.
    [The statement of Chairwoman Brooks follows:]
                Statement of Chairwoman Susan W. Brooks
                              July 9, 2013
    There is no doubt that social media and new technologies are 
playing an increasing role in the way we prepare for, respond to, and 
recover from disasters. As we have seen through recent events, such as 
Hurricane Sandy and the Boston bombings, individuals and organizations, 
more than ever, are turning to social media and the internet to obtain 
public safety information, to connect with friends and family, and to 
request assistance from emergency response organizations. In fact, in a 
2012 survey conducted by the Red Cross, 70 percent of respondents 
suggested that emergency response agencies should regularly monitor 
their social media sites so they can promptly respond to any requests 
for help. In addition, an Infographic created by the University of San 
Francisco showed that during a disaster, 1 out of 3 citizens expects 
help to arrive within 60 minutes of posting a request on social 
media.\1\
---------------------------------------------------------------------------
    \1\ University of San Francisco website. Accessed on June 20, 2013, 
http://onlinempa.usfca.edu/social-media/.
---------------------------------------------------------------------------
    Social media also enables response organizations to quickly push 
information to the public--something that has not been possible on such 
a wide scale until recently. A great example of this was after the 
Boston bombings when the first official announcement that Dzhokhar 
Tsarnaev had been captured came not at a traditional press conference, 
but through a tweet by the Boston Police Department. Also, during the 
search for the Tsarnaev brothers, individual citizens were able to 
tweet and post videos, photos, and other information to law enforcement 
officials, which served as a ``force multiplier'' and assisted in the 
hunt.
    We have also seen similar examples in which response officials have 
leveraged information from social media to enhance response efforts 
during recent natural disasters, such as Hurricane Sandy and the 
Oklahoma tornadoes.
    Two of the most prominent emergency management organizations are 
with us today, the American Red Cross and the Federal Emergency 
Management Agency. Earlier this year, I had the opportunity to visit 
both of their headquarters to learn more about their roles in preparing 
for, responding to, and recovering from disasters. I was impressed to 
see how they have incorporated 21st-Century technology into their 
operations.
    During my visit to the Red Cross, I learned how they partnered with 
Dell to develop a Digital Operations Center, which is the first social-
media monitoring platform dedicated to humanitarian relief.\2\ This 
center allows the Red Cross to crowdsource information from affected 
areas during a disaster; spot trends and better anticipate the public's 
needs; and connect people with the resources they need, such as food, 
water, shelter, or even emotional support.
---------------------------------------------------------------------------
    \2\ American Red Cross website. Accessed on June 20, 2013. http://
www.redcross.org/news/press-release/The-American-Red-Cross-and-Dell-
Launch-First-Of-Its-Kind-Social-Media-Digital-Operations-Center-for-
Humanitarian-Relief.
---------------------------------------------------------------------------
    In conjunction with the Digital Operations Center, the Red Cross 
has also developed a Digital Volunteer Program, which trains digital 
volunteers from across the country in how to use on-line applications 
to respond to questions from the public, distribute critical public 
safety information, and provide comfort and reassurance during 
emergencies. During Hurricane Sandy, the digital volunteers played a 
critical role in enabling the Red Cross to actively monitor and verify 
social media posts around the clock and provide information to create 
situational awareness.
    FEMA's administrator, Craig Fugate, has been a big supporter of 
social media as well, and FEMA has been an active user of Facebook and 
Twitter to communicate with the public. I've also heard that FEMA is 
engaging with private-sector companies, including Google \3\ and 
Twitter,\4\ to determine how best to take advantage of open data, 
social media, and two-way interaction to enhance their emergency 
management capabilities.
---------------------------------------------------------------------------
    \3\ FEMA website: Accessed on June 21, 2013, http://www.fema.gov/
medialibrary/media_records/1081.
    \4\ FEMA website: Accessed on June 21, 2013, http://www.fema.gov/
medialibrary/media_records/3581.
---------------------------------------------------------------------------
    We are also seeing a rise in the use of social media by State and 
local emergency management organizations. In a recent survey conducted 
by the National Emergency Management Association and CNA on the use of 
social media in the emergency management field, the majority of State, 
county, and local agencies reported using social media in their 
disaster preparedness and response efforts, but to varying degrees.
    I think a good example of the use of social media at the local 
level is how the cities of Moore and Oklahoma City used their Twitter 
accounts during the devastating tornadoes last month. Both cities used 
Twitter to relay real-time updates on open shelters, road closures, 
lost and found pets, and personal items. They also actively monitored 
their accounts and responded to requests for assistance posted by 
disaster survivors.
    In my home State of Indiana, MESH Coalition, a public health, non-
profit, public-private partnership is using social media for, what they 
call, ``infodemiology.'' They have dedicated staff monitoring social 
media as a disease surveillance tool and push information to hospitals 
and public health departments through Twitter. I had the opportunity to 
see this operation first-hand last week. I am hopeful that this 
innovative use of social media and new technology will be replicated 
beyond the Hoosier State.
    While I have highlighted some positive developments in the use of 
social media and new technology, I do realize that there are some 
challenges as well. For example, we must be mindful of how misleading, 
faulty, or malicious information or pictures can escalate quickly on 
social media sites and potentially negatively affect response efforts. 
In addition, as we learned from our private-sector partners in the last 
hearing, there is a need to establish common standards and procedures 
to help make the sharing of data more efficient. Our private-sector 
witnesses also agreed that there could be more done in the way of 
public-/private-sector partnerships to help maximize the use of social 
media for disaster purposes, and to leverage big data so response and 
recovery efforts can be focused on those areas most in need.
    I am pleased to welcome our distinguished panel of witnesses, and I 
look forward to hearing your perspectives on these issues.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mrs. Brooks. I look forward to hearing your perspectives on 
these issues, but I now recognize the gentleman from 
California, Mr. Swalwell, for any opening statements he might 
have.
    Mr. Swalwell. Thank you, and good morning.
    I would like to thank the witnesses for being here as well 
as Chairman Brooks. I also appreciate the opportunity to be 
here and fill in for my colleague, the gentleman from New 
Jersey, Donald Payne, who is not here today because he has 
business at the White House.
    I would first like to begin by extending my sympathies to 
those who died or were injured during the plane crash at San 
Francisco International Airport on this past Saturday and to 
their families, and I would like to thank our first responders, 
our police, fire, and emergency personnel, who responded and 
mitigated the loss of life in that situation.
    This hearing is very timely because at the crash scene, we 
saw first-hand the role that social media can play. In fact, 
social media was first to provide on-the-ground reports and 
photos from the crash scene.
    It was actually the first tweet, the first information that 
came out was from a former AOL Media and Studios executive, 
David Eun from Samsung, who was on the plane and tweeted a 
picture, relayed that he and the majority of passengers were 
okay. This turned out to be credible information but also kind 
of set the tone for what would follow from the ground.
    Following what happened, survivors used Twitter, Facebook, 
and Path to assure loved ones that they were safe.
    San Francisco Airport SFO used social media to provide up-
to-date information on response efforts and the National 
Transportation Safety Board did the same with respect to its 
investigation.
    I, myself, during the moments following the crash and the 
investigation used social media like Twitter and Facebook to 
both share and learn information, and just yesterday, President 
Obama gave remarks at the White House in which he talked about 
the administration's effort and desire to encourage Government 
to be smarter, more effective, and more efficient through its 
use of technology. He cited FEMA's use of web apps in the 
aftermath of Sandy.
    In this new age of social media and instant communications, 
it shouldn't be surprising that they now play such an important 
role in the moments following an emergency disaster, and their 
use after this plane accident is a reminder of the most recent 
example.
    Just behind me I have the same infograph that my colleague, 
Mrs. Brooks, referred to, provided by the University of San 
Francisco, which provides great information on how modern 
technology is impacting disaster response.
    I do want to highlight that 76 percent of those polled used 
social media to let people know that they were okay; 76 percent 
of folks who were in a disaster, and 18 percent of those folks 
received their information from Facebook.
    Much of the social media is developed and produced in 
Silicon Valley, and I am proud to represent northern Silicon 
Valley in Congress. What Silicon Valley companies like Google, 
Facebook, and Twitter are doing to help ordinary citizens 
volunteer, share information, and be more prepared for 
disasters was discussed at the first hearing in this series 
held last month. I applaud them for their efforts.
    Today, our focus will be on how Government and our primary 
non-Governmental response organization, the Red Cross, use 
social media in disaster situations. This will hopefully 
include a discussion of both the opportunities and challenges 
to using modern technology.
    Among our witnesses are Sergeant Kierce, director of the 
Jersey City Office of Emergency Management and Homeland 
Security. This office has been on the forefront of 
interoperable communications and social media and last month 
was recognized in Washington, DC, with an International 2013 
Computerworld Honors Laureate for implementation of a 
remarkable communications surveillance system.
    With its internet-based Mutualink, Jersey City OEM can 
facilitate communications across various frequencies and types 
of communications, provide first-responder users access to 
secure video systems, and enable first responders to share 
images of disaster and videos with hospitals and public safety 
officials.
    By integrating both social media and enhanced 
communications technologies into emergency response 
capabilities, Jersey City will be able to respond to disasters 
more quickly and more effectively.
    Although cities like Jersey City and San Francisco have 
proven particularly adept in integrating new technologies into 
its disaster preparedness plans, I understand that not every 
city has been just as successful.
    To be fair, Jersey City and San Francisco have benefited 
from significant grants from Federal homeland security 
programs. One of our largest challenges is that as funding for 
these programs has been reduced, fewer cities have had the 
resources necessary to develop robust communication systems and 
to cultivate the expertise necessary to navigate and 
effectively integrate social media into disaster response 
plans.
    The Social Media in the Emergency Management Field, a 2012 
survey results study released by the National Emergency 
Management Association, also known as NEMA, and the non-profit 
research organization, CNA, which my colleague also referred 
to, indicates that although local governments consider 
themselves moderately familiar with social media, the primary 
barrier to emergency management agencies' use of social media 
is the lack of dedicated personnel on the ground.
    Additionally, there appears to be a generation gap when it 
comes to using social media on the part of the public and some 
emergency managers. It is hard to use social media to aid in a 
disaster response if you cannot spare the personnel to do the 
work or you don't have anyone who understands the technology.
    In other words, we still have a lot of catching up to do.
    Another challenge is that there is undeniably a socio-
economic component with respect to use and access to social 
media. Some Americans, particularly those who are low income, 
simply don't have the same access to the internet, smartphones, 
or Wi-Fi.
    We can't ignore the impact of the digital divide as we 
begin to integrate social media into disaster response 
activities. We can't leave them behind or without information.
    Finally, for the Government to best utilize social media, 
it is not just about putting information on Twitter and 
Facebook, agencies need to be providing data in a usable, open-
source format so the high-technology companies like Google can 
easily and quickly incorporate it into their web pages, apps, 
and other portals.
    I look forward to discussing with our witnesses the 
challenges that are ahead highlighting the successes and 
looking forward to what we can do to make sure that we are 
ready to respond to the next disaster.
    Thank you.
    [The statement of Mr. Swalwell follows:]
                    Statement of Hon. Eric Swalwell
                              July 9, 2013
    I'd like to begin by extending my sympathies to those who died or 
were injured during the plane crash at San Francisco Airport (SFO) this 
weekend and to their families. And, I'd like to thank the EMS teams, 
firefighters, and police for their heroic response.
    This hearing is very timely, for we just saw in this horrible 
accident how critical and relevant social media can be in times of 
crisis. Following what happened, survivors used Twitter, Facebook, and 
Path to assure loved ones that they were safe. SFO used social media to 
provide the public up-to-date information on response efforts and the 
National Transportation Safety Board did the same with respect to its 
investigation. I myself used social media like Twitter both to share 
and learn information.
    And, just yesterday, President Obama gave remarks at the White 
House in which he talked about his administration's desire to encourage 
Government to be smarter, effective, and efficient, through its use of 
technology. He cited FEMA's use of the web and apps in the aftermath of 
Hurricane Sandy.
    In this new age of social media and instant communication, it 
shouldn't be surprising that they now play an important role in 
disaster response. And, their use after this plane accident is just the 
most recent example.
    I have an info-graphic on the screen, provided by the University of 
San Francisco--located just across the bay from my Congressional 
district--which provides great information on how modern technology is 
impacting disaster response. For example, 76 percent of those polled 
used social media to let people know they are ok. And, 18 percent got 
emergency information from Facebook.
    Much of this social media is developed and produced in Silicon 
Valley, and I'm proud to represent Northern Silicon Valley in Congress. 
What Silicon Valley companies like Google, Facebook, and Twitter are 
doing to help ordinary citizens volunteer, share information, and be 
more prepared for disasters was discussed at the first hearing in this 
series held last month. I applaud them for their efforts.
    Today our focus will be on how Government and our primary non-
Governmental response organization, the Red Cross, use social media in 
disaster situations. This will hopefully include a discussion of both 
the opportunities and challenges to using this modern technology.
    Among our witnesses are Sergeant Kierce, Director of the Jersey 
City Office of Emergency Management and Homeland Security (OEM). This 
office has been on the forefront of interoperable communications and 
social media. Last month, the office was recognized in Washington, DC 
with an international 2013 Computerworld Honors Laureate for 
implementation of a remarkable communication and surveillance system.
    With its internet-based Mutualink, Jersey City OEM can facilitate 
communication across various frequencies and types of communications, 
provide first-responder users access to security video systems, and 
enable first responders to share images of disaster and videos with 
hospitals and other public safety officials. By integrating both social 
media and other enhanced communications technologies into its emergency 
response capabilities, Jersey City will be able to respond to disasters 
more quickly and more effectively.
    Although cities like Jersey City and San Francisco have proven 
particularly adept in integrating new technologies into its disaster 
response plans, I understand that other cities have not been as 
successful. To be fair, Jersey City and San Francisco have benefited 
from significant grants from Federal homeland security programs.
    One of our challenges is that as funding for these programs have 
been reduced, fewer cities have had the resources necessary to develop 
robust communications systems and to cultivate the expertise necessary 
to effectively integrate social media into disaster response plans. The 
Social Media in the Emergency Management Field: 2012 Survey Results, a 
study released by the National Emergency Management Association (NEMA) 
and the nonprofit research organization CNA, indicates that although 
local governments consider themselves at least ``moderately familiar'' 
with social media, the ``primary barrier to emergency management 
agencies' use of social media is a lack of dedicated personnel.''
    Additionally, there appears to be a generation gap when it comes to 
using social media--on the part of the public and some emergency 
managers. It's hard to use social media to aid in disaster response if 
you can't spare the personnel to do the work, or don't have anyone who 
understands the technology.
    Another challenge is that there is undeniably a socio-economic 
component with respect to use of and access to social media. Some 
Americans, particular those who are low-income, simply don't have the 
same level of access to the internet, smart phones, or WiFi. We can't 
ignore the impact of this ``digital divide'' as we begin to integrate 
social media into disaster response activities. We can't leave them 
behind, or without needed information.
    Finally, for the Government to best utilize social media, it's not 
just about it putting information on Twitter and Facebook. Agencies 
need to be providing data in a useable, open-source format so the high-
technology companies like Google can easily and quickly incorporate it 
to their own web pages, apps, and other portals.
    I look forward to discussing with our witnesses both the 
opportunities presented by social media and the challenges I laid out, 
as well as how we can go about tackling them. Be it more resources, new 
statutory authority, or better guidance from the Federal Emergency 
Management Agency (FEMA), we should be doing all we can to best harness 
the tremendous power of social media in disaster relief and recovery. 
The Congress should stand ready to work with the President in this 
effort, part of his broader goal to make Government more 
technologically savvy. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mrs. Brooks. Thank you.
    Other Members of the committee are reminded opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              July 9, 2013
    Good morning. Thank you Chairwoman Brooks and Ranking Member Payne, 
Jr. for holding this hearing today.
    Last month, this subcommittee heard testimony from private-sector 
witnesses who described the social media and big-data technologies that 
emergency managers and first responders can use to improve disaster 
response activities.
    Google.org and Palantir brought to bear impressive resources during 
Hurricane Sandy and the Boston Marathon bombings.
    PSE&G--a Newark, New Jersey utility company--described its social 
media efforts to keep its customers informed of power restoration 
efforts after Hurricane Sandy.
    PSE&G's is sharing its best practices and lessons learned with 
other utilities and critical infrastructure companies.
    From Hurricane Sandy to the tornadoes in Oklahoma, it is clear that 
social media is becoming a staple in effective disaster response.
    Both the public and Government entities involved in disaster 
response have come to rely on social media to supplement and enhance 
situational awareness and outreach activities.
    This kind of innovation can not only be cost-effective but it can 
also saves lives.
    That said, we cannot lose sight of social media's inherent 
vulnerabilities: The security and accuracy of information shared.
    As Jason Payne from Palantir aptly noted during the June 4 hearing, 
social media platforms must include ``robust, built-in measures to 
allow users appropriate access and to share information . . . while 
protecting privacy and civil liberties.''
    I look forward to learning about the policies used by FEMA and its 
non-Governmental partners to ensure that potentially-sensitive 
information gathered to inform disaster response is destroyed when it 
is no longer needed.
    I also look forward to hearing that this information is used only 
for the purpose of disaster response.
    Additionally, I am concerned about the circulation of 
misinformation during a disaster.
    We all know that rumors and unverified information can undermine 
legitimate response activities.
    I understand that FEMA launched Rumor Control, a website devoted to 
correcting misinformation circulated by social media sites, in the 
aftermath of Hurricane Sandy.
    That is a good start.
    But I am interested in learning about the guidance FEMA provides to 
its State and local Government and private-sector partners about how to 
verify information before it is shared.
    I am also interested in learning about the type of guidance 
provided to help verify open-source information that authorities may 
gain from social media.
    I look forward to hearing the testimony from our witnesses.
    Thank you, and I yield back the balance of my time.

    Mrs. Brooks. We are very pleased to have a very 
distinguished panel before us today, and I would like to start 
out by introducing Shayne Adamski. He serves as the senior 
manager of digital engagement at the Federal Emergency 
Management Agency, a position he has held since 2010.
    In this capacity, he is responsible for the strategy and 
coordination of web, mobile, and social media initiatives 
across the agency.
    Next up is Ms. Susie DeFrancis. She serves as the chief 
public affairs officer at the American Red Cross. She oversees 
all communications, Government relations, and strategic 
partnerships. Under her leadership, the American Red Cross has 
built a 21st Century communications operation concentrating on 
the use of social media, other forms of digital engagement, and 
building, as I said earlier, the first-ever social media center 
for humanitarian purposes.
    Next is Mr. Albert Ashwood. He is the director of the 
Oklahoma Department of Emergency Management, a position he has 
held since 1997. He joined the State's emergency management 
department in 1988 and he previously served as president of 
NEMA, the National Emergency Management Association, and is 
testifying on behalf of NEMA.
    Finally, I want to thank you, Mr. Swalwell, for introducing 
Sergeant Greg Kierce.
    So welcome. Thank you very much for coming.
    The witnesses' full written statements will appear in the 
record.
    The Chairwoman will now recognize Mr. Adamski for 5 
minutes.

    STATEMENT OF SHAYNE ADAMSKI, SENIOR MANAGER OF DIGITAL 
     ENGAGEMENT, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Adamski. Chairwoman Brooks, Mr. Swalwell, Members of 
the subcommittee, good morning.
    I am Shayne Adamski, the senior manager for digital 
engagement at the U.S. Department of Homeland Security's 
Federal Emergency Management Agency.
    On behalf of Administrator Fugate and Secretary Napolitano, 
thank you for the opportunity to discuss FEMA's use of social 
media.
    I am pleased to be here today to discuss the role of social 
media in disasters and emergencies and fortunate to have 
partners with us here today who see the value in using these 
tools for public safety.
    Millions of Americans use social media every day to check 
in on friends and family, learn about current events, and share 
their experiences on-line.
    FEMA uses social media to be a part of this on-going 
dialogue, to meet people where they are, using tools and 
platforms they are already familiar with.
    With one click of the mouse or one swipe on a smartphone's 
screen, a message is capable of being spread to thousands of 
people to have a tangible real-world impact, and as such, FEMA 
uses social media in numerous ways.
    So as we will see on the screens in the next slide, we use 
it to provide safety and preparedness tips to inform the public 
of the most effective ways to help disaster survivors as well 
as to let disaster survivors know where they are able to 
receive assistance.
    We use social media to provide up-to-date information about 
how the emergency management team, including FEMA, is helping 
communities and individuals prepare for, respond to, recover 
from, and mitigate disasters.
    On slide No. 3, we see the onset of the recent Oklahoma 
tornados: One of the many messages that we tweeted was 
``#Oklahoma. We are working closely with State emergency 
management and local officials.'' We stand ready to support as 
needed and as requested.
    Soon after we followed up with the news that FEMA had it 
deployed urban search and rescue, incident management, and 
mobile emergency response support teams to Oklahoma.
    On slides No. 4 and 5 we will see photos that we posted 
after Hurricane Sandy of our FEMA community relations teams who 
are now called disaster survivor assistance teams going door-
to-door in the impacted areas helping survivors get help and 
apply for aid.
    Social media is, at its essence, a conversation, and it is 
a conversation that we strive to be an active part of. Of 
course in true conversation form, both participants listen and 
respond in turn, and social media is no different.
    This exchange is a critical component of being viewed as 
responsive or authoritative source of information. This two-way 
flow of information had an impact after Hurricane Sandy. As we 
will see on the next slide, we launched a rumor control 
initiative. It was an initiative using all of our on-line 
platforms to dispel inaccurate information that was being 
shared on-line.
    One example also is our disaster recovery center data 
feeds--excuse me--so we also regularly collaborate with our 
partners, particularly those in the private sector as Mr. 
Swalwell here had mentioned, including colleagues who work at 
Facebook, Twitter, and Google, so we can better understand how 
our messaging can be seen by more users especially during and 
after disasters.
    One example is our disaster recovery center data feed that 
contains information about open disaster recovery centers. 
Google regularly includes this data in their crisis maps which 
shares helpful information in a familiar and accessible format.
    We are also tapping into the importance that cell phones 
play in everyday life especially through our smart phone app 
and text message program.
    In 2011, we released our FEMA smart phone app, which 
provides information on how to make a plan, build your 
emergency kit, how to stay safe, and how to rebuild after a 
disaster.
    It also has the ability to look up disaster recovery 
centers and open shelters as we see in my final slide.
    We are very proud of the fact that the information in the 
FEMA app is also accessible even if the user does not have a 
cellular or a Wi-Fi connection making it a valuable tool during 
a disaster.
    In 2011, FEMA was the first agency to establish its own 
text message short code meaning that anyone could text 43362 or 

4-FEMA to get information on open disaster recovery centers and 
open shelters.
    During the height of Hurricane Sandy, our text message 
program received more than 10,000 requests in 1 day from people 
searching for shelter locations within a specific ZIP Code.
    Citizens can also sign up to receive regular preparedness 
tips regarding the hazards that are most common in their area 
such as earthquakes, wildfires, hurricanes, as well as 
tornadoes.
    Moving forward, FEMA will continue to engage in on-line 
conversations that lead to a more prepared and better informed 
public. We are constantly refining our digital and social media 
approach, listening to feedback from our stakeholders, and 
keeping our ear to the ground on the ever-evolving world of 
social media and the digital space.
    We learn from the conversations we have on these platforms 
and from continued collaboration with our partners. We do all 
of this to achieve our core mission of supporting America's 
citizens.
    I look forward to addressing any questions the subcommittee 
may have. Thank you.
    [The prepared statement of Mr. Adamski follows:]
                  Prepared Statement of Shayne Adamski
                              July 9, 2013
                              introduction
    Chairman Brooks, Ranking Member Payne, and Members of the 
subcommittee: Good morning. I am Shayne Adamski, senior manager of 
digital engagement for the U.S. Department of Homeland Security's (DHS) 
Federal Emergency Management Agency (FEMA). On behalf of Administrator 
Fugate and Secretary Napolitano, thank you for the opportunity to 
discuss FEMA's use of social media.
    I am pleased to be here today to discuss the role of social media 
in disasters and emergencies. Technology grows and changes rapidly, 
providing us with increased opportunities to educate and empower the 
public. Tools that did not exist even 5 years ago are now primary modes 
of communication for millions of Americans. Of course, tools such as 
YouTube, Facebook, and Twitter were not created for the purpose of 
preparing for, responding to, or recovering from emergencies and 
disasters. However, the potential for useful application of these tools 
to strengthen the effectiveness of the FEMA mission exists and should 
be explored.
    FEMA's success in fulfilling its mission is highly dependent upon 
our ability to communicate with the individuals, families, and 
communities we serve. For that reason, social media conversations are 
extremely valuable to the work we do, and we are fortunate to have 
partners with us here today who see the value of using these tools to 
increase public safety.
    Today, I would like to discuss why social media is important to the 
work we do as well as how FEMA uses social media and strategic 
partnerships to fulfill our mission.
     the power and promise of social media in emergency management
    FEMA's approach to emergency management recognizes that 
individuals, families, and communities are our greatest assets and the 
keys to our success. In order to fulfill our mission, we must work 
together as one team--this notion is at the heart of our whole-
community approach to emergency management.
    Social media is imperative to emergency management because the 
public uses these communication tools regularly. Rather than trying to 
convince the public to adjust to the way we at FEMA traditionally 
communicated, we have adapted to the way the public communicates, 
leveraging the tools they use on a daily basis. Millions of Americans 
use social media every day to check in on friends and family, learn 
about current events, and share their experiences. FEMA uses social 
media to be part of this on-going dialogue and meet people where they 
are, using tools and platforms they are already familiar with.
    FEMA also uses social media and other digital methods to 
communicate because as we have seen, information can lead to action. 
Our goal is for our safety-related information to have a real-world 
impact--to inspire actions that lead to more resilient families and 
communities. If someone sees a preparedness or safety tip from FEMA, 
the goal is that it will inspire them to prepare or empower them to 
tell a friend how to be more prepared or where to find help.
    Finally, social media and technology allow us to reach more people 
more quickly during disasters, when they need accurate, timely, and 
authoritative information that helps ensure the protection of their 
life or livelihood. With one click of the mouse, or one swipe on their 
smartphone's screen, a message is capable of being spread to thousands 
of people and have a tangible impact.
                       how fema uses social media
    FEMA uses multiple social media platforms to reach the public and 
to provide them with useful information. While no individual social 
media tool is exhaustive or all-encompassing, each allows us to 
communicate with the populations we serve. I would like to discuss a 
few of the social media tools we use at FEMA, and how we use them.
    We are very active on two of the most popular social networks in 
America--Facebook and Twitter--where we are able to reach the greatest 
number of active, engaged users. We have three Facebook pages and 34 
Twitter accounts. Collectively, our Twitter accounts have 400,000 
followers, while our Facebook pages have 143,000 fans. FEMA also 
manages a YouTube channel as well as discussions on an on-line 
collaboration site called IdeaScale.
    These numbers also show our growth and demonstrate our increasing 
ability to communicate with Americans on-line. When I started in my 
position in June 2010, we had 25,000 followers on all of our social 
media accounts combined. Today, FEMA has well over 500,000 users on 
these sites.
    FEMA uses social media in five primary ways.
    First, we use social media to provide up-to-date information about 
how the whole community emergency management team, including FEMA, is 
helping communities and individuals prepare for, respond to, and 
recover from and mitigate disasters.
    At the onset of the recent Oklahoma tornadoes, one of the many 
messages that we tweeted was: ``#Oklahoma: We're working closely with 
state emergency management & local officials. We stand ready to support 
as needed & requested.'' Soon after, we followed up with the news that 
FEMA had deployed Urban Search & Rescue, Incident Management, and 
Mobile Emergency Response Support teams to Oklahoma.
    And just after Hurricane Sandy we posted photos of our FEMA Corps 
Community Relations (now called Disaster Survivor Assistance Teams) 
personnel going door-to-door in the impacted areas, helping survivors 
get help and apply for aid in New Jersey and New York.
    We also leverage our social media accounts to help our Federal, 
State, local, Tribal, territorial, and private-sector partners share 
key messages. For example, we shared many status updates from trusted 
sources before, during, and after Hurricane Sandy, including from 
Governor Chris Christie, Mayor Michael Bloomberg, and other Governors 
and mayors throughout the affected region.
    Following the Oklahoma tornadoes in May, we amplified key messages 
from the Oklahoma State government and the city of Moore. We regularly 
share updates from our partners at all levels because we recognize that 
successful emergency management requires a whole-community approach and 
effort.
    Second, we use social media to provide safety and preparedness 
tips. As the subcommittee is aware, we are currently in the middle of 
the 2013 Atlantic hurricane season, so we recently posted tips 
regarding properly securing windows during a hurricane. Similar 
messages are posted regularly across all of our social media accounts 
to help ensure that Americans have actionable, specific ways to get 
themselves, their families, their business, and their communities 
better prepared for disasters.
    These safety tips focus on more than just preparedness. We also 
share information about how people are able to stay safe during and 
after disasters with critical reminders to stay away from damaged areas 
and allow emergency crews and rescue workers to work.
    Third, we use social media to inform the public of the most 
effective ways to help disaster survivors. Americans show tremendous 
generosity after disasters, so we provide tips on how that generosity 
could be most effective. For example, we encourage Americans to donate 
through trusted charities that know the specific needs of the impacted 
community.
    Fourth, we tell disaster survivors where and how they are able to 
receive assistance--whether that be from FEMA or from another trusted 
source. To accomplish this, we leverage all of our social media 
accounts, including those managed in each of FEMA's regional offices. 
Our regional offices fill an important niche, providing useful 
information to local users, such as locations of FEMA's Disaster 
Recovery Centers or by highlighting local resources. We employed this 
tactic after Hurricane Sandy and during both the recent floods in 
Illinois and the tornadoes in Oklahoma.
    Fifth, we tap into the potential of social media to gain valuable 
feedback. As I shared before, social media is at its essence a 
conversation and it is a conversation that we strive to be an active 
part of. Of course, in true conversation, both participants listen and 
respond in turn--social media is no different. This exchange is a 
critical component of being viewed as a responsive, authoritative 
source of information.
    This two-way flow of information had an impact after Hurricane 
Sandy. In the days following the hurricane, FEMA launched ``Rumor 
Control,'' an initiative using all of our on-line platforms to dispel 
inaccurate information being shared on-line. We listened and identified 
rumors circulating on-line, from logistics information to specific 
disaster assistance programs, and moved to quickly correct the 
misinformation. This was done by creating a Rumor Control page on 
fema.gov and m.fema.gov (FEMA's mobile website), as well as through 
answering many questions received through our Facebook and Twitter 
accounts. FEMA receives questions almost daily on Facebook and Twitter, 
so we dedicate resources to answering them, thus helping to fulfill 
FEMA's mission of supporting America's citizens.
    To further facilitate feedback and interaction from the on-line 
community, FEMA also holds the equivalent of ``virtual town halls'' 
using Twitter chats. Twitter chats are real-time conversations using 
the platform. One recent example came after Hurricane Sandy. Federal 
Coordinating Officer for New York, Mike Byrne, participated in a 
Twitter chat and fielded many questions, such as ``How do homeowners 
get the amounts they need to rebuild?'' and ``Has @Fema spread into 
affected communities, holding open houses and is it better coordinated 
w/other agencies than 1 mo ago?''. These on-line ``town halls'' allow 
FEMA to answer questions in an open, public forum and contribute to 
growing our on-line following, which is essential to educating a 
greater number of Americans.
    As we use social and digital media, we follow record management and 
Paperwork Reduction Act rules. It is also important to note that FEMA 
writes content explicitly so that it is does not trigger the 
stipulations of the Paperwork Reduction Act and archives all social 
media content/conversations for records management purposes.
                    collaborating with key partners
    In addition to sharing key messages on our social networks from our 
partners, social media also allows FEMA to work with partners, such as 
the American Red Cross, to share information about the nature of on-
line conversations after a disaster.
    We also share what our private-sector partners are doing during a 
disaster, such as posting information about Tide Loads of Hope 
locations, where survivors can wash their clothes and Therapy Dogs 
International, which provides specially-trained dogs to comfort 
survivors.
    Additionally, we collaborate with our partners across the emergency 
management team on messaging and outreach for preparedness campaigns 
such as September's annual National Preparedness Month.
    To fully collaborate with our partners, particularly those in the 
private sector, we also make some types of information available for 
their use. One example is our Disaster Recovery Center data feed that 
contains information about open Disaster Recovery Centers. Google 
regularly includes this data in their Crisis Maps, which shares helpful 
information in a familiar and accessible format.
    We also regularly collaborate with our colleagues who work for 
platforms like Facebook, Google, and Twitter to better understand how 
our messaging could be seen by more users, especially during and after 
disasters.
    FEMA looks forward to making these non-profit and private-sector 
relationships even stronger in the future.
          social media: part of fema's larger digital presence
    FEMA's digital presence extends beyond social media. FEMA also 
communicates with Americans via the web and various mobile platforms. 
These channels complement each other and allow us to reach a larger 
audience.
    FEMA runs several websites that serve as authoritative sources for 
information, including: fema.gov, ready.gov, and 
disasterasssitance.gov.
    FEMA is also tapping into the importance that cell phones play in 
everyday life, specifically through our smartphone app, text message 
program, and Wireless Emergency Alerts. In my experience, cell phones 
are often a lifeline after a disaster and many times are the only 
source of information in the hardest-affected areas. As citizens 
continue to use smartphones more and more, those of us in emergency 
management should continually be looking for ways to share our message 
and make our services available through those devices.
    In 2011, we also released our FEMA smartphone app, which provides 
information on how to: Make a plan and build your emergency kit; stay 
safe and rebuild after a disaster; and look up open disaster recovery 
centers and open shelters. We are very proud of the fact that the 
safety information in the FEMA app is accessible within the app even if 
the user does not have a cellular or Wi-Fi connection--making it a 
valuable tool during a disaster.
    Text messaging is a form of communication that is particularly 
useful during and after a disaster when phone lines may be congested 
and voice calls often do not get through. Sending and receiving text 
messages requires less bandwidth and helps reduce the volume of phone 
calls in an area so that necessary communications are able to continue 
to be made.
    After the May 20 tornadoes in Oklahoma, we posted a message to 
Facebook that reminded people to use text messaging to check in with 
friends/family in the impacted area, as well as the American Red Cross 
Safe and Well site. The message was seen by more than 230,000 people on 
Facebook.
    In 2011, FEMA was the first Federal agency to establish its own 
text message short code--meaning that anyone could text 43362 or 4FEMA 
to obtain valuable information. Texting this code allows people to 
search for open disaster recovery centers and shelters. During the 
height of Hurricane Sandy, our text message program received more than 
10,000 requests in one day from people searching for shelter locations 
within a specific ZIP code. Citizens could also sign up to receive 
regular preparedness tips regarding the hazards that are most common in 
their area, such as earthquakes, wildfires, hurricanes, or tornadoes.
    Local and State public safety officials can send Wireless Emergency 
Alerts directly to citizen's cell phones, utilizing FEMA's Integrated 
Public Alert & Warning System. These geographically-targeted messages 
are sent from emergency managers, the National Weather Service, and the 
National Center for Missing and Exploited Children to warn citizens 
about severe weather, AMBER Alerts and other threats to safety. During 
National emergencies, the President can also communicate with citizens 
using Wireless Emergency Alerts.
                  personal preparedness meets digital
    At FEMA, we often share how Americans could use technology to be 
``digitally prepared,'' and I would also like to take this opportunity 
to share some of those items today.
    To ensure they are prepared, we encourage people to take these 
steps:
  <bullet> Store useful phone numbers in their phone, including numbers 
        for local police, fire departments, and their utility company;
  <bullet> Create a group of emergency contacts in their cell phone;
  <bullet> Educate themselves on what social media tools are being used 
        by their State, local, Tribal, and territorial emergency 
        management offices, so that they are able to quickly access 
        them in the event of an emergency;
  <bullet> Have an extra battery for their phone (or a solar charger) 
        in their emergency kit;
  <bullet> Update their social media channels in the aftermath of a 
        disaster to let their friends and family know they are safe by 
        simply texting ``I'm OK''; and
  <bullet> Know how to use text messaging to check in with friends and 
        family after a disaster.
    Many social media sites also allow users to update their status via 
text message, and I would encourage the public to become familiar with 
how to do so.
                             moving forward
    Moving forward, FEMA will continue to engage in on-line 
conversations that lead to a more prepared, better-informed public.
    We are constantly refining our social media approach, listening to 
feedback from our stakeholders and keeping our ear to the ground on the 
ever-evolving world of social media and the digital space. We also 
learn from the conversations we have on these platforms and from 
continued collaboration with our partners. We do all of this to achieve 
our core mission of supporting America's citizens.
    I look forward to addressing any questions the subcommittee may 
have. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mrs. Brooks. Thank you, Mr. Adamski.
    The Chairwoman now recognizes Ms. DeFrancis for 5 minutes.

   STATEMENT OF SUZANNE C. DE FRANCIS, CHIEF PUBLIC AFFAIRS 
                  OFFICER, AMERICAN RED CROSS

    Ms. DeFrancis. Thank you, Chairwoman Brooks and Members of 
the committee.
    The American Red Cross appreciates this opportunity to 
share our experiences using social media to help people stay 
safe and recover from disasters, and we also look forward to 
learning from our Federal, State, and local partners here 
today.
    So today, I would like to make three points.
    The public is increasingly turning to social media and 
mobile apps to get help and to give help during disasters, and 
all of us must be listening and responding and integrating that 
information better into our response operations because, as you 
mentioned, the public has very high expectations that we are 
doing that.
    At the American Red Cross, social media plays an important 
role now in what is a 130-year-old mission. It is helping us 
provide critical information to the public, connect people to 
resources, and literally, save lives.
    Finally, social media is a powerful form of citizen 
engagement which can be harnessed to create more resilient 
communities so that the community can actually own the disaster 
response and this will help ensure our Nation is as prepared as 
possible.
    So as you mentioned, Chairwoman, that the American Red 
Cross surveys show people use social media for many reasons. 
Three out of four use it to find their friends and family and 
see if they are safe or to give information about their own 
safety.
    They are also looking for hard facts. They want the weather 
conditions, road closures, damage reports. We saw during Sandy, 
they were looking for gas stations that had gas.
    More than a third say social media has motivated them to 
gather supplies or seek shelter. As you know, it is very hard 
to convince people to prepare, but social media is making a 
dent in that.
    As you said, the public expects us to be listening and 
responding. Three out of four Americans expect help in less 
than 3 hours to arrive after a post on social media, and 
clearly, we know we have a gap there in meeting that 
expectation.
    So the hub of Red Cross social media is our digital 
operation centers, opened in March 2012 but with a generous 
gift from our wonderful partner, Dell, and as you said, it is 
the first social media center specifically devoted to 
humanitarian relief.
    We were so pleased that you were able to come and visit our 
center along with Ranking Member Payne and we hope that other 
Members of the committee will come, other Members of Congress, 
we welcome and want to show you our facilities.
    So this center allows us to pull data from social networks, 
all social networks, and categorize them by topics. So it could 
be a topic such as damages, emotional support, need for 
shelter, food, and then we can categorize that and then read, 
reply, or take the data and redirect it to inquiries to our 
disaster operations staff so they can get on it.
    During Hurricane Sandy, we analyzed more than 2.5 million 
pieces of social data. We were searching for any actionable 
content. We tagged 10,000 of these posts and whether it was 
labeling it situational awareness or something that needed to 
go to our mass care operations.
    We sent more than 300 individual pieces of information to 
our operations team on the ground and about 88 of those 
resulted in concrete actions where we actually took a step we 
weren't planning on taking to get people help.
    We tweeted and posted information on where our shelters and 
mobile feeding sites. I used to love to see our New York 
chapter send out a tweet that would say, ``The Red Cross truck 
is at 99th and 101st streets in Howard Beach, and we are 
serving Salisbury steak today.''
    Social media also helped us identify gaps in our service 
delivery. When residents of Sayreville, New Jersey had not 
received assistance 5 days after landfall, they used Facebook 
to let us know, and we were able to route this information to 
our operation on the ground to get some service delivery going 
in an area we just hadn't identified.
    Now you know the Red Cross relies on volunteers and so the 
way that we are able to scale up our social media operations 
during a disaster is through trained digital volunteers.
    During Sandy, more than 50 American Red Cross digital 
volunteers, some working remotely from around the world like 
Christoph Dennenmoser, from our German Red Cross, were actually 
responding to thousands of Facebook messages and tweets about 
Sandy.
    Now social media apps and other digital tools are an 
increasing part of 21st Century response but these tools, I 
need to hasten to add, are not a panacea. Social media can 
supplement but does not replace traditional communications.
    Not everyone, as you mentioned, is on social media. There 
is a digital divide, and when the power is out and people can't 
charge the cell phones, nobody is on social media, and the Red 
Cross will still drive through neighborhoods with bull horns 
announcing that we are there with food, water, and other 
supplies.
    Now our surveys have also found that mobile apps are 
increasingly becoming important. They are the fourth most 
popular way to get information in an emergency and remember TV, 
radio, and on-line news are still the top sources of 
information.
    The American Red Cross has released a series of five free 
apps for both iPhone and Android. People have downloaded these 
new apps 3 million times. They have weather alerts, 
preparedness information, shelter locations, and the ability to 
let loved ones know they are safe.
    A top Apple executive told our CEO, Gail McGovern, that he 
never leaves his kids without leaving our first aid app open 
for the babysitter to use.
    People have told us that they have literally saved lives in 
a restaurant using the app because it tells you how to stop 
people from choking, what to do in terms of cardiac arrest.
    Our tornado apps and other apps that we have are now 
tapping into the Government systems so that we can send an 
alarm that sounds when a tornado is approaching. We got a 
message from some mother who said, ``Now I can go to sleep 
because I know this alarm wakes me up.''
    Finally, in catastrophic disasters, the Red Cross witnesses 
an abundance of care and concern from people who are 
unaffected, people who just really want to help their 
neighbors. They are often eyewitnesses to the events as you 
described with the plane crash and the first to help their 
neighbors.
    We are seeing the possibilities here as limitless in terms 
of giving the public a seat at our disaster operations table 
and have them help control the response if you will.
    So by social media and mobile apps and new technology, we 
can create more resilient communities, more effective disaster 
response, and a more prepared Nation.
    Thank you again for your leadership on this topic, 
Chairman, and I am happy to address any questions you may have.
    [The prepared statement of Ms. DeFrancis follows:]
               Prepared Statement of Suzanne C. DeFrancis
                              July 9, 2013
    Good morning, Chairman Brooks, Ranking Member Payne, Members and 
staff of the subcommittee. The American Red Cross appreciates the 
opportunity to share our experience using social media and new 
technology to help people stay safe and recover from disasters and 
other emergencies. Chairman Brooks, we applaud the personal interest 
you and the Ranking Member have in this area, as evidenced by your 
visit earlier this year to our Digital Operations Center, and we look 
forward to further engagement with you and the entire committee.
    The destructive disasters we have seen across our country--from 
wildfires in the West, to the Oklahoma tornadoes, Superstorm Sandy, 
which impacted Ranking Member Payne's State of New Jersey and, the 
outbreak of tornadoes that devastated Henryville in Chairman Brooks' 
home State of Indiana--underscore the fact that disasters can strike 
anywhere at any time, and we all use all the tools and methods we can 
to help our neighbors in need.
    Today, I'd like to make three points to the committee:
    1. The public is increasingly turning to social media, mobile apps, 
        and other new technology to find information and get help 
        during disasters, and all of us who provide emergency relief 
        must be listening and responding.
    2. The American Red Cross works to continually improve our 
        services, and social media is an important tool in helping us 
        share life-saving information, connect people to resources and 
        literally save lives.
    3. Social media is a powerful form of citizen engagement which can 
        be harnessed to create more resilient communities and ensure 
        our Nation is as prepared as posssible.
            emerging social media and new technology trends
    The power of social media as a communications tool during disasters 
became clear to us in the aftermath of the earthquake that struck Haiti 
in 2010. The American Red Cross saw tweets from people trapped under 
collapsed buildings. We heard directly from members of the Haitian 
diaspora who were communicating via text with loved ones in need of 
help. With cell service down in the early hours, people sought help 
however they could.
    Like many other disaster relief organizations and emergency 
responders at the time, the American Red Cross did not have an 
efficient way to process and respond to this information. We had to 
manually intake the messages and try to route them to the right places. 
It was a sign to us that technology was rapidly-changing traditional 
disaster response methods.
    In August 2010, the American Red Cross convened an Emergency Social 
Data Summit to discuss the evolution occurring in disaster response 
with the use and reliance by the public on social media. We convened 
other emergency response and disaster relief agencies, as well as the 
social media entities that were part of this growing phenomenon. This 
was the first time that Government, nonprofit, technology, and citizen 
sectors came together to discuss the opportunities and challenges we 
face in integrating social data with disaster response.
    More than 150 people attended the all-day summit and another 1,200 
contributed virtually to the conference via Ustream and Twitter. It was 
quite a sight to see people live-blogging and tweeting in the same Red 
Cross headquarters building where citizens had once rolled bandages 
during World War I.
                          surveys of web users
    To inform the summit discussion, the American Red Cross conducted a 
survey of web users. Our survey results showed that many web users 
would turn to social communities to seek help during disasters and 
other emergencies. And, even more importantly, they expected first 
responders to be listening.
    The 2010 survey also found that Americans have high expectations 
about how first responders should be answering their requests, and it 
revealed a gap between public expectations and our ability to meet 
those expectations. For example, 69 percent said that emergency 
responders should be monitoring social media sites in order to quickly 
send help--and 74 percent expected help to come less than an hour after 
their tweet or Facebook post.
    In 2011 and 2012, the Red Cross conducted follow-up surveys on use 
of social media in emergencies. Those surveys found that Americans are 
becoming increasingly reliant on mobile devices during emergencies to 
provide information, useful tools, and a way to let loved ones know 
they are safe.
    The Red Cross surveys found that mobile apps now tie social media 
as the fourth most popular way to get information in an emergency, 
following TV, radio, and on-line news. The Red Cross survey found that 
20 percent of Americans said they have received some kind of emergency 
information from an app. These findings led to the development of a 
series of Red Cross apps that I will discuss later.
    The survey identified a subsection of the population deemed 
``emergency social users,'' people who are the most dedicated users of 
social media during emergencies and likely to take action based on 
information gathered through their social networks.
  <bullet> Three out of four emergency social users say they have 
        contacted friends and family to see if they were safe.
  <bullet> More than a third say social information has motivated them 
        to gather supplies or seek shelter.
  <bullet> These users look for the hard facts--road closures, damage 
        reports, and weather conditions--and they share personal 
        information about their safety and their emotions.
  <bullet> Three out of four Americans (76 percent) expect help in less 
        than 3 hours of posting a request on social media, up from 68 
        percent in the 2011 survey.
  <bullet> Forty percent of those surveyed in 2012 said they would use 
        social tools to tell others they are safe, up from 24 percent 
        the year before.
          using social media to advance the red cross mission
    For more than 130 years, the mission of the American Red Cross has 
been to help prevent and alleviate human suffering in the face of 
emergencies by mobilizing the power of volunteers and the generosity of 
donors.
    We respond to nearly 70,000 disasters each year--ranging from a 
house fire to a hurricane. We supply about 40 percent of the Nation's 
blood to patients and hospitals. We teach skills such as First Aid and 
CPR that can save lives. We provide international humanitarian aid and 
support our military and their families through emergency 
communications and other programs.
    It may seem incongruous to some for an institution as old as ours 
to be embracing social media. But our experience teaches us that during 
a crisis, people will communicate the same way they communicate every 
day. Today, people are depending upon social media to communicate with 
their family and friends on a daily basis. And, as our surveys show, 
they are increasingly using social media to communicate in a disaster.
    To that end, the Red Cross has made social media and other forms of 
new technology a priority and our social presence continues to grow. We 
are present on all the major digital platforms. We have over half a 
million Facebook followers and we just celebrated our one millionth 
Twitter follower.
                       digital operations center
    The hub of our social media engagement is our Digital Operations 
Center at our Washington, DC, headquarters, which opened on March 7, 
2012. It is the first social media monitoring center specifically 
devoted to humanitarian relief efforts.
    This center was made possible by our generous partner, DELL, which 
built the center for us and provided the equipment and its expertise. 
This revolutionary center enables the Red Cross to clearly see what is 
happening on the ground during an emergency. It helps us to better 
anticipate disaster needs and to dispense help more quickly--whether it 
is in the form of preparedness tips, first aid instructions, and 
information about shelter, food, or other services.
    The center allows us to pull in data from social networks on topics 
we choose. It consists of an engagement console which allows us to 
categorize posts by topic, and read, reply to them, or redirect 
inquiries to our disaster operations staff or other appropriate 
subject-matter experts.
    There are four screens which visually depict this information so we 
can easily monitor it:
  <bullet> The Heat Map tells us WHERE posts are coming from 
        geographically;
  <bullet> The Community Screen tells us WHO is posting;
  <bullet> The Universe Screen tells us WHAT they are saying;
  <bullet> The Conversation Dashboard tells us HOW we are doing in our 
        response efforts.
    The American Red Cross is very proud of our Digital Operations 
Center. And, we love to show it off. I invite all Members of Congress 
and their staff to visit our cutting-edge communication center to learn 
more about its capabilities and witness it in action.
                 putting emergency social data to work
    Chairman Brooks, as you will recall, on March 2, 2012, an early 
season tornado outbreak devastated many communities in Kentucky and 
southern Indiana with more than 30 deaths and 300 injured. This 
disaster actually served as our first-ever test of the Digital 
Operations Center. Our small team of social media experts watched the 
heat map go red as the Indiana storms struck. Based on the activity and 
content of social media in the area, the team was able to determine 
that the tornadoes were heading right toward Henryville and quickly 
distribute preparedness information to thousands of people by offering 
links to Redcross.org and safety tips in 140 characters. We also were 
able to make operational decisions based on feedback and connect those 
on the ground with the resources they needed.
    Last October, when Superstorm Sandy struck, the American Red Cross 
launched the largest U.S. disaster response in more than 5 years. Our 
Digital Operations Center again played a crucial role.
    Starting prior to landfall and continuing well after the storm 
passed, our teams in the Digital Operations Center analyzed more than 
2.5 million pieces of social data searching for any actionable content 
from people affected by Sandy. They tagged 10,000 of these posts and 
interacted with them in some way, whether it was labeling a post as 
``situational awareness'' or routing a need to our Mass Care 
operations.
    The social team sent more than 300 individual pieces of information 
to our operations team to help inform their decision making. This level 
of engagement allowed us to immediately address the needs and concerns 
of a large number of people in a densely-populated region of the 
country.
    We also were able to scale up our social media operations through 
the use of trained digital volunteers. They helped us monitor, 
authenticate, and route incoming disaster requests and information to 
our operations people and partners. They worked remotely using hash 
tags such as #crisisdata or #redcross to collect, collate, and respond 
to queries and concerns.
    During Sandy, more than 50 American Red Cross digital volunteers--
some working virtually from around the world--responded to thousands of 
Facebook messages and tweets. They addressed an array of service 
delivery needs from finding the nearest shelter to answering questions 
about fallen trees and downed power lines. One of our Digital 
Volunteers was Christoph Dennenmoser, who works for the German Red 
Cross and has helped us respond to social posts on operations such as 
Haiti and Hurricane Sandy . . . all from his home or office in Germany.
    Our social engagement team, chapters, and digital volunteers 
offered information on where to find our shelters and mobile feeding 
sites. For example, our New York City chapter would tweet out that a 
Red Cross Emergency Response Vehicle would be at 99th and 101st streets 
in Howard Beach with hot meals and water. Some even tweeted out the 
menu for the day: Salisbury steak.
    The Red Cross found during Sandy that social media also helps us 
identify gaps in our service delivery. For example, residents of 
Sayreville, NJ had not received assistance 5 days after Sandy's 
landfall. Several people there used Facebook to let us know, and we 
were able to provide this information from our Digital Operations 
Center to the operation on the ground and get service delivery going in 
that hard-hit area we hadn't identified before.
    We have found one major need remains consistent during all 
disasters--people are anxious and need emotional support. This gives us 
an opportunity to provide comfort and care using our ``digital hugs,'' 
delivered in 140 characters or less.
    For example, we received a tweet saying: OK #Sandy, you win. It's 
official. I'm scared.
    We replied back: Sorry you are scared, pay attn to warnings and 
find shelter nearby just in case. Redcross.org (hugs) to you!
    The answer: Thank you. Stay safe as well. Thanks for the hugs . . . 
I need it.
    The Red Cross continues to learn from all of our response efforts 
as social media evolves. There is a balance between acting on 
information shared through social media outlets and ensuring what has 
transpired is accurate and correct. By watching and tracking social 
media continually, we often can correct misinformation quickly as we 
authenticate and verify information.
     mobile apps playing larger role in disasters and saving lives
    As smart phones increasingly play a larger role in our lives, the 
American Red Cross is responding to this change with mobile solutions. 
Since June, 2012, we have released a series of five free apps for both 
iPhone and Android users.
    People across the country have downloaded these new apps more than 
3 million times, giving them vital weather alerts, preparedness 
information, shelter locations, and the ability to let loved ones know 
they are safe.
    The First Aid app, which was launched in June, 2012, is the most 
popular and has been downloaded more than 1.4 million times. A top 
executive at Apple told our CEO Gail McGovern that he never goes out 
for the evening without leaving the app open for the babysitter.
    The First Aid App was followed by four more disaster apps: 
Hurricane, earthquake, wildfire, and tornado. Popular with users, they 
receive average ratings of 4.5 out of 5.0 stars and received the ``Best 
in Show--Most Life Changing Product'' award at the recent CTIA--The 
Wireless Association Conference.
    CNN has called our Tornado App one of the ``7 apps to survive a 
tornado.'' It includes a siren that warns users when a tornado warning 
has been issued in their area. When the deadly tornadoes struck 
Oklahoma in May, our Tornado App was the number one free weather app 
and had 167,000 new downloads, bringing the total to 594,000 downloads 
since its March launch.
    The Red Cross hurricane app, which has been downloaded more than 
824,000 times, became the No. 1 free weather app during Sandy and 
received the ``Outstanding Achievement'' award at this year's National 
Hurricane Conference.
    But most gratifying is the feedback from users about how our apps 
helped save lives:

``I was in my friends car . . . when suddenly a friend of mine started 
having a seizure. I immediately looked at this app for help while 
calling 9-1-1 on another phone. I told the police about it and they 
said that there's a good chance the information in this app saved my 
friends life.''

``I never have to stay up night again worried a tornado is coming when 
there's a watch. I have a 9-month-old. I'm terrified one will come and 
I won't have enough time to get her room & downstairs. I've had apps 
before that don't work every time. This 1 actually does.''

    on-line tools are a supplement, not substitute for traditional 
                             communications
    Social media, apps, and other digital tools are becoming an 
increasingly important part of 21st Century disaster response and 
services. But it would be a mistake to assume that these tools are a 
panacea. Social media should supplement but not replace traditional 
communications. Not everyone is on social media, especially in 
vulnerable communities. And those who do use social media tend to be 
younger, more urban, and more affluent.
    Moreover, when power is out and you can't charge your smart phone, 
you will still need the Red Cross to drive through neighborhoods with 
bullhorns announcing that we are there with food, water, and other 
supplies.
    During Hurricane Sandy, the American Red Cross delivered help that 
cannot be delivered over the internet, as we:
  <bullet> Mobilized more than 17,000 workers and volunteers;
  <bullet> Provided more than 81,000 overnight stays in shelters;
  <bullet> Served more than 17 million meals and snacks;
  <bullet> Distributed more than 7 million relief items.
       partnering to extend reach of social media/new technology
    Social media and mobile technologies are bringing everyone closer 
together, and when Government, non-profits, internet, and other private 
companies, work together we can reach even more people with life-saving 
information and help.
    We can do this by sharing updates and information, and spreading 
the word through our own networks, while still preserving what is 
unique about our brands and the services we provide.
    For example, in the first hours after a disaster strikes, it's 
important to inform and connect with family and friends. What better 
place to do that than on social media. The Red Cross has made changes 
to its Safe and Well website that allows people to update their status 
on Facebook and Twitter. We have also added an ``I'm Safe'' button to 
our apps that allows people to immediately send a text message, tweet, 
or Facebook post to let loved ones know they are safe.
    We have a very close working relationship with FEMA and State and 
local emergency management, often sharing information with each other 
through social media.
    During major disasters, the Red Cross social engagement team has a 
daily check-in with the FEMA social engagement team. We frequently echo 
and/or share one another's outgoing content--for example FEMA will 
often help us push out Safe and Well to the public.
    We share situational awareness to be sure we're coming to similar 
conclusions about client needs, and we are working to integrate our 
findings with the work of State emergency operations centers.
                    a new form of citizen engagement
    In catastrophic disasters, the Red Cross witnesses an abundance of 
care and concern from the unaffected--people eagerly wanting to help. 
They are often eyewitnesses to the events, and the first to help their 
neighbors.
    FEMA Administrator Craig Fugate often speaks of his goal to have 
people see themselves as survivors and not victims of a disaster. He 
has pointed out that social media can empower the public to be a part 
of the response, not victims to be taken care of. We agree.
    In just a few weeks, we are set to launch the new, dynamic Team Red 
Cross app. This new app allows people to sign up to help, get trained 
right on their mobile device and receive notifications about Red Cross 
volunteer opportunities in their community.
    We are very excited about this next level of digital engagement 
with the American people.
    With the help of technology, we are able to offer limitless 
opportunities, thereby, turning an abundance of care into more 
resilient communities, more effective disaster response, and a more 
prepared Nation.
                     the next technological horizon
    Chairman Brooks, Ranking Member Payne, and Members of the 
subcommittee, thank you again for this opportunity to provide testimony 
today. We are delighted to be working with this subcommittee and your 
colleagues as we further explore the opportunities presented by 
engaging social media in our disaster preparedness and response.
    Social media is helping us improve our service delivery by giving 
us better situational awareness of the needs, helping us target help to 
specific locations, and getting more people engaged in giving and 
getting help. It is giving the public a seat at our Disaster Operations 
table.
    We have learned on this recent journey that we must continue to 
embrace change, remain open to new ideas and new platforms, and look 
forward to the next technological horizon.
    Thank you again for your engagement and leadership on this 
important topic. I am happy to address any questions you may have. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mrs. Brooks. Thank you, Ms. DeFrancis.
    The Chairwoman now recognizes Mr. Ashwood for 5 minutes.

 STATEMENT OF ALBERT ASHWOOD, DIRECTOR, OKLAHOMA DEPARTMENT OF 
                      EMERGENCY MANAGEMENT

    Mr. Ashwood. Chairwoman Brooks, Congressman Swalwell, 
Members of the committee, thank you again for holding the 
hearing today on growing issue to the emergency management 
community.
    Today I am pleased to be representing the National 
Emergency Management Association as legislative committee 
chairman and past president of the association. I am also the 
director of the Oklahoma Department of Emergency Management.
    As you know, in May of this year, my State suffered a 
series of severe weather events including two EF5 tornadoes. 
These storms developed in and around Oklahoma City within 11 
days of each other.
    The EF5 is the most damaging classification of tornadoes 
with the wind speeds in excess of 200 miles per hour. It is so 
rare that the National Weather Service has only documented 60 
since 1950. So to experience 2 within 11 days is extremely 
rare.
    Our job in emergency management, as is true with the entire 
public sector, is one of customer service. Part of our mission 
is accomplished by helping our customers respond to and recover 
from extreme events such as these.
    As the first tornado landed, we maintained contact with our 
Federal partners to not only meet the needs of response but to 
establish recovery efforts. Urban search and rescue teams were 
mobilized as Governor Fallin made a verbal request for Major 
Disaster Declaration.
    Later that evening, the President approved the request and 
we were well on our way of turning disaster victims into 
disaster survivors.
    Today we have nearly 14,000 families registered for 
assistance and roughly $45 million disbursed for rental 
assistance, repair, low interest loans, and grants. I cannot 
thank FEMA enough for the continued support and Congress' 
continued support of the emergency management profession.
    Now, to the topic we are here for--social media and 
disasters.
    Communications with the public is always a great challenge 
following events of this magnitude and social media is no doubt 
the new tool of messaging.
    Once we were able to gain our footing following the 
immediate response, social media gave us situational awareness 
on the ground. We were able to confirm damage reports and 
assessments through photos and messaging from the general 
public. Between June 10 and June 23, we received 105 retweets 
and nearly 250,000 impressions on Twitter as well as constant 
activity on Facebook.
    As the storms continued, the likes on our Facebook page 
increased from 200 to over 8,000 in a little less than a month. 
The emergency management community has recognized in the power 
of social media and its continuous evolution.
    Last year, NEMA joined with the Center for Naval Analysis 
to conduct a survey on how emergency managers use social media. 
We outlined numerous issues including both the strengths and 
limitations which I have outlined in detail in my statement for 
the record.
    State public information officers are currently utilizing 
these findings and addressing them through their work groups. 
Their charge is to create a template of standard operating 
procedures and concepts for virtual operation support teams 
that will give us a surge capacity through volunteer manpower.
    These efforts will continue to bring social media into the 
everyday functions of emergency management. Even though 
emergency management community is still experimenting with 
using social media for two-way communications, we realize the 
necessities to try such things for the future.
    I have been in the business for 25 years and while I 
personally do not have a Facebook page nor do I know how to 
tweet, I know my customers need accurate, timely information, 
and social media is a tool we must not ignore.
    Thank you again for this opportunity to testify. I look 
forward to your questions.
    [The prepared statement of Mr. Ashwood follows:]
                      Statement of Albert Ashwood
                              July 9, 2013
                              introduction
    Thank you Chairman Brooks, Ranking Member Payne, and Members of the 
subcommittee for holding this hearing today. I am the director of the 
Oklahoma Department of Emergency Management (OEM), and today I am 
pleased to represent the National Emergency Management Association 
(NEMA) as we discuss the recent tornados in my State, how social media 
was utilized in this disaster, and trends of social media in the 
emergency management community. NEMA represents the State emergency 
management directors of the 50 States, territories, and District of 
Columbia. I am also chairman of the legislative committee for the 
association.
    In order to effectively understand the role of social media in a 
disaster, I will first outline a recent disaster in Oklahoma, describe 
how social media was utilized, and then examine the larger context of 
this new medium in an age-old profession.
                      responding to recent events
    In May of this year, a series of severe weather events impacted 
numerous communities in Oklahoma, including two EF5 tornadoes 
developing in the Oklahoma City metropolitan area within 11 days of 
each other. The EF5 is the most damaging tornado with wind speeds in 
excess of 200 miles per hour. Since 1950, the EF5 and its predecessor 
the F5 tornado have been documented only 60 times in the United States. 
Therefore, the May events in Oklahoma should be categorized as 
extremely rare in our Nation's severe weather history.
    We in the emergency management profession are about people and 
their capability to prepare for, respond to, recover from, and mitigate 
the damages these types of events produce. Our job, like all in a 
public service capacity, is one of customer service with our customers 
at the local level of government. In recovery, our duty is to 
administer the appropriate laws and regulations as they were intended 
to help ``victims'' of disaster become ``survivors'' of disaster. I am 
proud to say this is currently happening in Oklahoma.
    As the live video showed the first EF5 tornado cut a path across 
the community of Moore, we remained in contact with our partners with 
the Federal Emergency Management Agency (FEMA). Response was the 
primary subject as Incident Management Teams and Urban Search and 
Rescue Teams quickly dispatched to support our local first responders. 
Even during this difficult time we simultaneously initiated recovery 
actions.
    Governor Fallin made a verbal Major Disaster Declaration request, 
initiated through FEMA headquarters to the President. This was a 
procedure new to me and my 25 years in this profession. In a short 
period of time, the President approved the request and by sunrise the 
next morning Federal equipment and personnel began pouring into 
Oklahoma to assist. Within the first 24 hours, the State of Oklahoma 
established Disaster Recovery Centers, dispatched Disaster Survivor 
Assistance Teams dispatched, and produced recovery messaging. Recovery 
was in full gear even as firefighters were still digging through piles 
of debris.
    To date, we have over 13,000 families registered for assistance, 
with all inspections completed, and roughly $28 million disbursed for 
rental assistance, repairs, low-interest loans, and grants. Of the 
estimated 1.1 million cubic yards of debris, we believe 60 percent has 
been removed, and we plan on completing this rest by early August. On 
behalf of the State of Oklahoma, I offer a sincere ``thank you'' to 
Administrator Fugate, our FEMA partners, and you who continually 
support this agency and our mission in Congress.
                  utilizing social media in disasters
    Social media once again played an integral role in disaster 
communications following the tornadoes, flooding, and severe weather 
that occurred between May 18 and June 2 in Oklahoma.
    Due to limited staffing in the OEM, the use of social media was not 
active during the initial 20 days after the first tornado. Rotating 
shifts were constructed by public information officers (PIO) to assist 
along with other agencies in answering media calls during call-heavy 
time periods. An inadequate number of personnel made it difficult to 
consistently provide Twitter or Facebook updates. Concurrently, OEM 
received more than 40 Twitter mentions and 20 Facebook wall posts which 
we considered positive. In numerous cases, other agencies shared the 
OEM's situation updates and other information through social media. Due 
to the influx in information, the OEM began actively using social media 
to share recovery information for the State on June 10. Between June 10 
and June 23, OEM received 105 re-Tweets and 247,578 impressions on 
Twitter as well as 103 ``likes,'' 67 ``shares,'' and 16,359 people 
reached on Facebook.
    During the disaster, the Department leveraged social media to check 
damage reports and examine photos on social media sites. This was 
especially useful during and after the May 31 storms when an EF5 
tornado impacted El Reno and continued southeast through the Oklahoma 
City metro area. Damage reports were limited even as local news was 
broadcasting uninterrupted coverage, so OEM used social media to gain 
situational awareness about the level of damage in those early hours 
following the storms.
    As the storms continued, the amount of information on social media 
sites gained momentum. The ``likes'' on the OEM Facebook page increased 
by more than 200 and total reach increased from around 200 prior to the 
disaster to nearly 8,000 by mid-June. To assist the public with 
information, Oklahoma Management and Enterprise Services (OMES) and 
Oklahoma Interactive developed a disaster-specific website which became 
a centralized location for disaster information from OEM, other State 
agencies, voluntary organizations, and others. The website received 
118,000 visits in 18 days.
    Determining the right language to use, in this case the correct 
``hashtag,'' helped separate the weather-related tweets from others 
during the disaster. The hashtag used during and after the disaster had 
been used for the last few years during all types of severe weather 
events and is well known by most Twitter-savvy Oklahomans. Along with 
aligning the hashtags, more than 25 disaster-related Facebook pages 
were created by users to share information about the storms, including 
where to volunteer, how to donate, and other information. On Facebook, 
rumors and misinformation were more widely reported, but in anecdotal 
form. The OEM did not find any direct evidence of false information on 
Facebook, but on several occasions people with false information said 
they found the information on Facebook. In the same occurrence, Twitter 
had propagation of rumors and false reports that was in direct 
correlation with misinformation reported through traditional media. For 
example, reports of high fatality numbers quoted on local news reports 
spread quickly on Twitter. As in other events, the public took to 
social media to express negative opinions of local storm reports and 
other coverage from local media during the many hours of continuous 
coverage.
    The National Weather Service (NWS) reported an increase in use of 
social media for these severe weather events. They also posted custom 
graphics, including tornado track maps, at the same time they were 
provided to local emergency managers. NWS saw their Twitter follower 
count nearly double and their Facebook likes increased by more than 
15,000. They also used custom time stamps on each of their tweets in 
order to minimize confusion often caused by re-Tweeting. Along with the 
OEM, Oklahoma Department of Agriculture, Food and Forestry, local 
shelters, and local rescue groups used Facebook and also Pinterest to 
share photos and information about hundreds of pets displaced by the 
storms. Facebook especially became an invaluable tool in reuniting 
survivors with lost pets.
       social media trends in the emergency management community
    Social Media incorporates various activities such as adapting 
technology and social interface. This has proven vital to the world of 
emergency management. Social networking can improve interaction between 
State agencies and the public. As real-time information is communicated 
to the public, the need to maintain accurate facts increases in 
urgency. The concept of using social media to communicate with the 
public remains a new phenomenon for many in the emergency management 
community. The idea of using social media to aid in preparing for, 
responding to, and recovering from disasters, has caught the attention 
of many in this field. Despite the benefits and shortfalls, social 
media continues to develop into an accepted form of communication. It 
has changed the way information is communicated and examined with 
citizens and the public. Two major trends seem to be forming as social 
media takes hold in the emergency management community:
    1. Disseminating Information.--The first trend seen by emergency 
managers is the use of social media to convey information in or around 
an affected disaster area. The versatility of this method is 
recognized, yet it often lacks any guidelines to make an organized 
effort to reduce the amount of chaos after a disaster. With volumes of 
information potentially pouring into the EOC, important data can be 
overlooked. Reliability, coordination, and integration are three 
critical factors needed to determine how social media will be used from 
both a public-safety aspect and as an information-sharing tool. As far 
as information sharing is concerned, social media is in its maturity. 
From a public-safety standpoint, social media is in its infancy.
    2. Volunteer Mobilization.--Often after a disaster, volunteer work 
groups come in quickly to assist communities. Without a robust 
volunteer management system in place, the influx of personnel could 
become a management concern. Social media has been able to bridge the 
gap between the need for volunteers and the chaos which could occur in 
the absence of coordination. Although social media has reduced the 
amount of confusion that accompanies a disaster there are still many 
avenues to be explored. The emergency management community is still in 
the trial phase of using social media to assist in volunteer 
management.
    To help assess the value and use of social media in the emergency 
management community, NEMA joined with the Center for Naval Analysis 
(CNA) last year to conduct a survey. To date, much of the data on 
social media and emergency management has been limited to anecdotal 
accounts or studies, so the CNA-NEMA study provided valuable 
information into the use of social media in emergency management. State 
emergency management directors and their Public Information Officers 
(PIO) were closely engaged in the development, distribution, and 
completion of the survey. Key findings of the survey included:
  <bullet>  Familiarity with Social Media.--On average, respondents 
        from State, county, and local levels of government all 
        considered themselves at least ``moderately familiar'' with 
        social media. Facebook, Twitter, and YouTube have become 
        commonly associated with social media.
  <bullet> Use of Social Media.--Of those surveyed, all State emergency 
        management agencies use social media in some capacity, as do 68 
        percent of county emergency management agencies and 85 percent 
        of local response agencies. Of those surveyed, nearly all of 
        the State emergency management agencies, half of the county 
        emergency management agencies, and three-fifths of the local 
        response agencies have used social media in response to a real-
        world event, primarily to push information out to the 
        community. Over 90 percent of the events cited were from 2011 
        or 2012, underscoring the recent adoption of social media.
  <bullet> Determining Capabilities.--Respondents were asked to 
        characterize their agency's social media capability along four 
        dimensions:
    1. Governance.--Commitment and buy-in from senior leadership and 
            political officials at the State level is more than double 
            that at the county and local levels.
    2. Technology.--Technology used for other purposes in an agency is 
            often used in an ad hoc fashion to support basic social 
            media operations, such as posting status updates.
    3. Data/Analytics.--Data-extraction efforts at all levels are still 
            reliant upon manual review, making monitoring efforts 
            difficult to scale-up during large disasters.
    4. Processes.--Formally defined and tested processes and procedures 
            lag behind social media use.
  <bullet> Trust but Verify.--Of those surveyed 59 percent of State 
        emergency management agencies, 55 percent of county emergency 
        management agencies, and 41 percent of local response agencies 
        trust social media less than traditional media sources. Nearly 
        all respondents agree that, on receiving information from 
        social media sources, their agency would attempt to verify this 
        information.
  <bullet> Barriers to Implementation.--Survey results indicate that 
        the primary barrier to emergency management agencies' use of 
        social media is a lack of dedicated personnel. While most 
        respondents indicated that they would not necessarily look to 
        the Federal Government to play a large role in supporting the 
        development of their agency's social media capabilities, they 
        identified prime areas for potential support, including grant 
        funding, training on how social media could be used, and the 
        provision of guidance and standards.
    As a result of this effort, the State PIOs developed work groups to 
examine the above findings. The work groups will:
    1. Develop best practices and goals for use of social media by 
        State emergency managers to better target resources and funding 
        towards implementation of social media;
    2. Develop and distribute a social media governing model that 
        specifically addresses the public-safety responsibilities and 
        the implications for emergency management and response 
        entities;
    3. Create a template of standard operating procedures to manage 
        social media information to more effectively integrate social 
        media and public-sourced intelligence into emergency management 
        information processes;
    4. Develop concepts for Virtual Operations Support Teams (VOST) 
        that allows for rapid expansion of capabilities by leveraging 
        trained and trusted personnel to respond both virtually via 
        external monitoring and response and as teams with crucial 
        skills for deployment to emergency operations center, and;
    5. The range of non-categorical issues raised in the report.
                               conclusion
    Social media has begun to play an integral role in emergency 
preparedness, response, and recovery. By understanding the way social 
media complements emergency management services, the future use of it 
can greatly enhance emergency management capabilities. Social media and 
its role in emergency management will continue to evolve. As the 
emergency management community shifts to accept this new form of 
communication, many aspects will need to be considered. A familiarity 
with social media will need to be established, the capabilities that 
pertain to emergency management will need to be identified and 
explored, verification of information will be a requirement and it will 
be critical to break down any barriers to implementation. Although the 
emergency management community is still in the experimental stages of 
using social media to convey important messages as well as receive 
information from the public, it represents the wave of the future.
    Again, I thank you for the opportunity to testify today and I 
welcome any questions you may have for me.

    Mrs. Brooks. Thank you, Mr. Ashwood. It is not that hard.
    [Laughter.]
    Mrs. Brooks. Everyone can try it.
    I would like to just turn it over to the gentleman from 
California for additional comments.
    Mr. Swalwell. Thank you, Chairwoman.
    I am happy to introduce our final witness, Sergeant W. Greg 
Kierce. Sergeant Kierce is the director of Jersey City Office 
of Emergency Management and if I am not mistaken, that is in 
Mr. Payne's Congressional district.
    Sergeant Kierce is the director of Jersey City Office of 
Emergency Management and Homeland Security, and is responsible 
for planning and coordinating all facets of the city's 
emergency response to large-scale events impacting the city and 
the region.
    Over 29 years of law enforcement experience, he has 
received four Department Class A Commendations, eight Excellent 
Police Service awards, and a World Trade Center award, among 
many other honors.
    I know how much Ranking Member Payne appreciates Sergeant 
Kierce traveling down to Washington to testify today. I want to 
thank you for being here as well and look forward to your 
testimony.
    Mrs. Brooks. Thank you.
    The Chairwoman now recognizes Sergeant Kierce for 5 
minutes.

 STATEMENT OF W. GREG KIERCE, DIRECTOR, JERSEY CITY OFFICE OF 
           EMERGENCY MANAGEMENT AND HOMELAND SECURITY

    Sergeant Kierce. Thank you, Congresswoman.
    Chairwoman Brooks and distinguished Members of the United 
States House of Representatives Committee on Homeland Security, 
I wish to extend my sincere appreciation to Representative 
Donald Payne, Jr. for affording me the opportunity to appear 
before you today.
    As technology continues to evolve, emergency management 
organizations must adapt to new ways of responding to the media 
and public. The way people communicate and receive information 
has gone through a radical transformation in the last few years 
with the invention of social media.
    The potential applications of social media information for 
disaster managers include providing, evidence of pre-incident 
activity, near real-time notice of an incident occurring, 
first-hand reports of incident impacts, and gauging community 
response to an emergency warning.
    This information will contribute towards effective 
decisions for emergency responses. Yet to do this, emergency 
services organizations need a reliable way to identify and 
analyze emerging topics that indicate a significant disaster, 
emergency event, or unexpected incident is occurring within a 
given time frame and at a given location.
    The Federal Emergency Management Agency wrote in its 2013 
National Preparedness report that during and immediately 
following Hurricane Sandy, ``users sent more than 20 million 
Sandy-related Twitter posts, or `tweets,' despite the loss of 
cell phone service during the peak of the storm.''
    New Jersey's largest utility company, PSE&G, said at the 
subcommittee hearing that during Sandy they staffed up their 
Twitter feeds and used them to send word about the daily 
locations of their giant tents and generators.
    ``At one point during the storm, we sent so many tweets to 
alert customers, we exceeded the number of tweets allowed per 
day,'' PSE&G'S Jorge Jose Cardenas, vice president of Asset 
Management and Centralized Services, told the subcommittee.
    Following the Boston Marathon bombings, one-quarter of 
Americans reportedly looked to Facebook and Twitter and other 
social networking sites for information, according to The Pew 
Research Center.
    The sites also formed a key part of the information cycle 
when the Boston Police Department posted its final 
``CAPTURED!!!'' tweet of the manhunt, more than 140,000 people 
retweeted it.
    Community members via a simple Google document offered 
strangers lodging, food, or a hot shower when roads and hotels 
were closed. Google also adapted its Person Finder from 
previous use with natural disasters.
    Emergency Responders are some of the biggest beneficiaries 
of social media. They also have to manage the challenges that 
these new networks present. Traditional lines of communications 
have been redrawn and social media has changed the singular 
authority that first responders require.
    As each disaster sparks its own complex web of fast-paced 
information exchange it can both improve disaster response and 
allow affected populations to take control of their situation 
as well as feel empowered.
    Drawing up an effective social media strategy and tweaking 
it to fit an emergency, however, is a crucial part of 
preparedness planning. As part of disaster preparedness it 
would be useful to teach the public how to use social media 
effectively, how to get information from the web, and also how 
to put out useful information.
    The challenge for first responders is how to integrate the 
directives that they formulate with the social media 
conversations impacted citizens are engaged in. Developing an 
informed public is the first step in getting both citizens and 
first responders working together.
    Applying social media tactics to corporate and Government 
crisis communication has several advantages.
    First, it brings credibility to your organization at a time 
when it is likely to be most needed. This occurs because the 
use of social media, including but not limited to blogging and 
podcasting, is inherently conversational and transparent 
allowing near real-time information to be disseminated to 
concerned citizens, employees, and the media.
    At the same time, it prompts discussion, debate, and 
feedback from the very people who most care about the crisis 
and who are more likely to shape the lasting perception of the 
incident once the immediacy dies down.
    Social media also guarantees your message will be heard. 
Because there are no press deadlines, no misinformed reporters, 
and no need for the use of information technology department, 
you can disseminate the information how you want to and as 
quickly as you want.
    Another benefit of social media is that it provides a 
unique and efficient way for crisis communicators to defend an 
organization's brand and reputation.
    For example, if a blog is speaking negatively about an 
organization or spreading false information, crisis 
communication can respond by posting counter remarks or linking 
to other blogs and on-line content that sets the record 
straight.
    Key points to consider as to the use of social media--you 
need to slow down the freight train that is coming at you. Use 
your social voice to let the public know you are aware of the 
situation, you are looking to find the answers, and you will be 
providing the facts as they become available. Putting the 
brakes on even a bit at time will slow the velocity.
    When the crisis hits, start setting up alerts and searches 
based on the information you have, and who is talking about it. 
Talk to your people and determine what is factual is and what 
is not. Here is the key to remember; if there is one ounce of 
truth to what has caused the crisis, then that is what is 
needed to focus on. Kill the rumors, provide the facts, and 
clarify the issues at play. This will remove the momentum.
    Tackle the issues head-on. This is not the time to try to 
spin the story or make excuses for what occurred. This is time 
for concrete facts and humility. ``We are sorry. We are human. 
We strive for better and you deserve better.''
    These are three sentences can suck the oxygen out of a 
fiery room and remove the fuel. Own the situation. Explain what 
was wrong, why it was wrong, and how you will prevent it from 
happening in the future. Once you do that, the worst that can 
happen is people will agree with you.
    Misinformation and competing directives can often come from 
unofficial sources and reach large numbers of people through 
viral distribution. On the other hand, social media allows 
first responders to communicate directly with citizens without 
having to rely on third parties like traditional media.
    A recent Red Cross survey asked 1,058 adults as to their 
use of social media sites in emergency situations. It found 
that if they needed help and couldn't reach 9-1-1, 1 in 5 would 
try to contact responders through a digital means such as 
email, websites, or social media.
    If web users knew of someone else who needed help, 44 
percent would ask other people in their social network to 
contact authorities, 35 percent would require post for help 
directly on response agency's Facebook page, and 28 percent 
would send a direct tweeter message to first responders.
    It is human nature to want to help people who need it. As 
social networks cut out the middle man in traditional media and 
put ordinary citizens in direct contact with those in emergency 
situations, the impulse to help is even stronger.
    As a result, people organize amongst themselves to solve 
problems. In some cases it is in concert with emergency 
professionals; however, in other situations it's not possible, 
and people act independently to issue help on the scene.
    Social media can help in both of these instances. The key 
to marshalling whatever help is available is to identify and 
prioritize needs that arise from the crisis and to track 
whether these needs are met.
    Because of the popularity of Facebook and Twitter, many 
help actions have begun on these networks but because they 
haven't been designed to do this kind of work; the utility is 
limited.
    One thing is clear, the public's use of social media in 
crises is growing. One of the many challenges this presents is 
the ability of first responders and governments to monitor the 
information and act on it in a timely manner.
    The advent of social media has revolutionized the ways 
people communicate and gather information about stories and 
topics that are important to them. This change has adversely 
affected the way public information officers must interact with 
the public and media during emergencies.
    By complementing your first emergency communication plan 
with social media techniques, your organization has a better 
chance of communicating messages, informing the public and 
media, and ultimately surviving a crisis situation.
    The first people to respond during a disaster are usually 
not trained responders or other professionals. Frequently, they 
are simply bystanders. The enormous potential of social media 
is to leverage this fact to turn bystanders into lifesavers.
    Also like to--New Technology; Mutualink Interoperability 
Communication Systems.
    Behind any collaborative and coordinated undertaking, there 
must be effective communications. There is a misconception that 
the Government can quickly and effectively respond in all 
incidents. In reality, a wide range of situations can occur in 
your community that requires varied degrees of response at 
different times of the situations.
    This is most often true in long-running or unfolding 
emergencies such as large natural or man-made disasters. In 
these situations, often the need for communications continuity 
across functions and sectors, such as communications among 
tactical, logistical, and public outreach, is often overlooked.
    This can hamper response, mitigation, and recovery efforts 
in many ways. This includes unnecessary traffic congestion or 
key transit points being blocked, medical, food, and shelter 
services being overwhelmed, and/or improperly located.
    During incidents many communications channels will reach 
peak capacity and alternate means of communications will be 
required to alleviate or supplement first-line communications 
resources.
    Enabling interoperable communications among disparate 
communications assets plays an important role in ensuring both 
seamless communication among different agencies and entities, 
regardless of the communications resources but also provides 
the needed flexibility to supplement availability and 
circumvent communications limitations when primary 
communications resources are unavailable.
    A wide variety of communications resources are available 
and used within our communities. These include a plethora of 
two-way radio systems, the public telephone system, mobile 
telephone, satellite, and broadband data working providing IP 
communications.
    Despite a decade of significant investments and concerted 
efforts, a pervasive National communication interoperability 
solution for emergency response has remained a bridge too far; 
at best, small pockets of interoperable communications ability 
existing among a few select agencies.
    With advanced and affordable interoperable communications 
resource sharing, these assets can be harnessed to provide a 
resilient and ubiquitous communications environment that will 
enable seamless communications across a multitude of partners, 
and provide critical communications paths with them.
    Developing----
    Mrs. Brooks. Sergeant, I need you to wrap up. Thank you.
    Sergeant Kierce. Thank you.
    Mrs. Brooks. Okay. Well, we just want to get to our 
questions. Any final comment?
    Sergeant Kierce. The final comment would be, Chairwoman, I 
just want to continue on this Mutualink, it will take just a 
couple of seconds.
    In 2009, for the first time, a public safety emergency 
response marine vessel was outfitted with an advanced 
multimedia interoperable emergency communications system that 
is currently in use in Jersey City.
    This vehicle was also pressed into service and during the 
historic flight on the Hudson and we were able to interoperate 
with--provide interoperable communications between all first 
responders and also provided real-time situational awareness 
video to the first hospitals and things of that nature.
    Thank you very much.
    [The prepared statement of Sergeant Kierce follows:]
                  Prepared Statement of W. Greg Kierce
                              July 9, 2013
    Chairman McCaul and distinguished Members of the United States 
House of Representatives Committee on Homeland Security I wish to 
extend my sincere appreciation to Representative Donald Payne, Jr. for 
affording me the opportunity to appear before you this morning.
    As technology continues to evolve, emergency management 
organizations must adapt to new ways of responding to the media and 
public. The way people communicate and receive information has gone 
through a radical transformation in the last few years with the 
invention of social media.
    The potential applications of social media information for disaster 
managers include providing:
  <bullet> evidence of pre-incident activity;
  <bullet> near real-time notice of an incident occurring;
  <bullet> first-hand reports of incident impacts;
  <bullet> gauging community response to an emergency warning.
    This information will contribute toward effective decisions for 
emergency responses. Yet to do this, emergency services organizations 
need a reliable way to identify and analyze emerging topics that 
indicate a significant disaster, emergency event, or unexpected 
incident is occurring within a given time frame and at a given 
location.
    The Federal Emergency Management Agency (FEMA) wrote in its 2013 
National Preparedness Report that during and immediately following 
Hurricane Sandy, ``users sent more than 20 million Sandy-related 
Twitter posts, or `tweets,' despite the loss of cell phone service 
during the peak of the storm.''
    New Jersey's largest utility company, PSE&G, said at the 
subcommittee hearing that during Sandy they staffed up their Twitter 
feeds and used them to send word about the daily locations of their 
giant tents and generators. ``At one point during the storm, we sent so 
many tweets to alert customers, we exceeded the [number] of tweets 
allowed per day,'' PSE&G'S Jorge Cardenas, vice president of asset 
management and centralized services, told the subcommittee.
    Following the Boston Marathon bombings, one-quarter of Americans 
reportedly looked to Facebook, Twitter, and other social networking 
sites for information, according to The Pew Research Center.
    The sites also formed a key part of the information cycle: When the 
Boston Police Department posted its final ``CAPTURED!!!'' tweet of the 
manhunt, more than 140,000 people re-tweeted it.
    Community members via a simple Google document offered strangers 
lodging, food, or a hot shower when roads and hotels were closed. 
Google also adapted its Person Finder from previous use with natural 
disasters.
    Emergency Responders are some of the biggest beneficiaries of 
social media, they also have to manage the challenges that these new 
networks present. Traditional lines of communication have been redrawn 
and social media has challenged the singular authority that First 
Responders require.
    As each disaster sparks its own complex web of fast-paced 
information exchange it can both improve disaster response and allow 
affected populations to take control of their situation as well as feel 
empowered.
    Drawing up an effective social media strategy and tweaking it to 
fit an emergency, however, is a crucial part of preparedness planning. 
As part of disaster preparedness it would be useful to teach the public 
how to use social media effectively, how to get information from the 
web and also how to put out useful information.
    The challenge for First Responders is how to integrate the 
directives that they formulate with the social media conversations 
impacted citizens are engaged in. Developing an informed public is the 
first step in getting both citizens and first responders working 
together.
    Applying social media tactics to corporate and Government crisis 
communication has several advantages.
    First, it brings credibility to your organization at a time when it 
is likely to be most needed. This occurs because the use of social 
media--including but not limited to blogging and podcasting--is 
inherently conversational and transparent allowing near real-time 
information to be disseminated to concerned citizens, employees, and 
the media. And at the same time, it prompts discussion, debate, and 
feedback from the very people who most care about the crisis and who 
are more likely to shape the lasting perception of the incident once 
the immediacy dies down.
    Social media also guarantees your message will be heard. Because 
there are no press deadlines, no misinformed reporters, and no need for 
the use of your Information Technology department, you can disseminate 
the information how you want and as quickly as you want.
    Another benefit of social media is that it provides a unique and 
efficient way for crisis communicators to defend an organization's 
brand and reputation. For example, if a blog is speaking negatively 
about an organization or spreading false information, crisis 
communicators can respond by posting counter remarks or linking to 
other blogs and on-line content that sets the record straight.
    Key points to consider as to the use of social media:
  <bullet> You need to slow down the freight train that is coming at 
        you. Use your social voice to let the public know you are aware 
        of the situation, you are looking to find the answers, and you 
        will be providing the facts as they become available. Putting 
        the brakes on even a bit at a time will slow the velocity.
  <bullet> When the crisis hits, start setting up alerts and searches 
        based on the information you have, and who is talking about it. 
        Talk to your people and determine what is factual and what is 
        not. Here is the key to remember--if there is one ounce of 
        truth to what has caused the crisis, then that is what you need 
        to focus on. Kill the rumors by provide the facts and clarify 
        the issues at play. This will remove the momentum.
  <bullet> Tackle the issues head on. This is not the time to try to 
        spin the story or make excuses for whatever has occurred. This 
        is time for concrete facts and humility. ``We're sorry. We're 
        human. We strive for better and you deserve better.'' These 
        three sentences can suck the oxygen out of a fiery room and 
        remove the fuel. Own the situation. Explain what was wrong, why 
        it was wrong, and how you will prevent it from happening in the 
        future. Once you do that, the worst that can happen is people 
        agree with you.
  <bullet> Misinformation and competing directives can often come from 
        unofficial sources and reach large numbers of people through 
        viral distribution. On the other hand, social media allows 
        First Responders to communicate directly with citizens without 
        having to rely on third parties like traditional media.
    A recent Red Cross survey asked 1,058 adults about their use of 
social media sites in emergency situations. It found that if they 
needed help and couldn't reach 
9-1-1, 1 in 5 would try to contact responders through a digital means 
such as e-mail, websites, or social media. If web users knew of someone 
else who needed help, 44 percent would ask other people in their social 
network to contact authorities, 35 percent would post a request for 
help directly on a response agency's Facebook page and 28 percent would 
send a direct Twitter message to responders.
    It is human nature to want to help people who need it. As social 
networks ``cut out the middle man'' in traditional media and put 
ordinary citizens in direct contact with those in emergency situations, 
this impulse to help is even stronger. As a result, people organize 
amongst themselves to solve problems. In some cases this is in concert 
with emergency professionals; however, in other situations it's not 
possible, and people act independently to issue help on the scene. 
Social media can help in both of these instances. The key to 
marshalling whatever help is available is to identify and prioritize 
needs that arise from the crisis and to track whether these needs are 
met. Because of the popularity of Facebook and Twitter, many help 
actions begin on these networks but because they haven't been designed 
to do this kind of work, their utility is limited.
    One thing is clear--the public's use of social media in crises is 
growing. One of the many challenges this presents is the ability of 
first responders and governments to monitor this information and act on 
it in a timely manner.
    The advent of social media has revolutionized the way people 
communicate and gather information about stories and topics that are 
important to them. This change has adversely affected the way public 
information officers must interact with the public and media during 
emergencies. By complementing your emergency communication plan with 
social media techniques, your organization has a better chance of 
communication messages, informing the public and media and ultimately 
surviving a crisis situation.
    The first people to respond during a disaster are not usually 
trained responders or other professionals--frequently, they are simply 
bystanders. The enormous potential of social media is to leverage this 
fact to turn bystanders into lifesavers.
     new technology: mutualink interoperable communications system
    Behind any collaborative and coordinated undertaking, there must be 
effective communications. There is a misconception that the Government 
can quickly and effectively respond in all incidents. In reality, a 
wide range of situations can occur in your community that requires 
varied degrees of response at different times of the situations.
    This is most often true in long-running or unfolding emergencies 
such as large natural and man-made disasters. In these situations, 
often the need for communications continuity across functions and 
sectors, such as communications among tactical, logistical, and public 
outreach, is often overlooked.
    This can hamper response, mitigation, and recovery efforts in many 
ways. This includes unnecessary traffic congestion or key transit 
points being blocked, medical, food, and shelter services being 
overwhelmed, and/or improperly located. During incidents many 
communications channels will reach peak capacity and alternate means of 
communication will be required to alleviate or supplement first-line 
communications resources.
    Enabling interoperable communications among disparate 
communications assets plays an important role in ensuring both seamless 
communications among different agencies and entities, regardless of 
their communications resources, but also provides the needed 
flexibility to supplement availability and circumvent communications 
limitations when primary communications resources are unavailable.
    A wide variety of communications resources are available and used 
within our communities. These include a plethora of two-way radio 
systems, the public telephone system, mobile telephone, satellite, and 
broadband data networks providing IP communications.
    Despite a decade of significant investments and concerted efforts, 
a pervasive National communication interoperability solutions for 
emergency response has remained a bridge too far with, at best, small 
pockets of interoperable communications ability existing among a few 
select agencies.
    With advanced and affordable interoperable communications resource 
sharing, these assets can be harnessed to provide a resilient and 
ubiquitous communications environment that will enable seamless 
communications across a multitude of partners, and provide critical 
communications paths among them.
    Developing partnerships, engaging in planning and practice, and 
utilizing new and affordable communications bridging technology to 
facilitate communications among partners is essential to modern-day 
emergency preparedness and response best practices.
    The Mutualink Interop Network is a ground-breaking method of 
connectivity. The network operates in a peer-to-peer environment that 
can be accessed via dedicated or virtual connections. The plug-and-play 
structure of the network eliminates complex and expensive 
configurations.
    Entities joining the Mutualink Interops Network are ``automatically 
discovered'' by all existing network participants make the 
determination whether to include new Mutualink subscribers in their 
visible list of network peers. Additionally, network participants can 
search the directory by geography and entity type developing 
communities of similar agencies.
    Communications on the secure Mutualink Network are end-to-end 
encrypted using Federally-approved AES ciphers and are mutually 
authenticated using standard-based public-key cryptography.
    An Interoperability WorkStation serves two primary functions: It is 
the point of communication between two entities on the network for 
voice, text, and sharing data files; it is also the control point by 
which resources may be contributed to the incidents.
    The Interoperability WorkStation (IWS) allows users to communicate 
in several distinct methods:
  <bullet> Intercom allows communications between Interoperability 
        Workstations during an incident.
  <bullet> Transmit broadcasts to radio and other resources 
        participating in incidents and IWS users can text messages and 
        share video feeds and data files with other incident 
        participants.
    Additionally, portable configurations of the Interoperability 
WorkStation can be moved, at any time to pre-determined destinations 
with qualified broadband access, providing users with back-up dispatch 
capabilities.
    It is a well-established fact that most of the NYC police and fire 
department first responders at the World Trade Center in the immediate 
aftermath of the 9/11 terrorist attacks had virtually no ability to 
communicate with each other. That utter lack of ``interoperability'' 
has been enshrined in the history books as one of the monumental 
shortcomings of that tragic day.
    It is far less known that almost 8 years later, on the day that 
Captain Chesley Sullenberger brought his Airbus A320 airliner down 
safely in what has since been dubbed ``The Miracle on the Hudson,'' 
that many of the police, fire, and emergency services agencies on the 
New Jersey side of the Hudson River--as well as many of the nearby New 
Jersey hospitals--were able to benefit from a remarkable degree of 
communications interoperability.
    At the request of the New Jersey State Police OEM the Jersey City 
OEM Homeland Security Mobile Command/Communications vehicle equipped 
with the Mutualink Interoperability system was dispatched that day to 
Weehawken, NJ.
    On-board cameras connected thru the Mutualink system focused on the 
floating, crippled aircraft, where they were able to capture video 
images of the stunned passengers, and share those images in real-time 
with area hospitals, emergency rooms, other public safety agencies and 
local command centers.
    In October 2009 for the first time, a public safety emergency 
response marine vessel was outfitted with an advanced multimedia 
interoperable emergency communications platform enabling seamless 
communications, and video and information sharing among agencies both 
in the water and on the ground.
    The system, developed by Mutualink, allows real-time coordination 
during incident response by enabling communications between 
incompatible two-way and push-to-talk radios, telephone PBX systems, 
and mobile telephones, along with the ability to share and view live 
feeds from video camera networks traditionally not accessible by remote 
parties. Following 9/11 and Hurricane Katrina, attaining 
interoperability between technologies that are normally incompatible 
with each other to improve response has been a Federal priority.
    The state-of-the-art boat dedicated in the honor of fallen police 
officer Marc Dinardo was acquired by the Jersey City Office of 
Emergency Management/Homeland Security thru Department of Homeland 
Security (DHS) Urban Area Security Initiative (UASI) funds and is 
operated by the Jersey City Police Emergency Services Unit. It patrols 
the same Hudson River waters where US Airways Flight 1549 made a 
successful water landing and supplements maritime assets of the NYPD, 
NJSP, and the U.S. Coast Guard.
    In 2012 a Bomb Command vehicle was purchased for the Jersey City 
Police Emergency Services Unit thru DHS UASI funding and this to was 
outfitted with a Mutualink system. As was the case with the marine 
vessel, Mutualink designed a special application providing connectivity 
to the on-board bomb robot enabling bomb technicians to share video 
with counterparts throughout the country greatly enhancing information-
sharing capabilities.
    Mutualink CEO Mark Hatten credits the success of the project to 
Jersey City's progressive leadership and commitment in the area of 
homeland security and emergency preparedness. ``Jersey City has been at 
the forefront of interoperable emergency communications and from the 
beginning it has been a guiding force in helping us shape a solution 
that meets the rigors and needs of responders and personnel in real 
situations. The maritime interoperable communications deployment 
directly results from Jersey City's vision of enabling unified 
communications capabilities across all environments,'' stated Hatten.
    Previous projects with Jersey City included the installation of 
Mutualink into their mobile command vehicle, the first to operate over 
a wireless data connection, as well as into their Emergency Operations 
Center. Hatten added, ``When Jersey City came to us with the idea of 
doing a marine deployment, we saw it as a great opportunity for both 
sides to work together and make it a reality.'' Mutualink developed a 
hardened interoperable work station that can be used not only in harsh 
maritime environments experienced by tactical and response boats, but 
also in other severe land-based environments.
    The successful deployment into a marine environment required 
Mutualink to engineer a new piece of hardware capable of operating in 
extreme environmental conditions. A new Interoperability Work Station 
(IWS) was developed within an IP67-rated waterproof enclosure requiring 
no outside ventilation for cooling and flash drive technology was 
incorporated to handle the excessive vibrations and pounding a boat 
typically experiences on the water at high speeds. A Furuno 17'' LCD 
screen displays the Mutualink software and video while communication 
audio is capable of coming over an amplified speaker system or a 
privacy handset. Data connectivity is accomplished using a 
Firetide<SUP>TM</SUP> wireless mesh network with antennas directed out 
over the water carrying the encrypted data back to land where it then 
rides Jersey City's fiber network. Mutualink can also operate in a 
mobile environment over satellite and cellular data networks.
    Mutualink has significantly enhanced our capabilities to react and 
respond internally but also our ability to interoperate with any other 
agency on the network including many of our neighbors and critical 
assets in the private sector to include:
  <bullet> Newport Shopping Mall (Directly connected to inter-state 
        (PATH) and inter-county transit (Hudson Bergen Light Rail) 
        systems).
  <bullet> New Jersey City University, Saint Peters University.
  <bullet> Jersey City Public School System (Sixteen facilities with 
        approximately 35 thousand students).
  <bullet> Jersey City Medical Center (Level 2 trauma center).
  <bullet> Christ Hospital.
  <bullet> Jersey City 9-1-1 Emergency Communications Center.
  <bullet> Port Authority of NY/NJ Police Communications Desk.
  <bullet> Goldman Sachs (Jersey City Gold Coast Financial area).
  <bullet> Le Frak organization (Largest property owner of residential 
        and commercial properties located in the Hudson River Newport 
        area).
  <bullet> Mack-Cali properties.
    This is all accomplished using the same communications 
infrastructure we already have in place. Newark, Paramus, Trenton, and 
Atlantic City are just some of the New Jersey cities already using the 
Mutualink system along with 22 area hospitals in northern New Jersey 
which can now interoperate via dispatcher, radio, video, and text 
messaging.
    Enhanced communications continue to be of vital importance for 
effective response to disasters. Lack of communications directly 
contributes to low levels of situational awareness for both high-level 
commanders and emergency responders in the field.
    When all lines of contact are down, effective response to disaster 
is greatly diminished. Establishing and maintaining lines of direct 
contact between decision makers, formal and informal responders, 
Government officials, and the public is a primary objective in any 
emergency planning or response scenario.
    A continuing reexamination of providing emergency communications is 
critical for lessening their impacts of future disasters. Utilizing 
advances in technology that allow for higher degrees of mobility for 
communications systems introduces a new level of flexibility for 
operational command structures.
    In closing, I would like to once again express my sincere gratitude 
for affording me this opportunity to appear before you today.

    Mrs. Brooks. Thank you, Sergeant.
    At this time, I would like to recognize myself for 5 
minutes of questions.
    I think it is clear from what we have heard that social 
media and the use and the dependence by the public, it is 
obvious, and so I think a critical issue, I am going to start 
out with you Mr. Ashwood, because you obviously talked about 
what happened in Oklahoma and our thoughts and our prayers are 
with those who are now recovering, and I know it is going to 
take a long time to recover from such devastating tornadoes. 
You talked about how social media was relied upon and was used 
in Oklahoma.
    What my concern is, and from my time with talking with 
first responders in Indiana, is how are the personnel in your 
agencies--whether it is in Oklahoma or on behalf of NEMA--you 
are representing, you know, National emergency managers--what 
kind of training are people receiving on the use of social 
media either from Federal Government sources such as FEMA or 
from any other source?
    What kind of training do people have, because when I think 
as I mentioned before the hearing began at a conference where I 
recently spoke to several hundred personnel from Indiana 
focused on emergency management--when I talked about social 
media, everyone was quite nervous. I could tell that people are 
very nervous about their lack of preparedness, their lack of 
abilities, and so what are we doing with respect to training?
    Mr. Ashwood. Well, I think it is important to say that of 
course social media is an evolutionary process that we are 
going through right now. It is not just Twitter and Facebook, 
it is what it might be 10 days from now or 5 years from now, 
and we need to make sure that we stay as close to the curve as 
possible and a lot of that has to do with the training and what 
exactly we offer and what exactly we take.
    The opportunities are there. FEMA does a good job of making 
opportunities available for social media training as well as 
other entities. Our staff in Oklahoma has taken training, but 
more importantly, we have distributed the training to our local 
emergency managers. We have done that through our public 
information officers' course.
    We have also done that through a homeland security course 
that is offered through FEMA that we have utilized as well. So 
getting it down to the very lowest levels to me is more 
important than what even we have at the State level.
    We need to make sure that the grassroots effort of knowing 
that social media is there and it is part of our existence and 
that it is part of our response and recovery efforts from this 
point forward is more important than exactly what my staff has 
even right now that they will also get it as well.
    I know that is going to be different from State to State. I 
can only speak on Oklahoma with this issue, but the 
opportunities are there is what I will say. Whether or not they 
are taken advantage of, it depends on each State.
    Mrs. Brooks. Thank you.
    I would like to--I have a question for FEMA, for Mr. 
Adamski.
    One of the things that we learned not only in the survey, 
but from our hearing, at the last hearing we had on social 
media with the private sector was that the data extraction 
efforts at all levels are reliant upon a manual review often 
making monitoring efforts difficult to scale up during large 
disasters.
    We know that Red Cross has their digital operation center 
to help monitor the high volume of social media posts, but we 
heard from Google and Palantir and other companies that there 
is software support to help the first-responder communities and 
nonprofit organizations collect and analyze this information.
    How is FEMA using these analytical tools to help sift 
through all of the data? How are you partnering with the 
private-sector companies to take the tools that they are 
creating? How is FEMA using this in this effort and then 
pushing it out to the State and locals?
    Mr. Adamski. Absolutely. Thank you, Madam Chairwoman, for 
the question.
    For the last couple of years, we have been doing it 
manually, which I believe is a tip to our hat in the fact that 
we have staff who are trained and who are doing that human 
analysis.
    To your point about the volume of data and scaling it, that 
is why, we are, when we have recently been looking at tools 
where we can automate the analysis, when we do social listening 
similar to what the Red Cross does. So we can look for those 
trends as well as to improve and increase our operational 
efficiencies as well.
    So we do training with both our headquarters staff as well 
as our regional staff as well, who are digital communication 
specialists and they share those lessons learned and share best 
practices with their State counterparts and with all of their 
counterparts across all levels of Government as well and we 
also share best practices with international counterparts as 
well.
    So it is looking at how we can now learn from previous 
disasters as well as our relationships with the private sector 
of how we can utilize their tools if there are new trends and 
that are out there as well as looking at articles and best 
practices that anybody out in the private sector is using with 
regard to the tools to provide good customer service and 
stakeholder outreach.
    Mrs. Brooks. How large is FEMA's digital engagement team 
and what kind of training actually since so many rely on FEMA, 
to then create the training and push it out, can you share with 
us just very briefly?
    Mr. Adamski. Absolutely. It is about 20 people. That 
includes both headquarters staff, regional staff who are in our 
regional offices, as well as our joint field offices. So the 
digital communication staff have regular interactions with 
their counterparts both--in the digital presence or on digital 
and social media as well as all communication channels sharing 
those best practices with their counterparts and answering 
questions.
    Mrs. Brooks. Thank you.
    I now turn it over to the gentleman from California for any 
questions.
    Mr. Swalwell. Thank you. I wanted to start with Mr. 
Adamski.
    At the last hearing we heard from private-sector witnesses 
that although social media has allowed us to make great strides 
in how we respond to disasters or emergencies, the lack of 
uniform open-source data standards hindered the abilities of 
companies like Google to develop social media tools during 
disasters.
    Can you elaborate a little bit on what exactly they are 
talking about and what you are doing and efforts that FEMA is 
taking to address this?
    Mr. Adamski. Absolutely. I appreciate the question.
    With regard to open standards and common alerting 
protocols, as the representative from Google had referenced, 
that is one thing as they are saying that National Weather 
Service is taking advantage of.
    That is one thing that we are looking at. How can we 
improve and do a better job of providing our information out 
there to their points so anybody can go out there and use it, 
it is not customized to one audience or one technology? It is 
platform agnostic.
    Mr. Swalwell. Just as an example, this would mean say FEMA 
puts like a PDF or something on its website, that would not be 
able to transfer to all of the other types of operating formats 
that Google or other social media sites have. Is that as you 
understood it?
    Mr. Adamski. Correct, because it is static. It is not 
dynamic. It can't be read by other machines and any time you 
use human intervention, then you are actually, to their point, 
you are actually creating more time to work on it.
    Mr. Swalwell. In your testimony, you discussed FEMA's 
efforts to stop the spread of misinformation through its rumor-
control website, and to me this sounds a lot like a website I 
use called Snopes. Are you familiar with Snopes?
    My dad will send me crazy emails. I am like, ``Dad, just go 
to Snopes. This is not true. It will debunk it.''
    Can you talk a little bit about the rumor control and how 
you are sharing these best practices with local governments so 
that they can employ this as well?
    Mr. Adamski. Absolutely. The one thing that we saw from 
Sandy because we did social listening, we saw there was a huge 
number of false information and false rumors that were out 
there.
    So we wanted to be able to, on all of our digital 
platforms, correct that information as well as let our partners 
be force multipliers and point--and if they heard that rumor 
whether 6 hours later or 2 days later, because we did see that 
the same rumors kept rearing their heads back up.
    So using our stakeholders to be force multipliers we found 
to be very successful. We do find that after every disaster 
there are sometimes rumors or misinformation as part of normal 
course.
    Not necessarily to the scale of what we saw with Hurricane 
Sandy, but after even the Oklahoma tornadoes, we created a 
small page to help correct any misinformation about disaster 
services, programs, and things like that.
    That is another piece of information when our regional 
staff as well as headquarters staff are interacting we talk 
about those best practices and how can they be utilized and why 
and how social listening is important.
    Mr. Swalwell. Great.
    Ms. DeFrancis, going back to the digital divide, can you 
describe what efforts the Red Cross is taking to ensure that 
traditional forms of communication are preserved as social 
media is still being integrated into disaster response?
    Ms. DeFrancis. Sure. Thank you for that question. As I 
mentioned, TV, radio, and on-line websites are still the place 
that most people go to get their information. So we make sure 
that we have a very strong presence on all of those operations.
    We have an advanced public affairs team that goes to the 
site of every disaster to communicate information to the 
public. We are getting out in advance of a, you know, a 
disaster we know is coming, we are putting out information in 
advance about how to prepare through all those traditional 
means.
    So we feel very strongly that--in fact, I remember during 
Sandy, we knew we were getting through to a community when they 
were tired of hearing our bullhorn coming through the streets, 
but we feel very strongly that we need to continue to employ 
those traditional means of conditions----
    Mr. Swalwell. All of the above of course.
    Ms. DeFrancis [continuing]. Recognized. Yes.
    Mr. Swalwell. Great.
    Finally, Sergeant Kierce, I wanted to talk a little bit 
about the Urban Area Security Initiative grant also known as 
UASI. We have in our district, the Alameda County Sheriff's 
Office, they put on what is called Urban Shield; it is a 
training exercise that actually, the Boston Police Department 
attended and then they put on their own Urban Shield to train 
first responders and evaluate how they respond to terrorist 
situations like a mass transit casualty situation, and I am 
wondering how have programs like that Homeland Security Grant 
program helped Jersey City achieve the interoperability 
capabilities that you have talked about?
    Sergeant Kierce. Well, Congressman, basically with the 
Urban Area Security Initiative, Jersey City and Newark are the 
two main cities that make up the Jersey City/Newark UASI with 
the 7 contiguous counties.
    As I started to get into the program Mutualink, it allowed 
two things. It established interoperability between all of the 
different agencies that respond to events both in Jersey City 
and Hudson County and for the entire region.
    It also allowed us to share or establish a private-sector 
information-sharing platform where the Jersey City waterfront 
houses many of the large financial entities that obviously are 
involved in global economy, and we always had reason to have to 
get information to them as quickly as possible because of 
anything that could impact them.
    What we have done through the UASI dollars has been able to 
embrace a program where we can actually bring these folks in 
and you are dealing with real-time situational awareness, 
receiving information once it is vetted with us for accuracy, 
and it helps them actually, you know, perform their business, 
but without this UASI dollars, none of this would have been 
possible.
    Mr. Swalwell. Great. Thank you, Sergeant Kierce.
    Thank you, Chairwoman.
    Mrs. Brooks. The Chairwoman will now recognize other 
Members of the subcommittee for questions they may wish to ask 
of the witnesses, and in accordance with our committee rules 
and practice, I plan to recognize Members who were present at 
the start of the hearing by seniority on the subcommittee and 
those coming in later will be recognized in order of arrival.
    So at this time, I would recognize the gentleman from 
Mississippi, Mr. Palazzo for 5 minutes.
    Mr. Palazzo. Thank you, Chairwoman Brooks, and thank you 
for holding this timely, relevant, and extremely important 
hearing especially because we are only 39 days into hurricane 
season.
    In Part I of this hearing a couple of months ago, I 
highlighted the fact that when Hurricane Katrina devastated my 
district in the Gulf Coast in 2005, Facebook was still an 
infant relatively speaking, Twitter was nonexistent, and the 
first iPhone wouldn't come out for almost a year later.
    I also highlighted the use of social media during Hurricane 
Sandy where millions of people went to social media, shared 
information, watched live Twitter feeds, and checked up on 
loved ones.
    But despite the explosion of social media used during 
disasters, many people don't know where to go for credible 
information. Although most of it--if not, almost most--excuse 
me--although most, if not all States have emergency agencies 
and they have Twitter handles, their followers pale in 
comparison to the actual population of each State.
    For example, Mississippi has a population of 3 million, but 
the Mississippi Emergency Management Agency only has 8,000 
followers on its Twitter page. New Jersey has 13,000 followers 
despite 9 million citizens. The State of New York has 19 
million residents, but its emergency management Twitter handle 
only has 64,000 followers.
    These State agencies constantly provide disaster warnings, 
preparation tips, and critical information, yet only a fraction 
of Americans directly follow their social media pages.
    This morning, I tweeted links to the social media pages of 
Mississippi's Emergency Management Agency, FEMA, the Red Cross, 
and the Mississippi Department of Transportation. I encourage 
all of my colleagues on this committee and in Congress to do 
the same and encourage their constituents to follow their own 
State emergency management agency's social media page.
    By tweeting this information, our constituents can know 
where to go for on-line information before, during, and after a 
disaster strikes and won't have to make judgment calls as to 
whether the information they are getting is credible.
    So this leads to my question. How can FEMA, State agencies, 
and Red Cross quickly and better develop a large on-line 
presence that people will instinctively know where to go for 
credible information?
    Ladies first.
    Ms. DeFrancis.
    Ms. DeFrancis. Thank you, Congressman.
    Well, we have been working at it for a while. I mean, we 
just, I think last week, we passed our 1 millionth Twitter 
follower, which we were very proud of, and we have about over 
half a million on Facebook, and of course we are on a lot of 
the other platforms.
    If I could just recognize in the room is Wendy Harman who 
helped build our social strategy at the Red Cross and now she 
is moving into our disaster operations team to help integrate 
this information because it is great to have Twitter followers, 
it is great to have Facebook, but it is when you want to get 
their information to people that can actually help them, get 
them meals--that is what we need to do is really integrate it 
better.
    So we continue to build that presence and cross, so I mean 
when we are giving a TV interview, we are telling people, you 
know, to go check our Twitter site. We are trying to cross-
reference all of that and they are all part of I think a really 
seamless 21st-Century communications shop.
    I think the other thing we would say is that we are trying 
to push social media out of just the public affairs shop. It 
should be really part of all of our operations, whether it is 
our blood centers, our, you know, our disaster people of 
course, our health and safety, everyone in a--who is a subject 
matter expert in a particular area of the Red Cross should be 
able to use social media. It shouldn't just be handled by the 
public affairs people. We call that making it part of our 
operational DNA.
    Mr. Palazzo. Thank you.
    Mr. Adamski.
    Mr. Adamski. No, I appreciate the question. It is a 
question that we get an awful lot because the public doesn't 
also--they don't realize that FEMA as a Government agency or 
even on Twitter, to your point.
    So just like any organization in the private sector who 
needs to do outreach education, we have to do that for 
ourselves as well as we help with amplifying local and State 
messages as well as accounts to your point as well, as well as 
Red Cross and local Red Cross chapters, to help get that 
information out there and help share to be a force multiplier 
for our partners across all levels of Government.
    The other piece where we try and enforce it with outreach 
is on the preparedness side of making sure that folks have a 
digital plan, that they know about those resources ahead of 
time.
    The other thing I will note real quickly as well is the 
wireless emergency alerts which is a new tool that is out there 
is it allows folks who have a newer phone to receive alerts in 
an area where a local emergency manager would send out that 
alert.
    So the great thing about it is that you don't need to 
subscribe or even know about it.
    The one thing we are doing is educating folks on what those 
alerts mean and that they should follow those local warnings 
from local officials because the reason that they are pushing 
that message out is because there is an imminent threat or 
possibility for severe weather for example.
    So it is constant education and amplification of all of our 
partners' messages and accounts.
    Mr. Palazzo. Well, thank you. If the Chairwoman would 
indulge me for one more second, this past week we had some 
severe weather in our district and my phone started alerting 
me.
    I didn't even know Verizon had an alert messaging system. 
So those things are really handy and the fact that everybody 
has some form of mobile device and have become quite dependent 
upon it I think is extremely important.
    But also I always want to thank our first responders--I am 
definitely tongue-tied today--our emergency operation 
personnel, our National Guard members, our Salvation Army, our 
Red Cross.
    If people don't think that they go into harm's way, I just 
want to share a photo from February 10, 2013. We had an E4 
tornado in Hattiesburg, Mississippi. It was large. It was 
violent. That is one of the disaster relief trucks of the 
American Red Cross.
    So we thank you and we depend on you before, during, and 
after a storm.
    Thank you very much.
    Mrs. Brooks. Thank you, Mr. Palazzo, well said.
    I would now like to recognize the gentleman from 
Pennsylvania, Mr. Perry, for 5 minutes.
    Mr. Perry. Thank you, Madam Chairwoman.
    This question essentially goes to Mr. Adamski, at least 
initially.
    I believe that Twitter has been and is a very effective 
tool in relaying information during emergency situations. 
Unfortunately--I know we have heard a lot of good news stories 
today, but I think we are charged with kind-of looking at every 
facet, so unfortunately, following the Boston bombings, there 
were several tweets containing damaging or potentially damaging 
misinformation.
    For example, there was an explosion at the JFK Library in 
Boston which was connected to the original blasts or a Saudi 
Arabian national has been arrested over the bombing or a Muslim 
with shrapnel wounds is being guarded in a hospital as a person 
of interest or blood donors are needed now, people need to go 
and give blood now.
    With individuals allowed to tweet and post any information 
they choose, how do we guard against the spread of 
misinformation that can prove detrimental to the safety of 
first responders and victims and--I understand that you have 
the rumor page, but then it leads to another question as well, 
is what is the job, what is the role of Federal agencies and 
what is the role of the private sector and where do we draw the 
line and when we figure that out, and how do we figure that out 
in this quickly-evolving arena?
    Mr. Adamski. Absolutely. I appreciate the question.
    As you know, in our role at FEMA, we coordinate emergency 
response to disasters as well as support all levels of 
government. With regard--you are correct with regard to social 
media as far as there being the bad actors out there which is 
why it is even more important to make sure that agencies are 
doing a social listening.
    Misinformation can come in through other communication 
mediums as well, whether it is news reports, whether it is 9-1-
1. I often like to use the analogy that folks can call 9-1-1 
and call in a false report. Obviously, there are mechanisms in 
place to be able to root those out and figure out if it is a 
false report and whatnot. So even though social media is new, 
they are still going to be bad actors but there are also bad 
actors in other communication mediums as well.
    With regard to FEMA and the social listening that we do, we 
do it within the scope of our mission of disasters and 
emergency management and to the extent where we can help our 
Government partners across the board we will.
    I know often our regions will reach out to their State 
counterparts if there is a disaster in their State and ask them 
if they need any assistance with social listening for example.
    Or at least--and if they don't at that time, at least they 
know that that is a service that our digital communications 
specialists can help with as we help support our States in that 
nature, but again, we are looking at it through the lens of 
disasters and emergency management.
    To your point, it is important across all sectors that 
because that information and that conversation is occurring, 
that folks do participate in social listening.
    Mr. Perry. You know, social listening, it is a term that 
has been bandied about here and I don't know that it is in most 
people's lives, but, you know, it leads, at least for me, it 
leads to other questions.
    At the least in late of events occurring in the Federal 
Government recently regarding the IRS or what-have-you and you 
think about applications like Google's People Finder or social 
listening in particular and even the alert that the gentleman 
for Mississippi got on his phone and I am wondering if, you 
know, do people know?
    Is this mostly--did you know that you have the application? 
Do you want the application? What about HIPAA violations? You 
know, somebody tweets that their grandmother's X and sends it 
to Ms. DeFrancis at the Red Cross or something like that. Are 
there HIPAA violation concerns?
    How--you know, I am not home right now because of my home 
has just been half obliterated and I am down at the neighbors 
and then the looter at the next town says, ``Okay, well that is 
my next target.'' I mean, how do we handle those things?
    Mr. Adamski. No, absolutely. I think the public using any 
social communication tool needs to be cognizant and aware that 
if they are posting information in real time or if they are 
posting personally identifiable information that anybody can 
see that.
    Even if their account is locked we recommend that they 
don't post that information to your point that it is personally 
identifiable information.
    If we do see somebody who either sends us an email or 
tweets at us or sends us a fake Facebook post and they have 
that information in there that can personally identify them 
then we will respond back asking them not to continue using 
those communication mediums but we will give them a way to 
where--an off-line way--to where we can communicate with them 
as it fits into our normal operation so then they can feel 
secure that their information won't be shared and that we won't 
be sharing their information with--in the public space. So to 
your point that others won't be able to see it.
    Mr. Perry. Finally, in your interaction with your partners, 
whether it is Twitter or whether it is Google, what have you, 
is there ever any concern at least from their part expressed to 
you about agencies like FEMA or other Government agencies 
competing in a way and their domains and their intellectual 
properties in these applications and so on and so forth?
    I mean, I know you are trying to be proactive and we 
applaud you for that, but I think we need to make sure that we 
are moving with diligence in that regard. I just wonder if that 
has ever been an issue that you have discussed.
    Mr. Adamski. They haven't, no, they haven't raised the 
concern. To your point about we are being diligent in how we 
use the tool to make sure that we aren't sharing PII 
information, personally identifiable information. Absolutely.
    Mr. Perry. Thank you.
    Thank you, Madam Chairwoman.
    Mrs. Brooks. Thank you.
    Question for Ms. DeFrancis.
    I just want to--you talked about volunteers around the 
globe actually assisting with you and we had a weekly SMEM chat 
on Twitter and we learned that virtual operation support teams 
are volunteer teams that lend support via the internet to 
emergency managers and first responders who are overwhelmed by 
the volume of data that you might get created after a disaster.
    Has Red Cross--is that the type of team that you are 
referring to? Have they leveraged these virtual operation 
support teams for your disaster relief efforts? How were they 
used? I am curious how they were used, and then I would like 
the others to answer as well.
    Ms. DeFrancis. Sure. Well, many of the individuals on the 
VOS, virtual operations teams, are also Red Cross digital 
volunteers. So these are people who have an interest in helping 
during a time of disaster to help organizations get out the 
information they need as broadly as they can.
    So while we have not use VOS specifically and they are best 
at spotting trends and things like that, we have many of our 
digital volunteers are also members of that and we train our 
volunteers in Red Cross-specific answers. They are not just 
spotting trends. There are also able to say you need to go here 
for shelter. You need to go here for food and water.
    So we do have a training program to enable us to do that 
and be able to scale up. I think that it is an important--you 
know, you don't keep a big staff. We have like three in our 
National headquarters. Our chapters all are tweeting as well 
and posting on Facebook, but you can't keep a big staff all the 
time.
    You need to have a way to scale up because we go from 4- or 
5,000 mentions a day to, you know, tens of thousands of 
mentions a day during a disaster and certainly people like this 
who can help us scale that up are vital to doing it.
    Mrs. Brooks. So approximately how many digital volunteers 
does Red Cross have?
    Ms. DeFrancis. I think during Sandy we used 50 of them and 
that was probably the, you know, the maximum. Like I said, many 
of our people in our chapters are tweeting and so we have over 
300 chapters who are probably engaged. So it is hard, but I 
would say 50 about now in digital--trained, digital volunteers.
    Mrs. Brooks. Mr. Ashwood, any comments on your virtual 
operations volunteers?
    Mr. Ashwood. While we have not used the VOS acronym, it has 
been part of our operations plan from many years back that we 
bring in public information officers from other State agencies 
that all move into our operation center as an assist during 
times of disaster.
    Of course, a lot of those now are being transitioned over 
to the technological side to take them to Facebook, to take 
them to Twitter, to help us with that messaging, and make sure 
that we do get the accurate messages out there or correct those 
messages that are inaccurate.
    I think the bigger question here is what we do in times of 
non-disaster. How do we resource to that need, that 
communications need, because I can promise you any disaster if 
you do a hot watch and after-action, No. 1, the issue is going 
to be communications, and information is the silver bullet that 
takes care of disaster victims afterwards.
    If they have the proper information, they can make the 
proper decisions for themselves and their family. So we have to 
constantly strive to resource to that need during non-disaster 
times. The question earlier about why don't people follow us 
more during non-disaster times--we are not saying anything very 
interesting most of the time.
    We need to make sure that we are well-engaged not just from 
an ancillary position here but to make sure that we are there. 
Part of that new communication, that new messaging from Day 1, 
whether it were during a disaster or not, and I think that is 
the key to marketing the whole thing.
    Mrs. Brooks. Thank you.
    Sergeant Kierce, during the Hurricane Sandy episode and the 
different--I am sure you dealt with a huge number of public 
safety agencies in New York and New Jersey--do you know whether 
or not they used digital volunteers and have these virtual 
operation support teams?
    Sergeant Kierce. I think one of the challenges that we 
face, Chairwoman, was the fact that both Jersey City and New 
York had significant power outages in addition to loss of 
Verizon cellular connectivity and things of that nature.
    In Jersey City in particular, we have a very large senior 
citizen population so what we are doing now through our 
community emergency response team training, we are kind of 
embracing a scenario where we can as we train these teams, you 
know, as our volunteers throughout the city to give them basic 
training.
    As the gentleman to my right had said too I think it has to 
be more of a non-emergency, more friendly-type use scenario 
because folks seem to if they don't really use it enough, they 
tend not to really--forget how to use it or don't want to use 
it.
    So it is kind of a challenge that we all face. On my side, 
I have three daughters and I learned that if you didn't speak 
on Facebook they wouldn't speak to you. So I learned how to use 
it pretty quickly.
    Mrs. Brooks. I understand. I have the same dilemma in my 
household. So thank you very much.
    I will turn it over to the gentleman from California for 
any further questions.
    Mr. Swalwell. Sure, thank you.
    I wanted to go back to Mr. Adamski. As far as the efforts 
that FEMA is taking right now to work on open-source formats, 
what exactly, specifically have you done so far and what can we 
expect in the next say 6 months to a year?
    Mr. Adamski. I appreciate the question. So as I mentioned 
in my verbal remarks and in my submitted testimony, we do have 
the disaster recovery center data feed which is a useful tool 
where folks can go and grab that information.
    With regard to what we are currently working on, it is 
looking at the actual data itself and cleansing the data to 
make sure it is actually good data as well as looking at the 
infrastructure to be able to support, to be able to push that 
information out to users.
    I can't give--at this time, I can't give necessarily a time 
frame, but we have multiple folks in multiple program offices 
at FEMA looking at it and how it impacts each of their areas 
and how we can get that information out.
    So it is not a--so we are not--the conversations aren't why 
should we do it, it is how do we get it done?
    Mr. Swalwell. Is there a goal to have all of the data that 
FEMA puts out in a open-source format that can be accessed by 
all?
    Mr. Adamski. I would say it depends on the data. Obviously, 
we wouldn't be releasing to--we wouldn't be releasing obviously 
personally identifiable information to the public or things 
like that, but if it is either--if it is data from disasters 
where it is not necessarily tied to an individual, then we will 
look at that as well as if there are other resource information 
that we can provide, safety tips as well so others can go and 
grab it, take that and then put it into their products, their 
websites, so the public doesn't necessarily need to come to a 
FEMA product, they can actually get that information, to your 
point, wherever they are going through their normal course and 
we can use our partners to be force multipliers that way.
    Mr. Swalwell. Great.
    This question is for Mr. Ashwood and Sergeant Kierce.
    We talked about that CNA report which highlighted that 
although we have come a long way, there is still a lot of 
challenges and the biggest being not enough people in local and 
State government and even Federal Government who are trained to 
use social media.
    Sergeant Kierce, I think your own example, you know, even 
for yourself it would seem uncomfortable and you know, I can 
only imagine that millions of Americans are still just now 
embracing social media and to ask these employees to use it in 
a disaster situation which many times, you know, you have no 
preparation, you don't know that it is coming, and now you are 
put in the position where you have to get this information out 
there.
    What are you doing locally and what can the Federal 
Government do to assist efforts to make sure everyone in the 
department, not just the public relations, not just the 
communications folks, that everyone who needs to relay 
communication to the public is trained to do so in that kind of 
all-of-the-above approach, not just social media but making 
sure that it reaches everyone who needs to know?
    Sergeant Kierce. Well, I think it is--communicating with 
the public is always a challenge especially during emergency 
situations and as I mentioned previously, you know, it seems 
now from our information approximately 60 percent of the people 
in the United States are dependent on cellular communication as 
their primary means.
    So I think although the social media networking is very, 
very good, you also have to be very, very cognizant to the fact 
that you have to remain in a state of readiness where you go 
back to the old means of communicating where it goes back to 
establishing local centers where information can be relayed to 
citizens in times of need.
    The other problem that I do see although it is very, very 
valuable, the old saying, you can't unring the bell. Once the 
information is out there, if it is inaccurate, you have to make 
sure you get it back and get things back on track.
    We are in a situation now where we have found that, you 
know, most of the communication was done during Hurricane Sandy 
when there was cellular communication capabilities through text 
and things like that.
    So with our--we have recently had a new administration come 
in and they are very electronic-friendly where we are upgrading 
all of our communications, our Twitter pages and Facebook pages 
and also the website. And encouraging people to use these more 
frequently as opposed to just using them during emergency 
situations.
    Mr. Swalwell. Great.
    Mr. Ashwood, do you briefly have anything to add?
    Mr. Ashwood. Just basically that the real change is with 
people of my age, my generation, that we have to realize how 
people communicate today, and it is not--might not be the way 
that we communicated growing up.
    We don't have land-lines anymore. People use cell phones. 
It is a different scenario and we have to leave our comfort 
zone and say how do we integrate, how do we engage, how do we 
make sure that the messaging is out there?
    As far as incorrect information that is out there, a lot of 
that is self-correcting. You know, we talk about--and Mr. 
Adamski brought it up--there are other misinformation out 
there. When the traditional media comes out with 
misinformation, the only person that can correct that is the 
same person that told it to you.
    Mr. Swalwell. Right.
    Mr. Ashwood. Whereas within social media, if incorrect 
information out there, you are bombarded with other tweets 
coming in that are telling you that is incorrect information. 
So it is almost self-correcting in that sense.
    What we have to do especially like I said, the people who 
are my age group and older, we have to conform to the new way 
that people communicate. We have to say that this is not 
comfortable to us, but it is something that we have to do for 
the future.
    Remember, there was a time none of us wore seatbelts and 
none of us had smoke detectors either, so change is coming. It 
is being done as we are sitting here. It is just going to take 
a little bit of time.
    Mr. Swalwell. Right.
    I think Ms. DeFrancis nailed it when she said we still have 
to make sure that we use traditional means and I know the Chair 
was a former prosecutor, I was a former prosecutor, and I think 
this analogy probably works.
    I learned in the courtroom when I was presenting a case to 
the jury, because of the CSI effect, I had to, you know, you 
know, have PowerPoint presentations that really grabbed the 
jurors, but I still had to use, you know, the cold hard 
evidence and put that on the table and let them see that and it 
was kind of an all-of-the-above approach.
    I couldn't, you know, forget about the new technologies 
that were out there but people still want the traditional means 
and I think that applies here and how we use social media in 
disaster response.
    Mrs. Brooks. Thank you.
    I just have a couple more questions. This is actually for 
Mr. Adamski.
    The Department of Homeland Security runs the Virtual Social 
Media Working Group and--out of the Science and Technology 
Directorate and I have seen some of those reports, and their 
mission is to provide best practices to the emergency 
preparedness and response community on the safe and sustainable 
use of social media technologies.
    Does FEMA have a representative on that working group? If 
so, who is that? What is their title? Does that person report 
to you or maybe are you on that group?
    Mr. Adamski. No, absolutely. I appreciate the question.
    So, we do have a member on the working group. It is our 
day-to-day social media lead, Jason Lindesmith. He served a 3-
year term and my understanding is that they asked members who 
are part of the working group to serve 3-year terms.
    So what we are--and since his term is up, we are looking at 
a digital communication specialist in one of our regional 
offices to see if we can help add that second person to the new 
term.
    With regard to the person, the person has a dotted line to 
me. Jason has a dotted line to me.
    Mrs. Brooks. Okay, thank you. I think it is very important, 
the work that they are doing because obviously the best 
practices--this is such an evolving, I think a communications 
tool that we need to ensure that those best practices are 
coming together and then are being circulated to the field so 
to speak to ensure that that training happens.
    Talking about one of the biggest barriers, I think, and I 
think Mr. Ashwood has talked about it, with respect to 
emergency management agencies' use of social media might be the 
lack of dedicated personnel and, you know while maybe we 
wouldn't expect for the Federal Government to pay for that 
personality per se, the training, the guidance, the ability to 
train and to use grant funding for this purpose I think is very 
important.
    To what extent, if you know, does FEMA incorporate social 
media and maybe I will open it up to the others into their EMPG 
grants, the homeland security grants, you know, whether or not 
this type of training is provided in FEMA grants. Are you 
aware?
    Mr. Adamski. My understanding is that if it fits within the 
emergency preparedness, their emergency preparedness activities 
as well as their homeland security strategy but to your note, 
though, since I am not in the grants department, we can get you 
a more definitive answer.
    Mrs. Brooks. Okay, thank you.
    Mr. Ashwood or Sergeant Kierce, whether or not you know 
whether or not social media training, helping with personnel 
costs--is that an allowable expense at this point?
    Mr. Ashwood. Well, the emergency management performance 
grant, some view it as the emergency management preparedness 
grant. It is not. It is the emergency management performance 
grant and the flexibility is there for the training, for the 
social media evolution here as we are at the State level and 
the local level.
    It is really the opportunity that is there for the States 
to take advantage of. I don't see anything in EMPG that does 
not allow us to do what our strategy is to engage and 
incorporate social media with our locals as well as our State.
    Mrs. Brooks. Thank you.
    Sergeant Kierce, anything further?
    Sergeant Kierce. Yes, just to echo what Mr. Ashwood said, 
through the UASI program, you know, there is a considerable 
amount of dollars available for information sharing, especially 
between the public and private sectors, which I think is also 
another avenue that needs to be explored.
    Obviously, with our business communities and things like 
that, they have grave concerns that many times they are not 
receiving the information as quickly as possible which could 
ultimately, you know, affect their business capabilities also.
    Mrs. Brooks. With respect to the private sector, I am 
curious, Ms. DeFrancis, whether or not Red Cross Safe and Well 
website--it has been a very popular resource during recent 
disasters.
    Google also stated that their Person Finder program has 
been very important. How are those coordinated? Speaking of the 
private sector, how are we coordinating Google with Red Cross' 
Safe and Well program?
    Ms. DeFrancis. Thank you. Well, we developed Safe and Well 
in the aftermath of Katrina and as Congressman Palazzo said, 
that was a long time ago in terms of the development of digital 
tools.
    So we have been constantly refining it and bringing it more 
up-to-date. We recently in our last redesign of it allowed that 
not only would you go on Safe and Well and register, but then 
you could also click on a button to post your update to 
Facebook or Twitter. So more eyeballs would see that you were 
doing that.
    We are in discussions with Google about People Finder and 
we certainly understand the importance of getting as many 
people to see that, but we have certain protocols around Safe 
and Well that protect privacy of people and we want to make 
sure that we, in doing that, protect that.
    Mrs. Brooks. I guess I will just open it up to the rest of 
the panel to discuss whether or not--whether technology 
companies in your own jurisdictions or Google, Twitter, you 
know, what kind of communications are any of you having with 
those companies?
    Mr. Ashwood.
    Mr. Ashwood. Well, I think the key there is the 
relationship with the private sector. It doesn't matter whether 
it is just social media or working directly with the private 
sector on all issues of emergency management.
    We have a long way to go to make sure that we are fully 
incorporated within the private sector and that they are 
working with us. So I think that is the real key. I know many 
States are further along than others.
    I know with our State that we have a Governor's private 
sector task force that we are trying to utilize and really put 
them in the solution business for some of the issues that we 
have because, quite frankly, they have better answers than we 
do many of the time--much of the time.
    So we need to make sure that that relationship is strong 
and keeps going and this is just one aspect that we utilize 
during those conversations.
    Mrs. Brooks. Anyone else? Any other discussions on the 
private-sector partnerships?
    Mr. Adamski. No, absolutely. So when we have that 
conversation at those information-sharing sessions, we share 
what information we have whether it is preparedness information 
or as I said earlier, our disaster recovery center data feeds.
    So we can make them aware of the tools that they can ingest 
into their products as appropriate as well as in some of those 
information-sharing sessions that we have had that was how we 
learned that some of the platforms that are out there and 
specifically Twitter, you can actually update your status 
message via text message.
    So if you actually sync up your account with your cellular 
phone number, you can actually update your status message in 
140 characters with it just having it two bars for cellular 
connectivity.
    So that piece goes to preparedness to all of the previous 
discussions about being prepared ahead of time, having a plan 
as well as letting your friends and family and loved ones know 
that you are okay and sharing that information with them.
    So it is those information-sharing sessions that I think 
have been valuable and will continue to be valuable.
    Mrs. Brooks. I would like to know and Sergeant Kierce, you 
mentioned that you had so many--you had posted so much on 
Twitter that it caused a problem with the number of posts, and 
in fact, it is my understanding that Twitter, you can be in 
Twitter jail when you post too many times.
    I am curious--what are your different organizations' 
relationship with Twitter? How are we handling that in these 
times so that Twitter doesn't shut down your account for a 
period of time? Did that happen, Sergeant Kierce, or did you 
just have to deal with the shutdown for a period of time?
    Sergeant Kierce. Well, you know, you are limited as far as 
characters and things like that, being able to formulate many 
messages especially of an emergent nature, you know, you have 
to have particulars in there, so it is a bit of a challenge.
    We just dealt with it. You know, and fortunately, when it 
did come back on-line, it did work, but the--as I say, one of 
the biggest challenges we are facing now is trying to 
incorporate all of the different groups.
    Special needs is a major concern we have also. So updating 
our registries and things like that and kind of instructing 
folks as to if in fact they do fall into that category to 
embrace use of the social media where we can keep in touch with 
them; very, very important.
    Mrs. Brooks. Yes, Ms. DeFrancis.
    Ms. DeFrancis. Chairwoman, I would say that we are in 
constant discussions with all of the companies--Twitter, 
Facebook, Google--all of them, and I think in terms of Twitter, 
I think we have stayed out of jail by them--having previous 
conversations with them, them knowing the types of things that 
the Red Cross will be doing.
    But, you know, we know that the next technological horizon 
is going to come from those private-sector companies. We are 
very excited to see what more that we can do with those tools, 
and I think their involvement in all of this is really 
important because that is the future and like you said, it is 
Twitter and Facebook today, we don't know what it will be 
tomorrow.
    We have been surprised by mobile apps. We used to put all 
that information on long tear sheets and hand them out. Now 
they are on the convenience of your phone, and so we are pretty 
excited about that, but it underscores the importance of 
everybody working together.
    Our relationship with the technological companies, the 
internet companies, is they really want to help. They want to 
be there on the front lines helping with these solutions.
    Mrs. Brooks. Anyone further?
    Well, thank you.
    At this time I just really want to thank the witnesses for 
your valuable testimony. It is building upon what we learned 
from the private sector in our previous hearing.
    As you have stated so eloquently, Ms. DeFrancis, that 
partnership is critical, it is something we need to be looking 
to the private sector to bring us the next innovations, but 
then I think that the challenge is, how do we make our own 
emergency responders, first responders comfortable with this 
new technology?
    What kind of training is being provided to them? What kind 
of resources are we dedicating to this? I think we will only 
see it grow from what happened in Hurricane Katrina to future 
disasters and unfortunately we all know that there will be 
natural disasters.
    Knock on wood, hopefully no more, you know, terrorist 
incidences in this country, but we must count on all of your 
agencies and programs, you know, promoting the use of social 
media. People are expecting it.
    With the data that we have seen, people are expecting us to 
respond. They are expecting us in Government and in the 
recovery efforts to help them.
    So I just want to thank you all so very much for your 
efforts, for getting people aware and ready prior to disasters, 
but then even more importantly, for your recovery and all that 
you all are doing whether it is in the law enforcement, 
emergency management, nonprofit, Federal Government, I just 
want to thank you all so very much.
    This is going to conclude our hearing at this time. Members 
of the committee may have some additional questions for the 
witnesses. If they had to leave, they may have some questions 
which they can pose to you, ask you to respond to these in 
writing, and pursuant to committee Rule 7(e), the hearing 
record will be held open for 10 days.
    So without objection, our subcommittee stands adjourned, 
and I thank you.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

      Question From Chairwoman Susan W. Brooks for Shayne Adamski
    Question. As the public has become increasingly more reliant on the 
internet, and even FEMA recommends that disaster survivors register for 
assistance on-line, how do you work with the private sector to ensure 
that resources are brought in such as mobile cell towers and wi-fi hot 
spots?
    Answer. FEMA works in partnership with all levels of Government 
when we respond to emergencies. One of the tools used is the National 
Business Emergency Operations Center (NBEOC) that is activated during 
responses and is located in the National Response Coordination Center 
under Emergency Support Function No. 15. This is a primary two-way 
communication flow with private-sector entities. In collaboration with 
State/local/Tribal/territorial emergency managers, if there is a need 
after a disaster for mobile cell towers, Wi-Fi hot spots, or even cell 
phone charger stations, we utilize the NBEOC and our existing 
partnerships with those in the private sector to assist with filling 
this need.
    As part of our preparedness messaging before an emergency, we 
encourage individuals to have a NOAA Weather Radio All-Hazards or Red 
Cross radio to receive important updates and information from local 
emergency managers. We also encourage individuals to keep on hand extra 
batteries for cell phones and if they have a car, to have a phone 
charger so they can charge their phone from the car battery. This 
recommendation is in addition to having other basics, like extra food, 
water, flashlights, and batteries. A comprehensive list of suggested 
preparedness items can be found at www.ready.gov.
      Question From Chairwoman Susan W. Brooks for Albert Ashwood
    Question. One of the interesting things we saw in the aftermath of 
the tornadoes was the use of social media to promote grassroots 
participation in relief efforts. Specifically, the use of Twitter and 
Facebook to connect survivors with people who were donating goods, 
services, shelter, and other essential items. Was the Oklahoma 
Department of Emergency Management aware of these sites when they first 
surfaced, and from your perspective, how well did these efforts 
complement the State's response efforts?
    Answer. The Oklahoma Department of Emergency Management was aware 
of the websites that assisted in the response efforts. Not only did the 
department know that the websites existed, but the OEM coordinated with 
Oklahoma Management and Enterprise services and Oklahoma Interactive to 
develop a disaster-specific website that became the centralized 
location for disaster information from the Office of Emergency 
Management. This website received 118,000 visits in just over 2 weeks. 
This website and the creation of those like it, contributed to the 
management of the goods that were donated for the masses.

                                 <all>

</pre></body></html>
